<html>
<title> - ROUNDTABLE ON METHAMPHETAMINE: FIGHTING METH USE</title>
<body><pre>[Senate Hearing 109-459]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-459
 
                     ROUNDTABLE ON METHAMPHETAMINE:
                FIGHTING METH USE--A COORDINATED EFFORT

=======================================================================

                                HEARING

                                 OF THE

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

            EXAMINING ISSUES RELATING TO THE USE AND ABUSE 
                          OF METHAMPHETAMINES

                               __________

                      MARCH 23, 2006 (Casper, WY)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
26-962                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman
JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
WILLIAM H. FRIST, Tennessee          CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS, Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas
               Katherine Brunett McGuire, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                        THURSDAY, MARCH 23, 2005

                                                                   Page

Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
DeLozier, Jim, District Manager, Natrona and Carbon County DHS, 
  Casper, WY.....................................................     5
    Prepared statement...........................................     6
Pagel, Tom, Chief of Police, Casper, WY..........................     7
    Prepared statement...........................................     8
Noseep, Doug, Chief, of Police, Wind River Reservation, Bureau of 
  Indian Affairs.................................................     9
Robinson, Rod K., Executive Director, Wyoming Substance Abuse 
  Treatment and Recovery Center, WYSTAR, Sheridan, WY............    10
    Prepared statement...........................................    11
Maki, Anna, Meth Initiative Coordinator, Wyoming Substance Abuse 
  Division, Cheyenne, WY.........................................    13
    Prepared statement...........................................    14
Rawson, Richard A., Ph.D., Executive Director, Matrix Center and 
  Matrix Institute on Addiction and Deputy Director, UCLA 
  Addiction Medicine Services, Los Angeles, CA...................    16
    Prepared statement...........................................    17
Gonzales, Rachel, MPH, prepared statement........................    19
Hamilton, Steve, Campbell County Sheriff 's Department, Gillette, 
  WY.............................................................    25
    Prepared statement...........................................    26
Clark, H. Westley, M.D., J.D., Director, Center for Substance 
  Abuse Treatment, SAMHSA, Rockville, MD.........................    33
    Prepared statement...........................................    34
Freudenthal, Nancy, Wyoming's First Lady, Cheyenne, WY...........    37
    Prepared statement...........................................    39
Searcy, Margean, Salt Lake City Police Department, Salt Lake 
  City, UT.......................................................    40
Sniffin, Bill, CEO, Wyoming Incorporated, Lander, WY.............    42
    Prepared statement...........................................    43
Fagnant, Robert J., M.D., FACOG, FACS, Rock Springs, WY..........    44
    Prepared statement...........................................    45
Martin, Sherry, Director and CEO, Family Wholeness, Casper, WY...    46
Christensen, Grant, DDS, Rock Springs, WY........................    48

                          Additional Material

Statements, articles, publications, letters, etc.:
  Response to question of Senator Enzi by:
    Mr. Delozier.................................................    65
    Mr. Robinson.................................................    65
    Ms. Maki.....................................................    67
    Mr. Rawson...................................................    70


                     ROUNDTABLE ON METHAMPHETAMINE:
                    FIGHTING METH USE--A COORDINATED
                                 EFFORT

                              ----------                              


                        THURSDAY, MARCH 23, 2006

                                       U.S. Senate,
        Committee on Health, Education, Labor and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 p.m., at the 
Holiday Inn, 300 West F Street, Casper, Wyoming, Hon. Michael 
Enzi, chairman of the committee, presiding.
    Present: Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. I'll call to order this roundtable on the 
forum of use and abuse of methamphetamine.
    Today's roundtable is a hearing of the U.S. Senate 
Committee on Health, Education, Labor, and Pensions, and our 
findings today will be a part of the committee's official 
record on this issue.
    I will mention to all of you, if you submit statements, 
they will all become a part of the record. As we go through the 
process today, if you think of something that you do not have a 
chance to comment on or you want to expand on something that 
you've said before, we want you to submit that for the record 
as well.
    We're trying to gather as much information as we can to 
solve a problem. It is a huge problem across the Nation. Of 
course, yesterday State Senator Bob Peck gave me the paper that 
he had just put out, and it says ``Abuse Killed Child, Says 
Pathologist.'' If you read that story, it tells a little bit, a 
little bit about what's happening with methamphetamine use, and 
that's not an isolated story.
    Today we'll be taking a closer look at the drug problem our 
children face every day, and methamphetamine which now appears 
to be the drug of choice for too many of today's young people.
    It can't be said any more clearly. Methamphetamine is a 
lie. It destroys everything it touches. It promises to deliver 
fun and good times to our children, but, in the end, all it 
does is steal our hopes and dreams for the future leaving 
nothing behind but pain and heartache.
    It's a scourge on every level of our society, and we must 
not ignore or minimize the damage it does to our families and 
communities.
    If we're to effectively fight the use of this drug, we have 
to take a team approach that includes our leaders on the local, 
State and national level as well as law enforcement 
organizations and their personnel. One of the reasons I'm 
really happy to be holding this hearing here is because we need 
to be sure that the rural aspect of solving the problem is a 
part of the national solution, and I know that the most 
creative people in the whole world are the people from Wyoming. 
I appreciate everybody that's from Wyoming or come to Wyoming 
to contribute to this solution that we'll have here today.
    I should mention that the record will stay open for 10 days 
after the hearing is over, and that will allow other members of 
the committee who aren't able to come to Wyoming for the 
hearing to be able to look at the testimony that has been 
received and ask some additional questions that might hone in 
more on their area of expertise.
    There is no doubt that it's time to draw the line on meth 
use and make sure our children understand that it's a dangerous 
drug and they should avoid it, even avoid it the first time. 
It's not an experimental drug. We must speak up now and make 
sure they hear us before it's too late.
    Now, as the proud grandfather of a grandson, I'm very 
concerned about the world that he'll grow up in. That's why the 
statistics on meth use are of such great concern to me and 
other parents and other grandparents all over our State and the 
Nation.
    According to a July 2005 report by the National Association 
of Counties, meth use has been named America's No. 1 drug 
problem. We also know that meth hits places like Wyoming the 
hardest. Rural areas in the western and midwestern parts of the 
country have been reporting use well above the national 
average.
    Part of the reason I think that happens is that we have 
more of a sense of community than the rest of the Nation, so 
we're more concerned about our friends and neighbors, and so 
the problems show up in the smaller populations. But it's a 
huge problem. We need to solve it here and everywhere else.
    For those who don't know, meth is a powerful stimulant that 
affects the central nervous system and can cause an individual 
to become aggressive, confused and paranoid. It causes parents 
to choose getting high instead of caring for their children. 
The result of meth use is an increase in crime and an increase 
in abused and neglected children in these areas. The strain on 
local law enforcement, health care services and businesses is 
severe. In response, we need a comprehensive, coordinated 
approach to assist cities and towns all over the Nation.
    Thanks to the leadership of Senator Talent of Missouri, 
Congress sent to the President the Combat Meth Act, which the 
president signed into law this month. This new law restricts 
the sale of ingredients needed to make meth. It enhances the 
international enforcement of meth trafficking and it provides 
tools and resources to law enforcement to crack down on meth 
producers and distributors. It's a much needed and important 
step forward, but there is a lot more we can do.
    The reason I'm holding this roundtable is to better 
understand how to coordinate with the States and localities to 
treat and prevent meth use and abuse. For every dollar spent on 
treatment, society saves $7 in reducing the need for medical 
attention, jail time, environmental hazards and child welfare.
    As chairman of the Senate Committee on Health, Education, 
Labor, and Pensions and as someone from a State where over 50 
percent of all drug arrests are meth related, I'm concerned 
about the impact this fiercely addictive drug has on rural and 
frontier communities and families.
    In the end, the answer to stopping the spread of meth use 
will not come from Washington. The answer will be found by the 
individuals, the communities and the States most affected by 
the impact of this drug.
    Fortunately, several States are already stepping to the 
plate to get ahead of the problem. Montana has the Montana Meth 
Project that aims to significantly reduce the prevalence of 
first-time meth use in the State through public service 
messaging, public policy and community action. This is a 
coordinated effort that's working.
    South Dakota has launched the Methamphetamine Awareness and 
Prevention Project which encourages communities to form 
coalitions of citizens, businesses and community leaders, law 
enforcement and faith-based organizations to examine meth 
issues in their area. Working together, they develop projects 
to increase the awareness of the dangers associated with meth 
and educate the public on how they can become involved. It's 
the only project of its kind in the United States.
    We will hear today what Wyoming and Utah are doing. These 
States are among the leaders in the fight against meth.
    I welcome this chance to look at the different initiatives 
that are proving effective, coordinated efforts from different 
communities, regions, States and levels of government.
    The Substance Abuse and Mental Health Service 
Administration is working with the States to develop national 
performance outcomes measures. This is a State-level reporting 
system that will create an accurate and current picture of 
substance abuse. Once all States are on the system, research 
will be more rapidly translated to care.
    Until that picture is complete, we must work to ensure 
providers are getting and using the most up-to-date information 
on treatment based on the best evidence available.
    Treatment for meth has proven to work and States are 
finding ways to beat meth use and abuse. The Federal Government 
must work to support these efforts, and that's what I want to 
discuss with you today. Need your ideas. The way these 
roundtables work, it's a little different system than what we 
have used in Washington before.
    As the chairman of a committee, I'm allowed to call 
hearings, and the typical hearing would be to have one or two 
panels of five or six people. The reason they're that big of a 
panel is I would get to choose all but one of each panel and 
the ranking member would pick the other person. Then we would 
have a bunch of people from both sides of the aisle show up to 
beat up on the people that were doing the hearing. It isn't 
really meant to be an attack on the people, but quite often it 
turns out to be an attack on each side of the aisle.
    Senator Kennedy and I have gone to a system of roundtables, 
and that's where we invite in some people that are experts on 
the situation and we discuss some common questions to come up 
with some common answers, common sense answers. We found that 
that works much better. It eliminates some of the animosity 
that comes out of the hearings and actually allows the Senators 
to listen and hear what the suggestions are instead of 
concentrating on the kinds of questions that could be used to 
embarrass or further their particular viewpoint.
    I really appreciate the group of people that we have here 
today, just a tremendous, tremendous resource. Many of you I 
have gotten to visit with before and look forward to the 
information.
    As I mentioned, any statements that you want to submit will 
become a complete part of the record and anything you want to 
expand on later will also be a part of it.
    To make the roundtable work, what we ask is that when you 
want to speak, if you would raise your card. I'll have some 
help from people helping to keep track of what order they're 
raised in so that we can be as fair as possible on that.
    Since we already have your statements, it wouldn't be 
necessary to put the entire statement in there. We would ask, 
to get as many ideas out as possible, that you limit your 
comments at any one time to about 2 minutes or less, and that 
way it becomes more of a rapid fire kind of brainstorming.
    I would like to introduce the people that we have on our 
panel today. I would like to start with the First Lady of 
Wyoming, Nancy Freudenthal.
    I got to spend the day yesterday with your husband, and 
it's nice to have you with us today. It's really an honor to 
have you here.
    I could be wrong, but I believe this is the first time that 
a Senator from Wyoming has chaired a U.S. Senate committee 
hearing to hear the testimony from the first lady of our State. 
This is kind of an historic occasion. The first lady will be 
talking to us about her First Lady's Initiative.
    It will be a little bit of a variance from it, but we're 
talking about substance abuse and mental health, and one of the 
substance abuse areas is definitely in the area of underage 
drinking as well as alcohol abuse, but the First Lady's 
Initiative has been aimed to prevent underage drinking, and we 
want that to be a specific part of the testimony on this.
    I appreciate your being here with us today.
    We also have Anna Maki, the meth initiative coordinator for 
Wyoming, the Substance Abuse Division in Cheyenne.
    We have H. Westley Clark, the director for the Center for 
Substance Abuse Treatment for the Substance Abuse and Mental 
Health Services Administration in Washington, DC.
    We have Tom Pagel, who is the chief of police here in 
Casper, and he's also a member of the citizens committee work 
group and he'll be speaking more about their work.
    We have Dr. Robert J. Fagnant, who is the OB/GYN doctor at 
the College Hill Women's Health Center in Rock Springs.
    We have Mr. Jim DeLozier, who is the district manager for 
Natrona and Carbon County Department of Family Services also 
here in Casper.
    We have Sherry Martin, who is the director and CEO of 
Family Wholeness here in Casper.
    We have Margean Searcy, who joins us from the Salt Lake 
City Police Department.
    We have Mr. Rod K. Robinson, who is the executive director 
of the Wyoming Substance Abuse Treatment and Recovery Center in 
Sheridan.
    We have Doug Noseep, who is the chief of police for the 
Wind River Reservation.
    We have Bill Sniffin, who is the CEO of Wyoming, 
Incorporated in Lander and is also the founder of Free and 
True, the antimeth campaign that's been working well here in 
this State, and looking forward to hearing some more about 
that.
    We have Dr. Grant Christensen, who is a dentist from Rock 
Springs who devotes much of his time traveling around the State 
to work with individuals with meth mouth.
    We have Sergeant Steve Hamilton, who is joining us from the 
Campbell County Sheriff 's Department located in my hometown of 
Gillette.
    And, last but certainly not least, we have Dr. Richard K. 
Rawson, who is the executive director of the Matrix Center and 
the Matrix Institute on Addiction and deputy director of UCLA 
Addiction Medicine Services located in Los Angeles.
    Let me turn to the first question for the participants. 
What work have you done in your perspective field or community 
to better understand and successfully address meth use in rural 
areas? Emphasis on the rural areas and, again, in your 
perspective field or your area of interest.
    Who wants to be first? Mr. DeLozier. Again, I'll interrupt 
you just before you start.
    When you think of something and you want to be recognized, 
stand your card on end, and that will help us to know what 
order to go in.
    Mr. DeLozier.

STATEMENT OF JIM DeLOZIER, DISTRICT MANAGER, NATRONA AND CARBON 
                     COUNTY DHS, CASPER, WY

    Mr. DeLozier. Thank you, Senator.
    In Natrona County, the Department of Family Services is 
working in the significant collaboration with law enforcement, 
the district attorney's office and other public and private 
agencies to bring meth cases involving children into the 
juvenile court system where the issues of safety, permanency 
and well-being can be formally addressed for children and 
families.
    DFS statewide is developing policies to deal with meth 
cases including policies regarding safety to workers who are 
investigating and involved in these cases.
    DFS is attempting to expand the number of foster homes 
statewide to deal with the increase in out-of-home placements 
resulting from meth-endangered children cases. Also we are 
making use of many more relative placements and kinship 
placements so these kids have the ability to go with people 
they know. The legislature recently passed significant 
increases in the rates for foster parents. This should help in 
our recruiting for these situations as well.
    We have a number of partnerships throughout the community 
that we're involved with. We refer many cases for counseling 
assessments, all of those kinds of things to the Central 
Wyoming Counseling Center here in Casper.
    We're involved in the planning and the participation for 
the annual meth conference that's held in Casper, and we are 
also on a number of other community meth groups dealing with 
different issues. For example, one is infants born at the 
hospital with methamphetamine in their system and how we 
address that as a community.
    That's all I have at this point. Thank you, Senator.
    Senator Enzi. Thank you.
    [The prepared statement of Mr. DeLozier follows:]

                Prepared Statement of James W. DeLozier

    Methamphetamine (meth) has become a major contributor to child 
abuse and neglect in my service area as well as the whole State of 
Wyoming. In the year 2005, approximately 100 children were put in out 
of home placement due to Methamphetamine use/sales/manufacture in 
Natrona and Carbon Counties. Most of the issues involved use of the 
drug and proximity of the drug and associated paraphernalia, to 
children in their homes or other areas.
    Methamphetamine has been attacked in a number of ways in Natrona 
County. With the introduction of the Drug Endangered Child Act in 
Wyoming Statute in 2004, Natrona County Law Enforcement began a very 
aggressive focus on enforcement. Enforcement in Natrona County had been 
good prior to the introduction of this legislation. Many more children 
were removed from meth abusing parents or caretakers after its 
enactment. Law Enforcement, the District Attorney's Office and DFS have 
worked extremely well together in this area, along with many other 
agencies. Significant prosecution of cases in both the Criminal and 
Juvenile Courts has enabled the system to focus much attention on meth 
issues in Natrona County.
    Natrona County has a significant amount of agencies and services 
available to deal with the front end of the problem, although adequate 
personnel appears to be a continuing issue for those agencies on the 
front lines.
    The goals in all of the DFS cases were reunification with the 
parent(s) or caretakers from which the children were removed. Success 
occurred in cases where high amounts of child visitation with the 
parent (if safe to do so) occurred in conjunction with intensive 
treatment, in-patient or out-patient and the parent's willingness to 
get sober and seek help. Most of the children involved were under 10 
years of age and most of that group was under 6 years of age.
    DFS worked its cases much the same way in Carbon County. However, 
by contrast, Carbon County is composed of very small, low population 
communities. Adequate resources to attack the meth problem on the front 
end are lacking in most of the agencies involved, and even basic 
treatment resources are just short of nonexistent. This kind of problem 
exists in much of Wyoming in dealing with the meth problem.
    A major issue is availability of treatment resources. Even in 
larger communities like Casper and Cheyenne, adequate treatment 
resources do not exist, particularly when it comes to low-cost or no-
cost residential treatment for adults. Most of the adults involved with 
meth in the DFS cases have no ability to afford residential treatment.
    Casper began addressing the meth problem over 5 years ago. The 
community is poised to see continuing growth in knowledge and 
participation in dealing with meth issues for a long time to come. 
Other communities in Wyoming are just beginning that journey because of 
increased meth presence in their areas.
    DFS has formed partnerships with a number of entities/agencies in 
Natrona County in tackling the meth problems. We form part of an 
overall safety net in which each player has a role. Some of the 
partners DFS works with are: Casper, Mills and Evansville Police 
Departments; Natrona County Sheriff 's Office; Natrona County District 
Attorney's Office; Central Wyoming Counseling Center; Natrona County 
Child Advocacy Project; Natrona County Public Health Department; 
Natrona County School District #1; Wyoming Department of Corrections; 
and Community Health Center of Central Wyoming.
    This is a sample of what good cooperation and communication can 
accomplish. There are 2 recent involvements to highlight.

    1. Natrona County Child Advocacy Project.--DFS, along with many 
other partners, is a member of the CAP, and has been for several years. 
The main purpose of the CAP is to provide a safe environment in which 
to provide forensic interviewing services, medical and mental health 
assessments, of alleged victims of child abuse. Most of the cases 
coming to CAP had been sexual abuse and major injury cases. As of March 
1, 2006, CAP initiated a meth protocol. Now any child coming into DFS 
custody because of meth will automatically go through the center to 
receive a forensic interview for information/evidence gathering, a 
medical assessment to include the Well Child Check DFS is required to 
have on all children coming into custody, and either a mental health 
assessment or child developmental screening depending on the age of the 
child as to which is appropriate. Developmental screenings would be 
referred out to Child Development Centers. CAP is currently a program 
of the Community Health Center.
    2. DFS/Department of Corrections/Law Enforcement/District 
Attorney's Office.--These agencies began a cooperative program of 
aggressively targeting meth users who are on either probation or 
parole. DOC has broader powers of search available to them in these 
cases. Once meth has been determined present in the home or being used 
by the DOC client, and there are children in the home, the normal 
procedure of removing children from the home and initiating criminal 
and juvenile court action comes in to play. This has been an effective 
tool for the community in dealing with meth use as well.

                            RECOMMENDATIONS

    <bullet> Recognize the methamphetamine problem as a health crisis, 
not simply a substance abuse issue.
    <bullet> Increase funding availability for Community Mental Health 
Centers to expand in-patient and out-patient treatment programs across 
the State.
    <bullet> Allow funding to be used with private service providers 
for mental health assessing, screening and treatment without the 
strings of Medicaid attached. Many private service providers do not 
wish to deal with the regulations and administrative work associated 
with Medicaid, especially individual providers.
    <bullet> Approve funding specifically for getting adults into in-
patient residential treatment. Provide funding for women to enter 
treatment with their children still in their custody. This would 
require programs to be developed on a larger scale to accommodate women 
and children.
    <bullet> Provide incentives for necessary providers to set up shop 
in remote, low-populated areas in order to increase access and 
availability of services in rural areas.
    <bullet> Provide funding availability to projects like the Natrona 
County Child Advocacy Project to assist in dealing with child abuse/
neglect issues arising from meth use by parents or caretakers.

    I hope this information will assist Senator Enzi and the committee 
in making decisions that will provide for positive outcomes related to 
methamphetamine problems in Wyoming.

    Senator Enzi. The next person would be Mr. Pagel. I want to 
thank him for the document that you gave us that has a lot of 
information. It will also be a part of the record. Mr. Pagel.

      STATEMENT OF TOM PAGEL, CHIEF OF POLICE, CASPER, WY

    Mr. Pagel. Senator, thank you very much.
    It's important to note that Wyoming has been dealing 
specifically with meth since 1992 when it began a rapid rise in 
its impact on the State. Specifically----
    Senator Enzi. Let me interrupt just a minute.
    Is everybody able to hear? Do we need to move the 
microphones a little closer?
    Thank you.
    Mr. Pagel. Normally I'm not that bashful. I thought they 
would be able to hear.
    We have been dealing with meth since 1992 when we 
specifically noted the increase in it and the problems that are 
brought to us. Since that time, we have tried a very high level 
of enforcement efforts. We have certainly had success with the 
enforcement, but we have not had success in knocking the 
problems out.
    What you are seeing now in Wyoming is a meth conference 
that's sponsored each year with in excess of 700 attendees 
where we're able to bring in area experts from around the 
country such as Dr. Rawson, who was here earlier this year.
    In Casper we have also taken--with the community money as 
well as foundation money, we were able to do a study which 
established a snapshot in time, if you will, of what is the 
problem in Casper, what is the level of the problem or the 
scope of the problem that we're seeing.
    From that information, we were able to go to a community 
facilitation initiative where we were able to bring 20 of our 
citizens together and in an intensive 3-week process looked at 
the problem in Casper where we have identified problems with 
the lack of long-term residential treatment centers, a lack of 
standardization of data and the ability for individuals to get 
into treatment when they're needed. The capacity is simply not 
there for residential treatment.
    Thank you.
    Senator Enzi. Thank you.
    [The prepared statement of Mr. Pagel follows:]

                 Prepared Statement of Thomas J. Pagel

    In 1992, when Wyoming first noticed the increase in the use of 
methamphetamine, no one could have predicted the tremendous impact that 
it would have on the State. It now drives our crime statistics, limits 
our workforce, tears apart families, medically impacts our babies, 
inhibits learning potential, and wastes untold community and State 
resources.
    Individuals initially looked at methamphetamine as a law 
enforcement problem. Thousands of drug arrests, high level drug 
conspiracy investigations, and longer prison sentences failed to solve 
the problem. It became readily apparent that we could not arrest our 
way out of this problem. We cannot break the cycle of criminal activity 
until we break the cycle of substance abuse.
    Regional Drug Enforcement Teams (RETs) have been very effective at 
targeting upper level methamphetamine dealers and removing these 
individuals from our streets. These cooperative task forces employ 
Federal, State and local officers and combine their resources. Their 
efforts have taken thousands of pounds of methamphetamine off of our 
streets.
    Drug Courts have proven to be effective but are limited by capacity 
availability. The authority of the judge, coupled with effective 
treatment and long-term monitoring make a difference. In many 
situations, however, their success is limited because long-term 
residential treatment is simply not available.
    Various prevention programs have been tried in our schools and 
communities. Most people believe that prevention makes sense but the 
impact of the programs are hard to evaluate.
    Like other western communities, Casper searched for an answer to 
the methamphetamine epidemic. During the summer and fall of 2005, a 
research study was conducted in Casper to determine the extent of the 
impact of methamphetamine. The consultants interviewed individuals from 
approximately sixty (60) agencies or programs in Natrona County. This 
multidisciplinary approach gave an accurate ``snapshot in time'' of the 
problem.
    Armed with this information and foundation funding, Casper put 
together a Community Facilitation Initiative Committee to examine the 
problem. The twenty (20) community members spent three (3) intensive 
weeks reviewing the study and listening to presentations from many 
experts in the area of methamphetamine. At the conclusion of their 
review, they made over eighty (80) recommendations to address the 
methamphetamine problem in Casper.
    The collection, warehousing and analysis of data presents a 
particularly challenging problem. There is no standardization of 
software for the collection of substance abuse data. This is especially 
true when you try to combine and analyze data from multidisciplinary 
professions, such as criminal justice, treatment providers, medical, 
schools and social services. Without standardized reporting, it becomes 
a crisis every time a report or study is attempted.
    Casper has made a bold move by promoting random drug testing within 
the business community. Over 160 businesses have signed on with the 
program and the number continues to increase. This sends a clear 
message that if you want to work in Casper, you must be drug free.
    The ironic piece of this effort is that with the exception of 
public safety and commercial drivers, Federal interpretation is that 
random drug testing of governmental employees is a warrantless search 
and it is illegal. A community or governmental entity must show that a 
``substantial need'' exists before governmental employees can be 
randomly drug tested. Isn't it ironic that the bus driver who 
transports your child to and from school is drug tested but the teacher 
that spends all day with them is not? Isn't it ironic that the 
ambulance driver is drug tested but the nurse or doctor is not. This is 
a ridiculous situation that must be addressed. Governmental employees 
should not be a protected class but rather, should take the lead in 
random drug testing.
    All of us are accountable for the funds that we obtain and for the 
responsible expenditure of those funds. This is particularly true of 
the millions of dollars that are appropriated each year for substance 
abuse. Unfortunately, confusion exists as to how much money is 
received, who received and where it will be spent. Funds are received 
through grants in criminal justice, treatment, prevention and others 
but it is difficult to determine how much money actually comes into a 
community because no one entity is in charge.
    The RETs have operated successfully since 1987 with funding from 
the Federal Edward Byrne Grant. This was possibly the most effective 
Federal law enforcement program I have seen in my 35 years of law 
enforcement. A State or community could evaluate their needs and 
determine which of the 28 funding areas were most appropriate for their 
needs. Unfortunately, the tragedy of September 11, changed all of that. 
Now the Justice Department funding has shifted to Homeland Security and 
the parameters have narrowed considerably. While September 11 was an 
unspeakable tragedy, diverting funds from drugs and violent crime 
programs in the Justice Department was not the answer. Those funds are 
needed every day to conduct drug and violent crime investigations 
across the country.
    One of the more significant problems that the methamphetamine 
epidemic has caused is the lack of treatment beds for long-term 
residential treatment needs. The old 28 day treatment programs that 
have historically been used for alcoholics are not effective with meth 
addicts. While long-term residential treatment programs are expensive, 
they are certainly a savings over prison incarceration costs and 
multiple unsuccessful attempts in short term treatment programs. Long-
term residential treatment capacity must be increased.
    The Health Insurance Portability and Accountability Act (HIPA) 
complicates the sharing of patient information among the 
multidisciplinary agencies that are necessary to address the needs of 
substance abuse addicts and families. This takes a cooperative effort 
and the necessary information must be available to all parties. This 
has been encountered in several areas, including pregnant mothers who 
are using meth and about to deliver their child. The Obstetrics doctors 
have confidentiality issues with their patients but the Pediatrician 
doctors and family service case workers deal with the meth impaired 
babies. Better coordination must take place.
    Service providers and program managers must be careful to use 
``best practices'' whenever possible. This might be the surest way to 
provide effective services to the clients. The problem often becomes 
how to conduct the assessment, evaluation, and accountability of these 
programs. Assistance in these areas would be very beneficial to all 
concerned.
    The greatest treatment programs in the world will be unsuccessful 
if the individual completes the program and is unable to earn a living 
wage. Workforce development must be an integral piece of treatment 
programs so that clients can create a new life.
    There is no way that the Federal or State Governments can solve the 
substance problems for our communities. It is possible, however, for 
grants from the Federal and State Governments to facilitate successes 
with substance abuse efforts in communities after those communities 
have conducted assessments and evaluations and then prioritized their 
responses. There is a role for Federal, State and local Governments, as 
well as foundations. It is this collaboration that we must achieve.

    Senator Enzi. Mr. Noseep.

     STATEMENT OF DOUG NOSEEP, CHIEF OF POLICE, WIND RIVER 
             RESERVATION, BUREAU OF INDIAN AFFAIRS

    Mr. Noseep. Thank you, Senator, for having me.
    Indian country, the Wind River Indian Reservation comprises 
two tribes, the Eastern Shoshone Tribe and the Northern Arapaho 
Tribe.
    I arrived at the Wind River Reservation in 2003 as the 
chief of police, and it was evident at that time that we were 
behind the curve. As Mr. Pagel said, methamphetamine has been 
out but it was like a delayed reaction on the reservation. Once 
they got a hold of it, it took off like wildfire. For us to 
combat the problem, we teamed with the Department of Criminal 
Investigation, and they offered us slots and a computer and an 
office at the Riverton police department.
    We essentially took a man off the street for us, a 
patrolman, and teamed him with the Department of Criminal 
Investigation.
    I know there is--Indian country, it's funny in that they're 
pretty protective of their areas. Differences aside, meth is 
not going to wait for you to work out your differences with 
counties, States, and those are differences that you have to 
set aside when it comes to methamphetamine.
    That is what we had done at the time. We have an officer 
that is on, that is very aggressive along with the DCI team, 
and it has been very, very effective.
    As you know, May of last year, we had 28 search warrants 
conducted on Fremont County territory, 7 or 18 of those 
conducted on the reservation.
    We feel that, as Mr. Pagel said, we're not going to get rid 
of it, but we're definitely, I guess, kicking a hole in it and 
we're not going to stop now.
    Sometimes in Indian country, there is a lot of one-trick 
ponies, but we're wearing it for good and we're not going to 
stop.
    Thank you.
    Senator Enzi. Thank you.
    Mr. Robinson.

   STATEMENT OF ROD K. ROBINSON, EXECUTIVE DIRECTOR, WYOMING 
    SUBSTANCE ABUSE TREATMENT AND RECOVERY CENTER (WYSTAR), 
                          SHERIDAN, WY

    Mr. Robinson. Thank you, Senator, for the invite to this 
roundtable.
    In the treatment industry, or in the whole realm of 
developing recovery services, where we stand as a full 
continuum service treatment center or treatment system in 
Sheridan, Wyoming, we service individuals from 18, primarily 18 
out of the 23 counties in the State. What we have seen as our 
first task is to first develop a seamless continuum of care 
that allows for multiple levels and intensities of service 
rather than a one-size-fits-all model.
    Second piece would be that we stay very busy establishing 
local as well as statewide partnerships from DFS to primary 
medicine, not just in the area of detoxification, law 
enforcement. When we establish a full continuum of service, and 
the research bears it out, that full continuum service is going 
to be most successful in whatever drug it is that you're 
treating versus segmented service, either residential only or 
outpatient only, too short-term of service or perhaps even too 
long-term of service where you start to experience what we 
refer to as therapeutic peaking or folks leaving treatment 
prematurely.
    Our emphasis has been in building a full continuum of 
service so that you can match the intensity of the person's 
illness with the intensity of service that will best stabilize 
and then to follow them for the necessary period of time rather 
than a predetermined or prescribed period of time, i.e., 6 
months only in a residential center versus 18 months, upwards 
of 2 years with a continuum of service.
    We have also worked very hard at embedding the research and 
performance measures into this particular model so that we can 
determine what is most appropriate for somebody, whether it's 
alcoholism or cannabis addiction or methamphetamine addiction, 
what is the most appropriate length of stay for that individual 
rather than looking to West Coast or East Coast to help us 
determine what's most appropriate for Wyoming.
    We borrow from those models as there are several great 
models out there and develop our service system so that we make 
sure that we're addressing the specific needs of Wyoming 
citizens, especially in a rural area.
    The continuum of service is oftentimes very difficult to 
establish and sustain in rural areas. However, that's where the 
strategic partnerships become most critical, and a constant 
effort, whether it be working with colleagues in law 
enforcement or DFS, medicine, psychiatry, we make sure that the 
necessary linkages are in place. I ought not forget the 
importance of workforce developments as well, because we have 
such a booming industry in the State right now, but one of the 
key critical elements that can harness most in that type of 
industry is incidence of prevalence of methamphetamine use, 
abuse and dependency.
    Really partnering strongly with workforce development is an 
absolute key that we have been very active in as well.
    More for later. Thank you.
    Senator Enzi. Thank you.
    [The prepared statement of Mr. Robinson follows:]

                 Prepared Statement of Rod K. Robinson

                  WYOMING, A UNIQUE RURAL PERSPECTIVE

    Senator Enzi, I would like to start by thanking you and the other 
members of the Senate Health, Education, Labor, and Pensions Committee 
for holding this critical roundtable discussion here in Casper, 
Wyoming.
    For the record, my name is Rod Robinson, and I am the Executive 
Director of the Wyoming Substance Abuse Treatment and Recovery Center 
based in Sheridan, Wyoming.
    Senator Enzi, I think this roundtable discussion is important not 
just because it's focusing on meth, but specifically because it's 
focusing on the issue as it relates to rural areas like Wyoming.
    If you take a look at the map I've handed out, you'll see the 
location of NIDA-funded addiction-based research projects in America. 
Now take a look specifically at the blank area including Wyoming and 
the surrounding States.
    Therein lies the problem. While our States have unique attributes 
and are affected in unique ways by problems such as the methamphetamine 
epidemic, far too few resources are expended attempting to understand 
the unique situations presented by rural States like Wyoming.
    That's why this roundtable is so important.
    Senator Enzi, I want to start out by commenting briefly on WYSTAR's 
experience in treating methamphetamine addiction in rural Wyoming.
    The first thing I want to emphasize is the importance of providing 
a seamless full continuum of care when treating methamphetamine 
addiction, rather than segmented levels of care. There are some who 
believe that methamphetamine addiction can only be beat with primary 
residential care lasting 6 to 9 months or longer.
    That's just wrong.
    WYSTAR is demonstrating that people addicted to methamphetamine can 
recover with primary treatment stays as short as 60 days. The key is 
that it does not work to treat an addict for 60 days and then to wish 
them luck and hope they don't relapse. At WYSTAR, we have 
conscientiously designed a full continuum of care that ranges from 
immediate intervention and primary treatment, to transitional treatment 
with recovery home living, to outpatient services, workforce 
development and life skills development. (see service matrix handout)
    With this type of stepped-down treatment, we can stay with our 
clients for a much longer period of time at a fraction of the cost of 
primary treatment. By staying with our clients over a longer period of 
time, we are able to identify and correct relapse stressors thereby 
increasing the number of recovery successes.
    This brings me to my second point, the importance of follow-up and 
data collection.
    For far too long, treatment providers have been paid for filling 
beds with little regard for the effectiveness of their treatment.
    At WYSTAR, we have concluded that unacceptable. Without data 
documenting the relative effectiveness or ineffectiveness of treatment, 
providers are simply throwing darts at a target while blindfolded in 
hopes that they hit something. At WYSTAR, we have taken the UCLA model 
for tracking clients and have adapted it for rural Wyoming. Using this 
adopted model, we have achieved 100 percent success in tracking our 
clients over a 6-month term.
    While SAMHSA has recently reduced follow-up requirements from 12 
months down to 6 months, our goal is to continue tracking 100 percent 
of our clients for 12-months and beyond. It's only by monitoring long-
term success that we can be sure that we are making a difference. On 
this front, one of the lessons that we have learned is that rural 
Wyoming is significantly different than inner city settings when it 
comes to client follow up. Think of the adage that Wyoming is a small 
town with long streets.
    That pretty much defines the difference.
    We believe that we can attain much higher contact and follow-up 
rates than the national average precisely because Wyoming is basically 
a small town. When a client moves, even if they move 2, 4, 6 hours 
away, their friends, co-workers and family tend to know where they are.
    In an inner city setting, if a client moves out of their 
neighborhood, it may be virtually impossible to find them again to 
track their progress.
    But while our small-town attributes may be an advantage, the 
liabilities associated with our long streets should not be 
underestimated. Unlike an inner-city setting, it takes significant time 
and money to follow up with our clients. In an inner city, a caseworker 
may be able to visit three or four clients on the same city block.
    In Wyoming, we may be able to visit only one client in a day if we 
need to drive over the Bighorns to Tensleep to see that client. The 
flip side of that coin is that a client who is about to relapse in 
Wyoming has significantly fewer options to get to treatment both 
because of the great distances involved and because the relative 
scarcity of resources.
    This brings me to my next point on rural best practices--the 
importance of helping clients to establish where their craving 
thresholds will most likely manifest.
    At WYSTAR, we are expending significant effort to identify craving 
thresholds in users of methamphetamine.
    By identifying the duration between craving thresholds during the 
recovery process, we can better shape the type, intensity, and timing 
of the services we deliver. By better targeting our resources, we can 
make the full continuum of care more cost-effective and can also 
minimize the chances that a client will relapse when they are too far 
from treatment to seek help.
    That brings me to the final point I want to make: the importance of 
establishing a quality practices initiative pilot program in the 
reauthorization of SAMHSA that coincides with the National Outcome 
Measures.
    We believe that it is critical that we explore options to make 
systemic changes to the ways that treatment and recovery services are 
delivered in America and specifically the ways that those services are 
delivered in rural America.
    What are the structures that we need to put in place to ensure that 
outcome-based performance measures are incorporated into everyday 
practices?
    How can we ensure that State substance abuse divisions, departments 
of corrections, family services, workforce development agencies, and 
education departments all coordinate their approaches to addictions 
treatment and recovery and to data collection via a comprehensive plan?
    How can we make sure that innovative practices identified by 
providers such as WYSTAR are rapidly distributed to similarly situated 
providers?
    How can we make sure that best practices are provided in real-time 
to providers and not written up in a TIP that may be published 2 or 
even 3 years after the data was collected?
    Senator Enzi, please know that as you and the HELP Committee 
consider these and other critical issues involved in the 
reauthorization of SAMHSA, WYSTAR will do all that we can to assist you 
and to make our data and results available to you and your staff.
    Once again, let me thank you and the other members of the HELP 
Committee for holding this important roundtable in Casper, Wyoming.
    I'm happy to answer any questions that you may have.

    Senator Enzi. Ms. Maki.

 STATEMENT OF ANNA MAKI, METH INITIATIVE COORDINATOR, WYOMING 
             SUBSTANCE ABUSE DIVISION, CHEYENNE, WY

    Ms. Maki. Thank you, Senator Enzi.
    Michelle, thank you for putting this together, as well as 
everyone, thank you for being here today at the field hearing.
    Like Mr. Pagel mentioned, our efforts specific to meth 
began in 1992. As between 1992 and 1998, meth investigations 
increased over 600 percent in our State.
    The Governor's board, the Substance Abuse and Violent Crime 
Board took action at this time and sought for Federal funds in 
order to study this problem. Then it followed in 1998 with the 
Wyoming Meth Initiative, which was instigated following a 
Wyoming legislature.
    Funds were allocated at this point for improvements to the 
Department of Corrections, Family Services, the attorney 
general's office as well as the Department of Health and 
substance abuse divisions.
    Our substance abuse division was initiated in 2000 in order 
to provide basically more resources to look at this problem 
called methamphetamine.
    In 2005 Wyoming legislators really did respond in force 
when they looked to authorize a study to review the scope of 
methamphetamine through House bill 275.
    I assisted in this study, the meth planning study, and it 
really is one of the first of its kind. It is a compilation of 
data sources that already were existing within the State, set 
aside maybe one survey that we did complete. This is data 
sources of the State agencies, local communities across the 
State. It's quite an accomplishment of information.
    Now, the national association of model State drug laws 
actually looks at this study as a good model of what States can 
do with already existing data.
    Our meth study did provide some means of providing a road 
map for House bill 308. Now, House bill 308 was aimed at 
antimeth efforts across the State. We're looking to boost law 
enforcement, the court system, as well as treatment and 
prevention across Wyoming.
    One of the integral components of Wyoming's statewide 
response to meth is definitely the progression of gateway 
drugs. We're talking alcohol, nicotine, as well as marijuana.
    We have got multiyear prevention measures in Wyoming. 
They're working both on alcohol and nicotine, which both 
sustained steady decline in our State.
    The building treatment capacity maintaining a quality 
continuum of care is also very much key to Wyoming's response. 
SAMHSA reports that in Wyoming residential treatment has--or 
the admissions for amphetamines has definitely increased. 
Between 1992 and 2004, it's increased over a thousand percent 
just in Wyoming.
    Wyoming Access to Recovery has developed a collaboration of 
criminal justice, treatment and faith-based communities that 
are providing treatment as well as recovery support services 
here in Casper. This is aimed at use as well as their families.
    We have made some strides as far as closing the treatment 
gap, but definitely, and you'll hear this today, a shortage of 
treatment that's specific for meth still is found here in 
Wyoming.
    I think that we're all keenly aware of meth in our State, 
and the media coverage today is vital in helping us to get this 
message out.
    We have definitely not minimized talking about the problem, 
and we have openly committed to taking action as we have 
acknowledged the severity of meth here in our State.
    Businesses are beginning to drug test. You'll hear about 
that today in Casper I'm sure. We have got some strong 
community initiatives that are coming up all across the State. 
Again, you'll hear about that. In Casper, in Cheyenne, these 
community initiatives are key. We need to support these 
initiatives.
    We do have some good news today, too. Wyoming high school 
meth use has decreased in just 2 years, between 2003 and 2005, 
from 11.6 percent to 8.5 percent. This is the use risk behavior 
survey.
    It's my feeling that we need to celebrate the success but 
we certainly can't miss a stride in this fight against 
methamphetamine.
    Thank you.
    Senator Enzi. Thank you.
    [The prepared statement of Ms. Maki follows:]

                 Prepared Statement of Anna Maki, M.S.

    Question 1. What work have you done in your prospective field/
community to better understand and successfully address meth use in 
rural areas?
    Answer 1. Our efforts specific to methamphetamine began when meth 
investigations increased by over 600 percent in our State between 1992 
and 1998.\1\ \2\ With such an alarming increase in meth associated 
problems, it became urgent to mount a statewide response. The 
Governor's Advisory Board on Substance Abuse and Violent Crime took 
action and secured Federal funds to study the problem. It followed that 
in 1998, the Wyoming legislature appropriated $3.2 million for the 
Wyoming Meth Initiative, a multiagency response to methamphetamine. 
Funds were allocated for improvements to the Department of Corrections, 
the Department of Family Services, the Attorney General's office and 
the Department of Health to enable them to respond to the demand 
brought by meth.
---------------------------------------------------------------------------
    \1\ Wyoming Methamphetamine Treatment Initiative. October 1998.
    \2\ New Bill Targets Methampehtamine, Enzi supports stronger 
penalties, preventative drug education. Feb. 25, 1999. http://
enzi.senate.gov/meth.htm.
---------------------------------------------------------------------------
    In 2000, the Substance Abuse Division was created within the 
Wyoming Department of Health to provide more resources necessary to 
increase treatment capacity and infrastructure to deal with meth. The 
Wyoming Substance Abuse Control Plan began laying the ground work for 
strategies to minimize substance abuse. Drug Courts expanded statewide. 
To date, 23 drug courts currently operate in Wyoming. Wyoming allocates 
more money per capita than any other State to drug courts.
    In 2005, Wyoming legislators and State agencies continued to 
respond enforce by authorizing a study to review the scope of the meth 
problem and the efforts employed to address the problem. I assisted in 
this study which is amongst the first of its kind as it is a 
compilation of data collected by State and Federal entities and at the 
community level to quantify the problem of meth abuse in our State. The 
National Association of Model State Drug Laws currently uses Wyoming's 
Meth Study as a model of what States can accomplish with existing data-
sets.
    The Meth Study provided the beginnings of a road map which led to 
$9 million aimed at anti-meth efforts including funds to boost law 
enforcement, the court system, and treatment and prevention.
    An integral component of Wyoming's statewide response to 
methamphetamine is prevention of gateway drugs including alcohol and 
nicotine. Wyoming high school students who reported smoking habitually 
were 8 times as likely to use meth during their lifetime compared to 
nonsmokers.\3\ With this fact in mind, it follows that early prevention 
of nicotine and alcohol use is key to preventing later meth use. Multi-
year prevention measures in Wyoming are working as both alcohol and 
nicotine are on a steady decline in our State as is meth use by our 
youth.
---------------------------------------------------------------------------
    \3\ 2003 Youth Risk Behavior Survey. Wyoming.
---------------------------------------------------------------------------
    Building treatment capacity and maintaining a quality continuum of 
care is also key to Wyoming's response. SAMHSA reports that in Wyoming, 
residential treatment admissions for amphetamines increased by 1,440 
percent between 1992 and 2004. We have made strides toward closing the 
treatment gap; however, a shortage of meth-specific treatment still 
exists in our State.
    Wyomingites are keenly aware of methamphetamine in their State. 
Media coverage has been vital in getting the message out. Additionally, 
the Substance Abuse Division continues to mount our social marketing 
campaign against meth. Wyoming has not minimized talking about the 
problem. Instead, we have openly acknowledged the severity and have 
committed to action. Business owners are beginning to drug test. 
Community initiatives are taking action all across the State. Together 
we are rising to the challenge that the meth epidemic presents.
    We have good news: Wyoming High School meth use decreased from 11.6 
percent to 8.5 percent between 2003 and 2005. We must celebrate this 
success and use it to fuel us forward toward reducing the affects of 
the methamphetamine epidemic.

    Question 2. How have you coordinated your efforts to address meth 
use and abuse with other public/private entities to improve the 
outcome?
    A unique two-way partnership between Wyoming and the Federal 
Government 
has been instrumental in expanding our infrastructure to deal with the 
meth problem. In 1998, U.S. Senator Craig Thomas called for Federal 
resources to fund law enforcement at all levels and to assist in the 
Wyoming Methamphetamine Initiative.\4\ \5\ U.S. Senator Mike Enzi, in 
1999, cosponsored an act to increase penalties for manufacturing and 
distributing meth and to fund law enforcement and prevention 
programs.\6\ Wyoming Governor Geringer, while chair of the Western 
Governor's Association, agreed that States should create and maintain 
such partnerships with the Federal Government to seek solutions for 
meth associated problems such as lab cleanup. These key players with 
their ability to provide policy decisions fitting to Wyoming's unique 
rural nature, have been essential to our fight against methamphetamine.
---------------------------------------------------------------------------
    \4\ Thomas Wins Assurance for Increase in Drug Enforcement. May 5, 
1998. http://thomas.senate.gov/html/pr97.html.
    \5\ Thomas Seeks Federal Resources to Battle Drugs in Wyo: 
Innovative State/Federal Methamphetamine Strategy Offers Hope. Nov. 19, 
1998. http://thomas.senate.gov/html/pr136.html.
    \6\ New Bill Targets Methamphetamine, Enzi supports stronger 
penalties, preventative drug education. Feb. 25, 1999. http://
enzi.senate.gov/meth.htm.
---------------------------------------------------------------------------
    Such key partnerships are occurring throughout the State including 
the Substance Abuse Division. The Division has worked in conjunction 
with lawmakers to establish the existing precursor legislation through 
House bill 293 which became effective in July 2005 placing restrictions 
on the sale and distribution of ephedrine and pseudoephredrine as well 
as established guidelines for retailers.
    The Division works in conjunction with treatment providers to 
assist them in providing high quality of care for their clients. 
Certification is established according to Division standards and 
technical assistance has been offered. For example, the Division 
coordinated the training of certified treatment providers in the Matrix 
System. The Division advertises treatment services available in 
specific regions through local media.
    The Division serves as a contact to Federal, State and private 
agencies regarding the status of methamphetamine in Wyoming. At the 
Federal level, we have maintained a strong partnership with SAMHSA and 
have found their national and Wyoming specific data invaluable for 
preparing reports, trend measurement and providing direction for 
funding decisions. The Division is currently posed to follow SAMHSA's 
lead in modeling and reporting National Outcome Measures in our State.
    The Division strives toward the goal of raising the awareness of 
the dangers of meth in Wyoming. With the assistance of our media 
contractor, we have developed a social marketing campaign specific to 
methamphetamine. In the near future, we will be collaborating with the 
Partnership for Drug Free America, which will be termed the Partnership 
for Drug Free Wyoming to bring new tv and radio media to Wyoming 
specific to methamphetamine.
    Additionally, the Division has provided educational presentations 
and trainings to community initiatives, schools, teachers, emergency 
room personnel and other interested parties. In the future, we will 
continue to provide these trainings by pro-
actively seeking educational engagements statewide.
    Community initiatives are working all across Wyoming to draft 
protocols and procedures that are specific to their region. They are 
training up their community and seeking to end the meth problem. The 
Division acts as a primary point of contact for these initiatives. We 
are currently making efforts to connect these groups to each other to 
encourage them to share what works in each of their individual 
communities.

    Senator Enzi. Dr. Rawson.

  STATEMENT OF RICHARD A. RAWSON, PH.D., EXECUTIVE DIRECTOR, 
  MATRIX CENTER AND MATRIX INSTITUTE ON ADDICTION AND DEPUTY 
  DIRECTOR, UCLA ADDICTION MEDICINE SERVICES, LOS ANGELES, CA

    Mr. Rawson. Thank you, Senator. I appreciate the invitation 
to come to Casper.
    I am hoping sometime I get invited during the summer, but I 
enjoy being here.
    In California, methamphetamine has been the major drug 
problem we have had now for the last 15 years. In 1986, our 
organization was asked by the public health department in San 
Bernardino County to open an office to treat methamphetamine 
problems.
    Since then we have treated about 11,000 meth users in our 
clinics in southern California and about 500 adolescent meth 
users. I think that's important. I think there is in some 
places a belief that adolescents don't use methamphetamine, and 
that's not the case.
    As a result of that experience, we have collected a good 
deal of data. We understand how difficult methamphetamine users 
are to treat. We understand what methamphetamine does to their 
brains. We understand what the recovery looks like.
    I have also been asked over the years to do talks around 
the country in many rural and suburban communities about 
methamphetamine, and one of the things I run into frequently is 
that many of the professionals in areas that have been impacted 
by methamphetamine have felt overwhelmed by the problem. They 
see many people coming in with severe medical and psychiatric 
problems. We're starting to get some handle on the fact that 
rates of hepatitis C among meth users on some populations are 
over 60 percent, particularly here in the mountain west. HIV 
rates are now starting to increase among meth users. It's a 
whole array of other problems. One of the things I hear in many 
of my visits in some areas that treating meth users is not a 
useful endeavor, that they don't respond to treatment, and my 
main reason for being here today is to dispel that myth.
    We have been working on treatment research now for over 20 
years. We have collected some information. We had a large study 
funded in 1999 by the Center for Substance Abuse Treatment 
looking at a package of therapies we have developed called the 
Matrix model.
    One of the sites of that--it was an eight-site study. One 
of the sites was in Billings, Montana, where we had a 
relatively large number of Native Americans, Hispanics and 
people from rural and the mountain west area.
    In that study, we looked at treatment outcome. We followed 
it closely. We looked at the effect of treatment that showed 
improvement on reducing drug use, reducing criminality, 
reducing unemployment, showing improvements in other domains of 
people's lives. We followed up meth users at 6 and 12 months 
after admission.
    The data suggested that somewhere in the neighborhood of 60 
percent of them were doing well. These data are extremely 
similar to what we have seen with other substance abuse 
outcomes.
    Now, we all know we can do better. We all want better 
tools. We all want higher success rates. But the myth that meth 
users do not respond to treatment is exactly that. It's a myth.
    The treatment data are encouraging. Again, as I said, we 
need new tools. One of the areas that I think we have run into 
as being of greatest concern is we have some of these 
treatments with good efficacy, that show good results. However, 
it's hard to get the training done.
    As was mentioned, the workforce issue was a big issue. 
Getting these treatment techniques out of the total field is a 
challenge. The Center for Substance Abuse Treatment has 
provided some help, but we need more help to get the treatment 
that works out to the communities.
    Thank you.
    Senator Enzi. Thank you.
    [The prepared statement of Mr. Rawson follows:]

             Prepared Statement of Richard A. Rawson, Ph.D.

    Senator Enzi and members of the committee, my name is Richard 
Rawson, I am a currently an Associate Professor in the School of 
Medicine at UCLA. I have worked in the field of drug abuse treatment 
and research for 31 years. Over that time I have studied and treated 
thousands of individuals addicted to heroin, cocaine, PCP, alcohol and 
other drugs. In 1986, the nonprofit treatment organization I helped 
establish, the Matrix Institute on Addictions, opened an outpatient 
clinic in San Bernardino County, California, at the request of the San 
Bernardino Health Department to address their already serious problems 
with methamphetamine dependence. In the subsequent 20 years, we have 
treated over 6,000 adult methamphetamine users in that clinic alone and 
another 5,000 adults in our network of four other clinics in southern 
California. In addition, during this time we have treated almost 400 
adolescents admitted to treatment with diagnoses of methamphetamine 
abuse or dependence. I currently do a great deal of training on 
methamphetamine all over the United States and 2 weeks ago participated 
in a 2-day meeting at the United Nations Office of Drugs and Crime in 
Vienna on the extent and impact of methamphetamine problems around the 
world.
    Over the past 20+ years, many small- and medium-sized communities I 
have visited have seen their criminal justice, social welfare and 
health systems overwhelmed by the problems presented by individuals 
addicted to methamphetamine. For many of the professionals working in 
these settings, they were not ready for this influx of severely 
addicted meth addicts. Meth users frequently enter treatment with 
severe problems. They often are psychotic, paranoid and severely 
depressed. They have severe memory problems, difficulty making rational 
decisions and a very long lasting anhedonia, or inability to experience 
pleasure. They have many dental, medical, vocational, legal and family 
problems. Many are infected with Hepatitis C (here in the Mountain West 
that is a particularly serious problem) and increasing numbers are 
being infected with the HIV. We know their brains have been seriously 
impacted by the effects of methamphetamine on their neurobiology.
    Many of the substance abuse treatment agencies that responded to 
the needs of these patients fell under siege. They weren't sure if 
these people should be put on psychiatric medication, put into 
psychiatric hospitals or long-term rehabilitation centers or treated 
with standard treatments for alcoholism and marijuana abuse. In many 
places, there was inadequate funding to provide enough treatment 
services to meet the needs of these patients and in virtually all 
places there was far too little training in effective treatment 
strategies. In some places and with some groups, this has led people to 
believe that treating meth users is a futile endeavor. One of my main 
goals here today is to dispel that misinformation.
    During the past 15 years, at UCLA, my colleagues and I have 
conducted an extensive amount of research on many aspects of 
methamphetamine. We have conducted brain imaging studies, examining the 
impact of meth on the brain, we have explored the usefulness of almost 
a dozen medications for treating meth users, we are involved in studies 
on effects of prenatal exposure to meth and the impact of meth on drug 
endangered children and other issues. We have been especially 
interested in determining if meth addicts can be successfully treated 
and what treatments work best.
    We have examined numerous strategies for treating meth users 
including cognitive behavioral therapy, contingency management and the 
Matrix Model package of outpatient strategies we adapted from the 
research literature. In the largest of these trials, one funded by the 
Center for Substance Abuse Treatment, we admitted over 1000 individuals 
into treatment in 8 clinic sites in the Western United States, 
including a site in Billings, Montana. This largest study conducted to 
date on meth treatment, as well as and several other studies we have 
conducted, provide strong support for the benefits provided by 
treatment when delivered by properly trained and funded treatment 
organizations.
    Some specifics, we found in the CSAT-funded evaluation of the 
Matrix Model, that over half of the individuals we admitted were women, 
with a significant percentage of Hispanics, Asian Pacific Islanders and 
Native Americans. We found that with the proper treatment strategies we 
could engage and retain almost 60 percent of the individuals in 
outpatient treatment for over 8 weeks. During the time individuals were 
in treatment, over 85 percent of their urine tests were negative for 
methamphetamine and other drugs. During in-person follow up interviews 
at 6 and 12 months post admission, we collected urine samples under 
observation, and found that between 60 and 66 percent were meth-free 
and doing well in recovery (we were able to locate and interview over 
80 percent of the study participants. In addition, we found very 
substantial reductions in marijuana and alcohol use, improvements in 
psychiatric status, improvements in family functioning, improvements in 
employment and decreases in criminal justice system involvement (arrest 
and incarceration). One particularly interesting finding was that our 
best treatment response came from the one site where the study was 
conducted in a drug court setting. These data and our experience at 
Matrix, where we run a drug court, suggest that drug courts are highly 
effective with meth users. We have conducted other studies evaluating 
some of the individual techniques within the Matrix Model, (cognitive 
behavioral therapy, relapse prevention and positive reward strategies) 
and we have published very encouraging results from these techniques as 
well.
    All empirical evidence we have been able to collect, from research 
studies such as the ones I just referred to, as well as data from large 
State and county treatment systems suggests that properly trained and 
funded treatment programs can effectively provide treatment that works 
for meth users. We know recovering meth users need to be involved in 
treatment for an extended period to allow their brains to recover and 
for them to get their lives re-established. Properly funded and trained 
treatment programs can be extremely valuable community resources to 
help these individuals regain their ability to be useful and productive 
citizens. Treatment works and works well for people addicted to 
methamphetamine.

    [The prepared statement of Ms. Gonzales and Mr. Rawson 
follows:]
  Prepared Statement of Rachel Gonzales, MPH and Richard Rawson, Ph.D.
            methamphetamine addiction: does treatment work?

True or False

    <bullet> 99 percent of first-time meth users are hooked after just 
the first try.
    <bullet> Only 5 percent of meth addicts are able to kick it and 
stay away.
    <bullet> From the first hit to the last breath, the life expectancy 
of a habitual meth user is only 5 years.

    All three ``facts'' are false--Numbers 1 and 2 have never been 
studied and would be very difficult if not impossible to determine; 
number 3 is false. These ``statistics'' are cited on a Web site 
established by a State's Attorney General's Office. The statements are 
widely cited around the United States and in Canada as true statistics 
and have actually been used to argue against using money for apparently 
an almost hopeless task of treating meth users. The purpose of this 
article is to review what is currently known about the effectiveness of 
treatment for methamphetamine users.

Scope of the Methamphetamine Problem

    Methamphetamine, known on the street by meth, speed, crystal, 
crank, and ice has emerged as the most dangerous home grown and one of 
the most widely used drugs in America. Much like heroin in the 1960s 
and 70s and the crack cocaine during 1980s and early 90s, the past 
decade has witnessed tremendous increases in methamphetamine (MA) 
misuse throughout much of the U.S. Worldwide, the United Nations Office 
of Drug Control estimates that over 42 million individuals regularly 
consume amphetamines around the world, more than any other illicit 
drug, except for cannabis. Domestically MA ranks as one of the most 
highly abused illicit drugs in urban and rural areas of the West, 
Midwest and South. According to the Substance Abuse and Mental Health 
Services Administration (SAMHSA), national treatment admission rates 
for MA abuse increased by more than 420 percent for persons 12 years or 
older during the past decade (see figure below).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    MA has not only expanded geographically across the Country, but 
also broadened demographically. Before the past decade, MA abuse was 
common among White males, with particularly extensive use among biker 
gangs and truck drivers. Currently, MA has become widely used by women, 
Latinos, gay and bisexual males, arrestees, and increasingly among 
adolescents. Although MA has historically been used via intranasal 
route of administration, in the past decade, smoking MA has become the 
dominant route of administration, although in some geographic regions 
over 50 percent of users inject the drug.
    For the most part, the allure and abundance of MA can be attributed 
to its convenience. Like fast food chains, MA is widely available and 
inexpensive to purchase. Unlike most drugs that are imported from other 
countries, MA can be made by just about anyone in home ``labs.'' 
Recipes and step by step instructions on how to make it are widely 
available on the Internet. The main ingredients, ephedrine and 
pseudoephedrine can be found in many over-the-counter cold and asthma 
medications available at most grocery and convenient stores. Items such 
as battery acid, hydrochloric acid, anhydrous ammonia, drain cleaner, 
rubbing alcohol, gasoline antifreeze, lantern fuel, and other cleaning 
products are among the other ingredients commonly used to make MA. MA 
labs can be built and set up inside homes, hotel rooms, garages, and 
automobiles. Although, these home labs are a major public health and 
safety problem and are an important source of MA, the bulk of the MA is 
produced in large ``superlabs'' in California and Mexico, operated by 
major drug trafficking organizations. Restrictions on retail 
pseudoephedrine supplies may slow the MA production by home labs, but 
will have little, if any effect on the MA production by superlabs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Physiology of Methamphetamine & Associated Health Effects

    MA stimulates the central nervous system. The euphoria, ``high'' 
produced by MA use is directly linked to the release of dopamine. The 
high is especially immediate and powerful (the ``rush'' when the drug 
is smoked or injected). The powerful stimulant effects (i.e., increased 
energy, confidence, talkativeness, sex drive, decreased fatigue, and 
depression) last for 10-12 hours. Advances in brain imaging techniques 
have shown major abnormalities and deficits associated with MA use in 
certain parts of the brain that are responsible for feelings of 
pleasure, and other emotions, as well as memory and judgment. Despite 
these effects producing great impact on the functioning of users during 
recovery and the taking months to recover, it does appear that most are 
reversible.
    The substantial health problems associated with MA addiction 
include severe weight loss, sleep disorders, damage to the 
cardiovascular system, stroke, as well as, severe dental and skin 
problems. MA use is a major factor in the spread of HIV in the gay 
community and has recently been shown to be highly associated with the 
spread of the hepatitis C virus.

Treatment for MA Addiction

    The ``only 5 percent'' statistic stated at the beginning of this 
article is widely and frequently cited at national and regional 
meetings as evidence of the poor outcomes to be expected from treating 
MA users. A similar picture of dismal treatment outcome was presented 
in the January 23, 2003 issue of Rolling Stone Magazine story ``Plague 
in the Heartland'' where the statement ``only 6 percent of MA freaks 
get and stay sober, the lowest number by far for any drug'' was among 
one of the quotes attributed to the self-interested stakeholders such 
as local law enforcement. In some cases, these ``statistical'' 
statements are used to support the position that money spent on 
treatment is wasted and that the only fruitful investment is to reduce 
the availability of the drug through criminal justice, supply reduction 
approaches. An extensive literature search has failed to find any data 
to provide support for these statistics.
    Medications: There are currently no medications with evidence to 
support their efficacy in treating MA intoxication, psychosis, 
withdrawal or dependence. NIDA has a very active program of research 
underway to test the safety of potential medications and examine their 
efficacy for treating MA-related disorders. Sites in Kansas City, Des 
Moines, Honolulu, San Diego and Costa Mesa (California), coordinated by 
UCLA have tested several mediations and several other promising 
medications are planned for testing in the near future. In those 
circumstances when individuals with MA-induced psychosis present in 
emergency rooms or other health facilities, a common clinical practice 
is for physicians to use a combination of atypical antipsychotics and 
benzodiazepines to help calm the individual and prevent them from 
injuring themselves or others until the psychosis-inducing effects of 
MA have dissipated.
    Psychosocial/Behavioral Treatments: Presently, there are two 
approaches that have evidence to support their efficacy for the 
treatment of MA dependence, but there is a much larger literature on 
treatments that work with the other major illicit stimulant problem in 
the United States, cocaine dependence. Although there are a number of 
differences in the pharmacology and physiological effects produced by 
MA and cocaine, these drugs have many common properties and similar 
effects. Research examining the treatment responses of MA and cocaine 
users suggests that cocaine and MA users have very similar outcomes 
when exposed to the same treatments. In addition, large scale treatment 
system evaluations have reported comparable outcomes for cocaine and MA 
users. To date, despite extensive examination of multiple data sources, 
no data have been found to support the frequently misused 
``statistics'' mentioned above or the contention of poorer treatment 
outcomes with adult MA users.
    Matrix Model: During the 1980s, the Matrix Institute on Addictions 
group in Southern California (including the present author, Rawson), 
created a multi-element treatment manual with funding support from 
NIDA, designed for application with stimulant users on an outpatient 
basis. The Matrix approach evolved over time, incorporating treatment 
elements with support from scientific evidence, including cognitive 
behavioral therapies (i.e., relapse prevention techniques), a 
positively reinforcing treatment context, many components of 
motivational interviewing, family involvement, accurate 
psychoeducational information, 12-step facilitation efforts, and 
regular urine testing. The approach is delivered using a combination of 
group and individual sessions delivered approximately three times per 
week over a 16 week period followed by a 36 week continuing care 
support group and 12 step program participation. Over 15,000 cocaine 
and MA users have been treated with this approach during the past 20 
years. The manual and related materials have been published by Hazelden 
and SAMHSA. (For more details see www.Hazelden.org and www.SAMHSA.gov.)
    In 1999, CSAT funded a large scale evaluation of the Matrix Model 
for the treatment of MA users coordinated by UCLA. Roughly 1,000 MA 
dependent individuals were admitted into 8 different treatment study 
sites. In each of the 8 sites, 50 percent of the participants were 
assigned to either Matrix treatment or to a ``treatment as usual'' 
(TAU) condition, which was comprised of a variety of counseling 
techniques idiosyncratic to each site. The study result showed that 
individuals assigned to treatment in the Matrix approach received 
substantially more treatment services, were retained in treatment 
longer, gave more MA-negative urine samples during treatment and 
completed treatment at a higher rate than those in the TAU condition. 
These in-treatment data suggested a superior response to the Matrix 
approach. When data at discharge and follow up were examined, it 
appeared that both treatment conditions produced comparable post-
treatment outcomes. Participants in both conditions showed very 
significant reductions in MA use, significant improvements in 
psychosocial functioning, and substantial reductions in psychological 
symptoms, including depression. Follow up data indicated that over 60 
percent of both treatment groups reported no MA use and gave urine 
samples that tested negative for MA (and cocaine) use. Use of other 
drugs, such as alcohol and marijuana were also significantly reduced.
    A particularly interesting finding was that across the 8 treatment 
sites, the ``drug court site,'' e.g., the one that enrolled individuals 
who were participating under a drug court program, produced superior 
results compared to the other 7 sites, suggesting a substantial 
beneficial influence of drug court involvement. Overall, this 
evaluation is the largest controlled study of MA treatments that has 
yet to be conducted.
    Contingency Management (CM): Positive reinforcement is a powerful 
tool in increasing desired behaviors. School teachers who have given 
``special prizes'' for superior performance, companies who give 
employee incentive bonuses for meeting production goals, AA meetings 
that give ``chips'' and cakes to acknowledge successful progress in 
achieving sobriety are all examples of the effective use of positive 
reinforcement. Many existing treatment programs informally use positive 
reinforcement as part of their treatment milieu. Frequently, the 
reinforcement takes the form of verbal praise, or earning program 
privileges, or ``graduating'' to a higher level of status in the 
program or some other practice to acknowledge and reward progress in 
treatment. CM is simply the systematic application of these same 
reinforcement principles. In many of the studies investigating CM 
approaches, treatment participants can earn ``vouchers'' that are 
exchangeable for non-monetary desired items (e.g., free movie tickets, 
restaurant dinners, grocery vouchers, gasoline coupons, etc.). 
Typically the individual can earn larger valued rewards for longer 
periods of continuous abstinence from drugs and alcohol.
    Over the past 30 years, a number of researchers and research groups 
at Johns Hopkins (Stitzer, Silverman), Vermont (Higgins and 
colleagues), Connecticut (Petry and colleagues), and UCLA (Roll and 
colleagues) have demonstrated the powerful effect of CM techniques to 
reduce heroin, benzodiazepine, cocaine and nicotine use. Recently CM 
techniques have been implemented with MA users in Southern California 
by the group at UCLA and by researchers in the NIDA Clinical Trials 
Network. The results of these investigations have provided powerful 
support to the efficacy of this behavioral strategy as treatment for MA 
abuse. Individuals who have been assigned to CM conditions have shown 
better retention in treatment, lower rates of MA use and longer periods 
of sustained abstinence over the course of their treatment experience. 
Without question, CM is a powerful technique that can play an extremely 
valuable role in improving the treatment response of MA-dependent 
individuals.

Response to treatment: Cocaine vs. Methamphetamine

    To date, the majority of studies investigating the effectiveness of 
treatment for stimulant addiction have focused on cocaine abuse with 
fewer studies on MA. Despite differences between the two stimulants in 
individual health, psychological and cognitive effects, both groups 
tend to show comparable responses to psychosocial behavioral 
treatments. In one large study using the Matrix Model, 500 MA dependent 
individuals were treated alongside 250 cocaine dependent individuals at 
the same clinic, by the same staff, over the same time period, using 
the same approach. Treatment outcomes were identical both during 
treatment and at follow up. Similar findings have been reported from 
treatment studies in San Francisco and from data collected in Los 
Angeles County and throughout California. While there is absolutely no 
evidence that MA users and other drug user populations respond 
differently to treatment, there are multiple controlled and large scale 
treatment outcome studies that suggest that treatment outcomes for MA 
and cocaine users is very comparable. Taken together, these results 
tend to dispel the false beliefs about treatment effectiveness for MA 
addiction circulating within the public sphere.

Implications for MA Addiction Treatment: Psychosis, Route of 
                    Administration, Sex, Infectious Diseases, Women and 
                    Kids

    Much of the ambivalence about MA treatment effectiveness stems from 
sentiments that ``meth abusers are difficult to treat,'' quoted by many 
in the field and press. Studies have identified unique characteristics 
of MA abusers that may pose many clinical challenges that are 
frequently more problematic than is seen with standard treatment 
populations. MA abusers come to treatment with unique demographic and 
health profiles. For instance, MA abusers have been consistently 
observed to experience severe psychiatric problems, including 
psychoses, hallucinations, suicidal ideation, and severe depression and 
cognitive impairments when presenting for treatment. At present, it is 
not clear how much of the psychiatric symptomatology is directly 
related to the effects of the drug and what role co-morbid disorders 
are involved. Clearly, however, clinicians treating MA have to be 
educated about working with patients who have clinically significant 
levels of disordered thinking and persisting paranoia.
    Historically, MA use has been via intranasal and injection routes 
of administration. However, in the past decade, smoking has become the 
dominant route of MA administration, and more recently some geographic 
areas (e.g., South Dakota, Oregon) have reported elevated rates of MA 
injection. Smoking and particularly injecting MA appears to lead to a 
more difficult addiction to address. Injection users tend to report far 
more severe craving during their recovery and they have higher rates of 
depression and other psychological symptoms before, during and after 
treatment. They also have higher drop out rates and exhibit higher 
rates of MA during treatment. In addition, recent reports have 
documented the extremely powerful relationship between MA use and 
sexual behavior. Individuals who use MA describe a far more powerful 
association between MA and sexual behavior than cocaine, heroin or 
alcohol users. Issues around sexual readjustment during sobriety are 
very important and can play a very big role in relapse, if not properly 
addressed.
    In a recent sample of MA users who entered treatment in the 
Midwest, Hawaii and California, the rate of Hepatitis C infection was 
22 percent. Of the MA injectors, over 70 percent tested positive for 
hepatitis C (Hep C). Clearly, there needs to be a strong message about 
behaviors that expose individuals to Hep C infection (blood to blood 
transfers) in treatment and prevention efforts. In addition, MA use is 
associated with very high risk sex and has been shown to be a huge 
factor in HIV transmission among gay men. Research by Shoptaw, Reback 
and colleagues in Los Angeles has shown that MA use is the biggest 
threat in the gay community to producing a renewed spread of HIV. They 
have developed treatment materials for this group and have shown that 
successful treatment of MA dependence is an extremely effective HIV 
prevention strategy.
    Women use MA at rates equal to men. Use of other major illicit 
drugs is characterized by ratios of 3:1 men to women (heroin) or 2:1 
(cocaine), in many large data sets, the ration for MA users approaches 
1:1. Surveys among women suggest that they are more likely than men to 
be attracted to MA for weight loss and to control symptoms of 
depression. Among women, MA abuse may present different challenges to 
their health, may progress differently, and may require different 
treatment approaches. Over 70 percent of MA dependent women report 
histories of physical and sexual abuse, as well as more likely than men 
to present for treatment with greater psychological distress than 
males. Many women with young children do not seek treatment or drop out 
early due to the pervasive fear of not being able to take care of or 
keep their children as well as fear of punishment from authorities in 
the larger community. Consequently, women may require treatment that 
both identifies her specific needs and responds to them.
    These unique clinical symptoms commonly experienced among MA 
abusers suggest that effective treatment of MA abusers should be 
comprehensive, including greater emphasis on infectious disease 
transmission and other psychosocial issues. While these differences 
highlight the importance of developing more effective treatment models 
for MA addiction, studies have shown that treatment response using 
similar treatments is highly comparable between MA users and cocaine 
users. Thus, it can be argued that it is not necessary to design 
completely new approaches for MA addiction. Rather, focus should be 
targeted at enhancing existing treatment regimens with supplemental 
type services that address these underlying differences among the MA 
patient.

Future Directions

    This paper offers useful information and opportunities for 
clinicians, policymakers and treatment providers to effectively treat 
challenging populations characterized by MA addiction. Future outcome 
based studies on the long-term clinical aspects of MA addiction are 
needed to provide a comprehensive overview of MA addiction after 
treatment. Currently, a 3-year follow up study on treatment outcomes 
among a sub-sample of MA abusers who participated in the large Matrix 
Model clinical trial is underway. This study will not only speak to the 
question concerning the long-term effectiveness of MA treatment, but 
will also highlight the effects of treatment on addressing the clinical 
issues present among MA abusers overtime.
    Overall, examining what we currently know about MA addiction and 
treatment not only debunk the erroneous ``statistical'' statements that 
indicate MA abusers are not treatable, but also highlight special 
issues concerning clinical ramifications associated with MA abuse and 
treatment which may serve to challenge the frontline professionals 
working to confront the growing problem of MA addiction.

Selected References

Brecht, M.-L., O'Brien, A., von Mayrhauser, C., & Anglin, M. D. (2004). 
    Methamphetamine use behaviors and gender differences. Addictive 
    Behaviors 29(1):89-106.

Copeland, A.L., & Sorensen, J.L. (2001). Differences between 
    methamphetamine users and cocaine users in treatment. Drug and 
    Alcohol Dependence, 62(1):91-5.

Farabee, D., Prendergast, M., & Cartier, L. (2002). Methamphetamine use 
    and HIV risk among substance-abusing offenders in California. 
    Journal of Psychoactive Drugs, 34(3):295-300.

Freese, T.E., Obert, J., Dickow, A., Cohen, J., & Lord, R.H. (2000). 
    Methamphetamine abuse: issues for special populations. Journal of 
    Psychoactive Drugs, 32(2):177-82.

Frosch, D., Shoptaw, S., Huber, A., Rawson, R.A., & Ling, W. (1996). 
    Sexual HIV risk among gay and bisexual male methamphetamine 
    abusers. Journal of Substance Abuse Treatment 13(6):483-486.

Hser, Y.-I., Evans, E., & Yu-Chuang, H. (2005). Treatment outcomes 
    among women and men methamphetamine abusers in California. Journal 
    of Substance Abuse Treatment, 28:77-85.

Hser, Y.-I., Yu-Chuang, H., Chou, C.-P., & Anglin, M.D. (2003). 
    Longitudinal patterns of treatment utilization and outcomes among 
    methamphetamine abusers: A growth curve modeling approach. Journal 
    of Drug Issues, 33:921-938.

Huber, A., Ling, W., Shoptaw, S., Gulati, V. Brethen, P. & Rawson, R. 
    (1997). Integrating treatments for methamphetamine abuse: A 
    psychosocial perspective. Journal of Addictive Diseases, 16, 41-50.

Rawson, R. A., Gonzales, R. & Brethen, P. (2002). Treatment of 
    methamphetamine use disorders: an update. Journal of Substance 
    Abuse Treatment, 23:145-150.

Rawson, R., (1999). Treatment for stimulant use disorders Treatment 
    Improvement Protocol Series 33. (TIP 33) U.S. Department of Health 
    and Human Services, Substance Abuse and Mental Health Services 
    Administration, Rockville, MD.

Rawson, R., Huber, A., Brethen, P., Obert, J., Gulati, V., Shoptaw, S., 
    & Ling, W. (2000). Methamphetamine and Cocaine Users: Differences 
    in Characteristics and Treatment Retention. Journal of Psychoactive 
    Drugs, 32(2):233-238.

Rawson, R., Shoptaw, S., Obert, J.L., McCann, M., Hasson, A., 
    Marinelli-Casey, P., Brethen, P., & Ling, W. (1995). An intensive 
    outpatient approach for cocaine abuse: The Matrix model. Journal of 
    Substance Abuse Treatment, 12(2):117-127.

Rawson, R.A. (2005). Treatment response and outcome between MA and 
    Cocaine Abusers. Data from the Los Angeles County Evaluation System 
    (LACES) project. Presentation at Scientific Meeting, (March 2005).

Rawson, R.A., Gonzales, R., Marinelli-Casey, P., & Reiber, C. 
    (unpublished). Route of administration among primary 
    methamphetamine users.

Rawson, R.A., Gonzales, R., McCann, M.J., & Obert, J. (2005). 
    Methamphetamine use among treatment-seeking adolescents in Southern 
    California: Participant characteristics and treatment response. 
    Journal of Substance Abuse Treatment, in press.

Rawson, R.A., Huber, A., Brethen, P., Obert, J., Gulati, V., Shoptaw, 
    S., & Ling, W. (2002). Status of methamphetamine users 2-5 years 
    after outpatient treatment. Journal of Addictive Diseases, 
    21(1):107-19.

Rawson, R.A., Maranelli-Casey, P., Anglin, M.D., Dickow, A., Frazier, 
    Y., Gallagher, C., Galloway, G.P., Herrell, J., Huber, A., McCann, 
    M.J., Obert, J., Pennell, S., Reiber, C., Vandersloot, D., & 
    Zweben, J., Methamphetamine Treatment Project Corporate Authors, 
    (2004). A multi-site comparison of psychosocial approaches for the 
    treatment of methamphetamine dependence. Addiction 99(6):708-17.

Rawson, R.A., McCann, M., Flammino, F., Shoptaw, St., Miotto, K., 
    Reiber, C., & Ling, W. (2005). A Comparison of Contingency 
    Management and Cognitive-Behavioral Approaches for Cocaine and 
    Methamphetamine Dependent Individuals. Recently submitted to 
    Addiction, 2005.

Roll, J.M., Petry, N.M., Stitzer, M., Brecht, M.L., Pierce, J., McCann, 
    M., Blaine, J., MacDonald, M., & Kellog, S. Contingency Management 
    for the Treatment of Methamphetamine Use Disorders (being 
    submitted, 2005).

SAMHSA, Office of Applied Studies, 2000a. SAMHSA, Office of Applied 
    Studies, Mid-year 1999 preliminary emergency department data from 
    the drug abuse warning network. Department of Health and Human 
    Services, Washington, DC (DHHS Publication SMA 003407).

SAMHSA, Office of Applied Studies, 2000b. SAMHSA, Office of Applied 
    Studies, Drug abuse warning network annual medical examiner data 
    1998. , Department of Health and Human Services, Washington, DC 
    (DHHS Publication SMA 003408).

Shoptaw, S., Reback, C. J., & Freese, T. E. (2002). Patient 
    characteristics, HIV serostatus, and risk behaviors among gay and 
    bisexual males seeking treatment for methamphetamine abuse and 
    dependence in Los Angeles. Journal of Addictive Diseases, 21(1):91-
    115.

Simon, S.L., Richardson, K., Dacey, J., Glynn, S., Domier, C.P., 
    Rawson, R.A., & Ling, W., (2002). A comparison of patterns of 
    methamphetamine and cocaine use. Journal of Addictive Diseases, 
    21(1):35-44.

United Nations Office for Drug Control and Crime Prevention. Accessed 
    May 25, 2005 from http://www.unodc.org/unodc/en/
    world_drug_report.html.

Zweben, J.E., Cohen, J.B., Christian, D., Galloway, G.P., Salinard, M., 
    Parent, D., & Iguchi, M. (2004). Psychiatric Symptoms in 
    Methamphetamine Users. American Journal on Addictions 13:181-190.

    Senator Enzi. Sergeant Hamilton.

    STATEMENT OF STEVE HAMILTON, CAMPBELL COUNTY SHERIFF'S 
                    DEPARTMENT, GILLETTE, WY

    Mr. Hamilton. Thank you, Senator.
    Senator, my agency, the Campbell County Sheriff 's Office, 
has been involved in methamphetamine investigations for several 
years.
    I became a reserve officer with the Campbell County Sheriff 
's Office in 1978, and my first duty was to investigate a 
methamphetamine user and complete a search warrant in 1978.
    Methamphetamine began to wane through the early 1980s and 
came back with a vengeance in the 1990s.
    In my capacity, I have worked as a deep undercover officer, 
supervisor of narcotics unit, supervisor of patrol units, and I 
believe for our area I have a very strong, substantial 
understanding of the methamphetamine problem.
    In the mid-1990s, I was approached with a question as to 
why inmates were losing teeth, and that was associated with 
people arrested for methamphetamine.
    From that curiosity, I began to study the medical aspect 
and treatment aspects of methamphetamine and then joined with 
my current partner, Quentin Reynolds, who is the supervisor of 
the DARE and resource office--officers in the Campbell County 
Sheriff 's Office.
    We developed a methamphetamine awareness program and began 
presenting it within the area of Campbell County and the other 
four counties that surround us, Weston, Crook, Sheridan and 
Johnson County.
    Within our studies, within our activities that have brought 
us in direct contact with methamphetamine abusers and the 
problems of methamphetamine, we believe that the most important 
aspect of methamphetamine is the availability or, 
unfortunately, the lack of availability to treatment; that the 
treatment effort is the No. 1 answer to this problem. While we 
in law enforcement believe that enforcement is also a part of 
that, we shouldn't be limited to putting the word ``law'' in 
front of enforcement. Family enforcement, school enforcement, 
labor enforcement, community enforcement, peer enforcement all 
has to play into controlling this methamphetamine problem.
    Also, that treatment has to be available to all those 
different areas of enforcement. Families have to have access 
to, when they provide enforcement, access to treatment, 
businesses, schools, not just law enforcement, not just the 
jails.
    The other thing we warn in our talks is that while we 
support and agree with legislation, statutes and control of 
meth-related problems such as labs, precursors and these types 
of legal statutes, the problem is the market. The problem is 
the user and the answer is the treatment of the user.
    The reason meth was there in 1978, waned and came back in 
1992 was in 1980, Federal legislation controlled phenyl-2-
propa-
none, P2P, a chemical used to make methamphetamine. When the 
new ephedrine-based recipes came out, it came back with a 
vengeance.
    If we legislate only and solely toward control of labs and 
chemicals and leave the market in place, if we do control that 
chemical, right over the horizon is the family of phentanyls 
which will be a vengeance upon our society worse than 
methamphetamine ever was.
    We need to promote treatment and promote good treatment and 
start our treatment as any medical system would work in a 
proper triage. Not waiting until a user is so addicted and is 
such a criminal that treatment centers have to deal with an 
almost overwhelming addiction. We have to start treatment at a 
misdemeanor for the State of Wyoming, a misdemeanor level or a 
new user level where treatment is effective, triage, work, 
applied treatment where it's going to be effective, not 
waiting.
    Unsupervised probation, plea bargains are the bane of this 
problem.
    Thank you, Senator.
    Senator Enzi. Thank you.
    [The prepared statement of Mr. Hamilton follows:]

                  Prepared Statement of Steve Hamilton

                                SUMMARY

    My answers to the two questions which will form the basis of the 
discussion are documented completely within the first two pages of my 
submission. My recommendations to the Senate Committee on Health, 
Education, Labor, and Pensions, are enclosed at the end of my 
submission under the heading, ``FEDERAL LEGISLATION.'' The remainder of 
the submission supports my recommendations.
    Cpl. Quentin Reynolds, the Campbell County Sheriff 's Department 
D.A.R.E and School Resource Officer Supervisor and I have developed a 
2\1/2\-hour presentation, Methamphetamine Awareness, that we have 
shared with parents, teachers and professionals in the five county 
regions of Wyoming (Campbell, Crook, Johnson, Sheridan and Weston 
Counties). Cpl. Reynolds and I both work as full time law enforcement 
officers in assignments targeting controlled substance violations. From 
our duty assignments, we have developed a great deal of experience, but 
it is the Methamphetamine Awareness Lectures that have given us a clear 
understanding of the methamphetamine problems which exist in the rural 
communities. The lectures have given me the opportunity to successfully 
share the concerns of both the public and private entities with the 
Campbell County Coalition Promoting a Drug-Free Community, which my 
wife, Diane, and I belong to. The information from the lectures and the 
coalition meetings have given me the ability to assist in a coordinated 
response to the problem. The lectures have also provided Cpl. Reynolds 
with the same broad understanding of the communities' methamphetamine 
concerns. Cpl. Reynolds works within the school districts of our area 
to assist in coordinating school concerns and efforts with solutions 
involving other entities.
    While the requested written submission addresses the immediate 
concern, methamphetamine use in rural areas, what we have learned from 
our lectures, and share in this written submission can be applied to 
any community, rural or urban. The submission identifies the problems 
arising from methamphetamine abuse and provides solutions.
    The solutions are easy to describe, but it will be difficult to 
implement. Enforcement efforts directed toward the market of addicted 
users must be improved. Enforcement should be directed at new and 
short-term users to make treatment dollars effective. Enforcement 
responsibility must include family, school, employer, community, and 
not limited to law enforcement. Wherever enforcement occurs, there must 
be a realistic treatment available. Any legislation directed toward a 
specific chemical precursor, while warranted, is ultimately doomed to 
fail.
    During the last 3 years, Cpl. Quentin Reynolds and I have given 
Methamphetamine Awareness Lectures within the community. Beginning in 
2006, we have been joined by treatment counselor Frank ``Joe'' Zigmund 
of Personal Frontiers, a nonprofit addiction counseling center in 
Gillette, Wyoming. At the end of each lecture, we explain that the 
methamphetamine problem needs to be confronted in the same way drunken 
driving, child abuse, domestic violence and racism have been confronted 
and diminished--by strong public opinion. Individual concerns need to 
be presented directly to those in charge of the community's budget and 
the community's legal voice.
    Quentin and I have law enforcement responsibilities, but there are 
also family members who worry about rising health care costs and are 
concerned about safe work environments. They want children to have 
opportunity, not adversity. In the past, law enforcement has tried to 
present the entire community's drug-related concerns and solutions. A 
far more accurate and realistic approach is the formation of the 
coalition to share concerns with the public and the government.
    Quentin and I have tried to eliminate all exaggeration from our 
lectures. We believe our children are Campbell County's future. Each 
group we have spoken with has both individual and shared concerns and 
solutions. The community's ``all for one and one for all'' feelings are 
apparent. We hear individual problems, but we are also asked about 
treatment, children, and the future. The more we learn about physical 
health problems, mental health problems and treatment problems 
associated with methamphetamine, the more we realize we need everyone's 
involvement to allow those children to create a drug-free future.
    During the last 2 years our Methamphetamine Awareness presentation 
has reached the following:

    <bullet> All Secondary Education teachers in Campbell County (four 
presentations)
    <bullet>  A majority of the Primary Education teachers and bus 
drivers in Campbell County
    <bullet> Secondary Education teachers in Sundance, WY
    <bullet> Secondary Education teachers in Moorcroft, WY
    <bullet> Secondary Education teachers in Newcastle, WY
    <bullet>  School teachers and general community in Dayton and Big 
Horn,
    <bullet> WY School teachers in Clearmont, WY
    <bullet> School teachers and general community in Upton, WY
    <bullet> School teachers in Hulett, WY
    <bullet> Community of Sheridan, WY
    <bullet> Community of Gillette, WY (two presentations)
    <bullet> Community of Newcastle, WY
    <bullet> Community of Clearmont, WY
    <bullet> Presentations to four Gillette, WY Churches
    <bullet> Wyoming Chaplains training in Wyoming Law Enforcement 
Academy
    <bullet> Presentations to four businesses in Gillette, WY
    <bullet> Methamphetamine Conference in Buffalo, WY
    <bullet> Department of Family Services, Gillette, WY
    <bullet> Presentations to foster care families (two presentations)
    <bullet> Campbell County Children's Center
    <bullet> Campbell County Public Health Office
    <bullet> Campbell County Commissioners
    <bullet> Gillette City Council
    <bullet> Gillette Abuse and Refuge Foundation
    <bullet> Volunteers of America
    <bullet> DCI Basic School (recognized as Police Officer's Standards 
and Training credit)
    <bullet> State D.A.R.E. Conference
    <bullet> Wyoming Girl's School at Sheridan, WY
    <bullet>  Campbell County Memorial Hospital (two presentations 
recognized as health care training credit)
    <bullet> Three presentations to Gillette, WY dental offices
    <bullet> Gillette Optometric Clinic, WY
    <bullet> Emergency Medical Technicians College
    <bullet> Surface Mine Emergency Response Teams (three 
presentations)
    <bullet> Personal Frontiers Inc.--Counseling Service, Gillette, WY

    The most important result of our presentation is that we have heard 
the concerns expressed from such a broad field of private and public 
entities. During our presentations we have shared honest, realistic and 
factually correct methamphetamine information with more than 2,000 
people in our rural communities. During the week of October 23, 2005, 
the Coalition Promoting a Drug-Free Community of Gillette, Wyoming 
published a 24-page supplement to the local newspaper, The NewsRecord. 
The supplement, Celebrating Red Ribbon Week, a National Anti-Drug 
Awareness Campaign, provided the readers with a great deal of 
information and invited readers to attend a presentation by Mary Haydal 
of Miles City, Montana. Mary Haydal had lost her 19-year-old daughter 
to a methamphetamine overdose. Three pages of this supplement, 
Celebrating Red Ribbon Week, contained information that Cpl. Reynolds 
and I had learned. This submission contains parts of that article.
    The following paragraphs describe what Quentin and I have learned 
from the Methamphetamine Awareness Lectures. While, within the 
information I refer only to northeast Wyoming, these same concerns 
arise anywhere there is a market of methamphetamine abusers.

                                SCHOOLS

    In 2002 the Federal methamphetamine trafficking investigation known 
as Harbour et al. identified an 18-year-old Gillette female 
methamphetamine dealer with 85 customers, mostly her peers. The 
investigation resulted in the arrest and conviction of all the ``big 
dealers.'' The market remained in place. Three years ago, the Campbell 
County School District witnessed a methamphetamine dealer declare that 
she used 10 ``runners'' to move $35,000 of methamphetamine each week to 
her primary market--high school students. The ``big dealer'' was 
convicted. The market was left in place. The Federal trafficking 
investigation of the Allen's family resulted in the identification, 
arrest and convictions of a trafficking system that brought pounds of 
methamphetamine into Gillette, Wyoming. The primary suspects, the 
Allens, used their 14-year-old and 18-year-old sons to distribute 
methamphetamine to their peers. The market was left in place.
    Elementary School teachers and counselors watch an increasing 
population of ADHD students that are associated with guardians who are 
suspected of methamphetamine use. Junior High Schools are locked 
between the increasing ADHD population approaching from the Elementary 
level and the decreasing age of drug abusers from above.
    Counselors are required by Wyoming law (WSS 14-3-205) to report 
suspected child abuse and neglect. A local defense attorney challenged 
this, receiving an opportunity to question the counselor's 
professionalism in District Court. The counselor's decision was upheld, 
but this style of intimidation needs to be addressed. The attorney had 
the legal right to question the law. The court had the duty to consider 
the attorney's question, but school counselors being victimized in this 
way is an important, real and political event. Public support of the 
schools, the administrators, the teachers and the counselors must be 
expressed.

                                CHILDREN

    The Campbell County Public Health Office and the Campbell County 
Children's Development Services witness the devastating effect upon 
child victims that a guardian's use of methamphetamine produces.
    The Wyoming Department of Family Services of Gillette attributes a 
huge percentage of their neglect reports to guardians using 
methamphetamine or allowing methamphetamine into the home. DFS is a 
Wyoming State agency, but the local agents are an exceptional source of 
information about Campbell County conditions. Foster care has reached a 
critical shortage. The Youth Emergency Services House (Y.E.S. House) 
has continuous contact with youthful victims of methamphetamine, and 
needs greater community support. Childcare facilities and foster 
families can be a budget consideration for our tax dollars.

                                MEDICAL

    The OB/GYN staff of the Campbell County Memorial Hospital has 
watched methamphetamine devastate the lives of newborn infants and this 
inflicts a huge financial burden on health care costs. The Emergency 
Room staff witnesses a continuous flow of patients receiving medical 
care for illnesses that would be nonexistent except for 
methamphetamine.
    The Campbell County methamphetamine market has charged the 
community for emergency room visits, prenatal and postnatal childcare, 
neglected and abused childcare, dental care, County Health provision, 
inmate health care, labor accidents, and domestic violence injuries. 
Dental offices have seen a continual increase in methamphetamine-
related gum disease and tooth decay. It is irrelevant if these 
unnecessary medical expenses are being paid by insurance (overall rates 
then, of course, increase) or left unpaid by the patient. We are 
ultimately paying.
    The continuous ``in your face'' devastation methamphetamine has 
created to children confronts nurses and doctors, as it has teachers 
and counselors. These professions are difficult enough without the 
added helplessness of seeing guardians continue to use methamphetamine 
with impunity. This information needed to be directly and frequently 
stated to the controllers of Campbell County's budget and legal voice. 
It is not the information protected by patient's rights that is 
important; it is the whole picture, the number of patients and the 
number of health care dollars lost.

                                 LABOR

    Real and powerful concern has been expressed by every 
organization--governmental and private. Diverse groups, such as the 
local Drug Free Workplace Committee, have sought realistic solutions to 
the damage methamphetamine has inflicted on Campbell County. 
Responsible local businesses have entered into investigating ways to 
identify drug users within their workforce and to understand every 
option in dealing with individual abusers.
    Private drug testing facilities have been very supportive in their 
attempts to improve the reliability of chemical testing. Their 
recommendations to Campbell County businesses are realistic. The 
testing facility documents the contents of the sample, but improving 
the collection techniques and varying the testing methods, both 
responsibilities of the client can dramatically improve the accuracy of 
the test. Responsible employers now realize the samples are easy to 
manipulate by individual employees and unscrupulous businesses to 
provide false negative results.
    Honest business, in an effort to provide a safe work environment, 
has become the victim of both employee methamphetamine use and 
dishonest business practices by a few manipulative companies. Honest 
business must continue to keep methamphetamine out of the workforce, 
and will be confronted with the cost of such efforts. Too often, where 
no problem is routinely found, efforts wane and the cost of eradicating 
methamphetamine from a workforce becomes far greater.

                               TREATMENT

    Methamphetamine treatment is not isolated to the relationship 
between an addicted abuser and a counselor. Treatment is a 
consideration to employers, DFS, the Y.E.S. house, school counselors, 
The Campbell County Drug Court, the Diversion Program, Probation and 
Parole departments, and the strong recommendation by private physicians 
to addicted patients.
    Treatment needs to start with new users, where treatment has a 
reasonable possibility of success. Too often health care costs are 
wasted on abusers that are seriously addicted. Our limited resources 
should be invested where failure is minimal and a high expectation of 
recovery.
    Treatment for tobacco abuse in juveniles is minimal, but nicotine 
has been identified as a very probable physical gateway drug, acting on 
the brain in a similar way as methamphetamine. Effort to minimize 
teenage smoking is not just a long-term cancer and respiratory defense. 
The probable association of nicotine and methamphetamine needs to be 
clearly stated.

                      CITIZENS GROUPS AND FAMILIES

    The Campbell County Coalition for a Drug-Free Community has a 
strong base of support in the Gillette. The Coalition was formed to 
confront all drug use, including tobacco and alcohol. The members are 
interested in increasing awareness of drug issues, enforcement of laws, 
and treatment of victims.
    Every person has family interests, but those family members who 
attend lectures given to church groups, foster parent groups and the 
general public learn more ways to protect their family. Many, already 
have suffered a loss. This loss, if they were comfortable sharing it 
with a Commissioner or member of the City Council would have a great 
impact.
    Conventional families rarely exist in the methamphetamine culture. 
Children are raised and ``guarded'' by stepparents, boyfriends, 
girlfriends, significant-others, their siblings, methamphetamine 
customers, methamphetamine dealers, or just anyone that is convenient 
while the original parent is ``hooking up.''

                              LEGAL ISSUES

    Place one of the most addictive drugs in one hand of a young 
person, and unsupervised probation into the other. Which will win? 
Strong, productive, informed sentencing argument is the responsibility 
of the County Attorney.
    The error of placing first time methamphetamine offenders on 
unsupervised probation needs to be explained by professional treatment 
counselors not law enforcement. Treatment counselors, treatment hours, 
and treatment dollars are best spent when first time users are 
sentenced to extensive treatment. Professional testimony is needed to 
help courts use these extremely limited resources in the most 
beneficial manner.
    If the Campbell County Attorney is being forced by the lack of 
foster care or professional testimony to a plea bargain with criminals 
that endanger children, these needs should be addressed. The crime of 
placing a child in an environment of methamphetamine abuse, identified 
not only by the drug and paraphernalia, but by a guardian's lifestyle 
has been successfully presented to courts in States considered liberal 
by Campbell County standards. This crime can be successfully prosecuted 
in Campbell County.

                            LAW ENFORCEMENT

    The community's law enforcement agencies are, like the medical 
professionals, teachers, businesses, treatment professionals and family 
members, limited to the scope of their authority and jurisdiction. The 
Campbell County Detention Center's inmate health care costs are 
tremendous. Drug-related family violence, child abuse, and thefts are 
the majority of law enforcement's call load.
    Law enforcement needs the entire legitimate community to understand 
methamphetamine will continue to thrive where a market exists. Local 
law enforcement has absolutely no jurisdiction at the sources of 
methamphetamine. Past legal actions have been most often directed at 
methamphetamine dealers moving the drug from the out-of-state source to 
the Campbell County methamphetamine market. Leaving the source and the 
market in place has substantially helped to create the problem we all 
face.
    During our Methamphetamine Awareness presentation, the audience is 
confronted with an analogy. In the recent past, two supermarkets in 
Gillette, Wyoming, closed for a brief period. This reduced the ``big 
dealers'' of food by 50 percent in our community. With half of the 
``big dealers'' gone, not a single person quit eating, not a single 
family left town. If (from possibly a natural disaster) the remaining 
two supermarkets would have been destroyed, the audience agrees that 
still no one would quit eating, and Gillette would remain a stable 
community until the ``big dealers'' were up and running. 
Methamphetamine sales are identical. When a ``big dealer'' is shut 
down, users do not quit or leave. The methamphetamine user may use a 
street dealer of drugs for a source, travel out of town for purchases 
or even try to manufacture methamphetamine. Abstinence will not occur 
and the reality of the drug culture guarantees that another ``big 
dealer'' will arise, possibly within hours. Leaving a market of 
addicted users is the result of trying to appease public demands for 
the enforcement dollars to be spent identifying and arresting ``big 
dealers.'' This type of political pressure leaves local law enforcement 
officials, with limited jurisdictional power, to minimize their efforts 
toward reducing the market, while using their limited manpower in 
support of task forces which can create newsworthy statistics.
    The Wyoming Division of Criminal Investigation (DCI) has been 
exceptionally successful at targeting methamphetamine traffickers. DCI 
has both the statewide jurisdiction and public support to go after 
``the big dealer.'' Campbell County's local law enforcement needs 
equally strong public support to reduce the local market, the users. 
Campbell County law enforcement must work within their jurisdiction, 
and cannot force other States to increase their enforcement efforts to 
eradicate the ultimate source.

                     METHAMPHETAMINE ADDICTED USERS

    The Drug Court, treatment centers, the Campbell County Detention 
Center and Volunteers of America routinely have patients, inmates or 
clients that have information pertinent to the overall knowledge of 
anyone truly trying to understand methamphetamine abuse. I have spoken 
with more than a thousand of these folks over 25 years. Many, while 
telling me arrest is not the answer, have admitted it was only arrest 
that moved them to change. I have never heard of a new user seeking 
treatment. Heavy abusers that no longer are receiving pleasure from a 
drug they have built a tolerance to, may seek treatment. Unfortunately, 
when tolerance diminishes, the vast majority (probably 85 percent) 
return to methamphetamine. They want to be clean, and they, better than 
anyone, understand what they have lost, but this drug overrides the 
best intentions and the finest treatment. Employees that have been 
confronted with a possible loss of a job, may seek treatment. The 
person we are trying to save, a young, new user of methamphetamine, 
will not volunteer for treatment.
    I strongly disagree with a statement I frequently hear, ``You can't 
arrest your way out of this problem.'' What you cannot do is 
``incarcerate your way out of this problem.'' There are not enough 
cells to hold the entire Campbell County's methamphetamine market. We 
can arrest our way out of the problem. Not just conventional arrest, 
but employers enforcing their anti-drug policies, schools enforcing 
anti-drug policies, parents not turning a blind-eye to children's use. 
As users are arrested or confronted, treatment cannot be the option; 
incarceration may be an option, expulsion may be an option, job 
termination may be an option, grounding may be an option, but treatment 
must be mandatory. These facilities do not currently exist, but tax 
dollars can be used to increase availability. Sentencing can be used to 
maximize group counseling of new offenders on weekends instead of 
ludicrous unsupervised probation.

                             THE COMMUNITY

    The individual citizens groups, professions, businesses, public 
offices and families need to focus together on the most cost-effective 
and law-effective ways to coordinate all the knowledge within Campbell 
County, Wyoming, against methamphetamine abuse. During the last 3 
years, Quentin and I have realized that our community contains an 
incredible wealth of knowledgeable and capable citizens that are 
already confronting issues of methamphetamine abuse. The community does 
not need to seek or employ experts from outside, or fund independent 
studies. We, as a community, simply need to coordinate our efforts.

                          FEDERAL LEGISLATION

    Effective Federal legislation will not waste tax dollars on the 
creation, implementation and enforcement of new criminal statutes. 
Current statutes adequately support the investigation of interstate 
trafficking systems.
    Current Federal law supports prosecution of interstate criminal 
activity and is an effective use of resources. Trafficking in any 
controlled substance is usually an example of a criminal activity that 
creates far-reaching conspiracies that exceed the jurisdiction of local 
law enforcement. When the illicit manufacture of methamphetamine 
becomes the object of the investigation, the interstate transportation 
of large quantities of pseudoephedrine would, under current laws, be an 
element of conspiracy and give venue to a Federal enforcement agency. 
Activities that are isolated to a small methamphetamine market, ``mom 
and pop'' methamphetamine laboratory, or family use which endangers 
children should be handled by local law enforcement using State or 
local statutes. It can always be argued that any illicit drug use arose 
from a larger conspiracy, but this is not always the case with 
methamphetamine. The abused drug can be produced from legally purchased 
products and then ``cooked'' in a local laboratory.
    Federal legislation should not consider entering into the current 
legal philosophy of controlling pseudoephedrine sales. I am not opposed 
to these laws on a State and local level. Any large ``super lab'' will 
not be purchasing blister packs of retail pseudoephedrine, and the 
current Federal conspiracy laws can be successfully used to deal with 
large shipments of wholesale tablets designated for illicit production 
of interstate quantities of methamphetamine.
    Federal statutes attempted to control the production of 
methamphetamine by making the chemical Phenyl-2-Propanone (P2P) a 
schedule II substance on February 11, 1980. Attempting to control any 
drug use by ``arresting'' a chemical instead of dealing directly with 
human activity is doomed to failure. The market was left in place, and 
after a short period of time a new formula, eliminating the need for 
P2P was not only made available, but ironically created the current 
situation of a far easier production method. In the Spring of 2005, I 
contacted Wyoming State Representative Thomas Lubnau, and in a letter 
warned him that laws controlling the sale of pseudoephedrine, while 
proper, were not going to result in effective control of the 
methamphetamine problem. On July 28, 2005, Iowa Congressman Tom Latham 
released a newsletter announcing his plans to introduce a bill ``that 
would make Iowa's tough restrictions on the sale of pseudoephedrine'' a 
Federal law. On January 23, 2006, Kate Zernike of The New York Times 
published an article, Potent Mexican Meth Floods in as States Curb 
Domestic Variety. Within the article, Betty Oldenkamp, secretary of 
human services in South Dakota, said, ``You can't legislate away 
demand.'' The failure of Iowa's anti-pseudoephedrine law is discussed. 
The most important statement within the article is, ``But here and in 
many of the States with recent pseudoephedrine restrictions, 
frustrations with the stubborn rate of addiction has moved discussions 
from enforcement to treatment and demand reduction.'' Just over the 
horizon is a family of chemicals, the Fentanyls. Chasing and 
``arresting'' chemicals will simply move users to a new drug if the 
manufacture of methamphetamine is reduced while the demand remains.
    Further proof that ``arresting'' a chemical is doomed to failure, 
requires only a look at the 18th Amendment. Alcohol was the chemical, 
and while trafficking and production was confronted, the market was 
left in place.
    Federal methamphetamine law, particularly from the Committee on 
Health, Education, Labor, and Pensions, can be effective. Providing a 
system that requires treatment assessment and effective probation 
attached to sentencing of convicted methamphetamine users will make a 
difference. If real and effective treatment can also be mandated, the 
positive effect will be even greater.
    The most important response the Federal Government could make to 
address the growing methamphetamine problem is the development of an 
addiction evaluation program supported by follow-up counseling and 
treatment, complete with a mandatory payment plan that would be 
available as a sentencing option for local and State courts.
    This is not a ``pay-me-now or pay-me-later'' situation. The price 
of methamphetamine addiction currently placed on innocent taxpayers is 
beyond accurate determination. Methamphetamine is a situation of 
``you're-paying-me-now and you're-going-to-pay-me-more-later.'' The 
development of good, responsible counselors and probation officers will 
be difficult, but this is an investment in the future. When, through 
proper treatment the methamphetamine market begins to diminish, any 
system of counselors and probations officers can be used productively 
to confront other addictive behaviors that are currently threatening 
society.
    Treatment and probation of addicted users are not a system of 
socialized medicine. Reimbursement would be a mandatory return for the 
user. The cost of effective treatment is great, but it is approximately 
the same as the cost of a mid-level vehicle, and far less than a home. 
Taxpayers are expected to pay for their needs and methamphetamine users 
can be equally responsible when proper local enforcement is applied. 
Proper local enforcement is methamphetamine investigation and 
intervention at new-user levels. Beginning users have a reduced 
addiction making treatment more cost effective. New users are 
frequently of an age that, on an average, family responsibilities are 
minimal, and responsible treatment will provide an opportunity for the 
user to enter the workforce. Timely and effective counseling increase 
the probability the user will become a productive member of society. 
Currently law enforcement politically supports the public misconception 
that investigating new users is a waste of tax dollars. This 
misconception even invades prosecutorial decisions and judicial 
sentencing. In Campbell County, Wyoming, the normal response by the 
judicial system is to accept a plea agreement that reduces 
methamphetamine possession charges to simple use. Sentencing results in 
a minimum fine and placement of the offender on unsupervised probation. 
Judges, prosecutors and the public want to wait until the offender has 
created such an addiction that the offender has begun sales to support 
his/her habit. Unfortunately reasonable treatment cost, then exceeds 
any possible payment source.
    The legal term of felony or misdemeanor is moot. Plea bargains are 
the bane of successful treatment, success for the addict or safety to 
the community. First time offenders should receive a short 
incarceration to allow them to minimize the mental interference of 
methamphetamine use, and then see a counselor for the determination of 
an addiction evaluation. Reasonable outpatient treatment should be 
supplied if appropriate and a close association with a probation system 
maintained to minimize destructive behavior. Second offenders, when, 
appropriate, should receive a minimum of 60 days incarceration to give 
counselors a chance.
    Employers that are provided with the support of mandatory treatment 
and probation of errant employees may see it financially suitable to 
retain a trained but addicted person. Families that recognize a local 
government will provide evaluation, counseling and probationary control 
on juvenile offenders will be far more accepting of user-level 
enforcement. Mandatory return to school should be part of any juvenile 
offender's probation.
    Research and development of drug testing systems that are more 
accurate and more difficult to manipulate will also support probation 
officers, employers and families.
    The only criminal legislation that would be supportive of the 
treatment/probation program would address counselors, probation 
officers or testing facility personnel that violate their 
responsibilities.
    This type of legislation was introduced by Wyoming Representative 
Thomas Lubnau to the Wyoming House Judicial Committee in February 2006. 
It passed quickly and moved to the House where it was also passed. In 
the Wyoming Senate Judicial Committee it was stopped. Federal support 
of this same program would have a nationwide positive result. States, 
or cities choosing to recklessly allow the use of federally controlled 
substances, such as marijuana, have obviously taken a path that Federal 
treatment support does not need to tread upon. Responsible States 
suffering a huge burden created by methamphetamine abuse will not need 
to change misdemeanors to felonies or be hamstrung by jurisdictional 
boundaries. Local law enforcement can investigate, arrest and provide a 
positive treatment program to new users that will be effective. When 
their methamphetamine use diminishes, the counseling and probation 
systems can be applied to DWUI offenders, domestic violence offenders 
and juvenile tobacco and alcohol use.

    Senator Enzi. Dr. Clark.

STATEMENT OF H. WESTLEY CLARK, M.D., J.D., DIRECTOR, CENTER FOR 
        SUBSTANCE ABUSE TREATMENT, SAMHSA, ROCKVILLE, MD

    Dr. Clark. Senator, I was mesmerized by Sergeant Hamilton's 
comments.
    I want to thank you for inviting us here. Mr. Charles 
Curie, the administrator of the Substance Abuse and Mental 
Health Services Administration, wanted to be here, but he had 
previously committed to go to Cairo, Egypt for a meeting for 
providing services to all people of Iraq. He was unable to be 
here.
    As you know, our focus at the Substance Abuse and Mental 
Health Services Administration is on treatment and prevention 
or prevention and treatment. Sergeant Hamilton's comments are 
very powerful on that.
    What we have been trying to do is use our limited resources 
to commit jurisdictions, whether they are rural or urban, to 
address the methamphetamine problem.
    Dr. Rawson pointed out that we don't do research at SAMHSA, 
but we did one research project, because there was a tremendous 
absence of information on how to treat methamphetamine. Dr. 
Rawson's project was one of the projects funded in 1998.
    We have come up with a bunch of materials to train people 
using our ATTCs. We have what we call addiction technology 
transfer centers, because the substance abuse treatment 
workforce is, as Mr. Robinson pointed out, in great need and a 
large amount of turnover. Using our ATTCs, we have come up with 
materials, electronic materials, face-to-face materials, and I 
have given your staff a package of this.
    We have come up with DVDs and CDs. We have come up with 
what we call our treatment improvement protocols so that--on 
the stimulant use disorders, and we have got a number of other 
things which are, again, in the packet. But the key issue is we 
are providing funds, we are providing training and we're 
supporting, along with the DEA and other entities within the 
Department of Justice, a statewide methamphetamine focus 
meeting. But what I liked about your comment is that it 
involved people in specific jurisdictions more than it does the 
feds. We are facilitators of dialogue.
    I was recently at an Arizona meeting. The Governor was 
there, the attorney general was there, treatment was there, law 
enforcement was there, private industry was there. That's the 
kind of intensive commitment, because as long as the community 
permits methamphetamine to be used, it will be used, and 
Sergeant Hamilton's point is a point that's well taken.
    We need to have treatment and prevention strategies coupled 
with law enforcement strategy. We need a full continuum. At 
SAMHSA we're committed to that, with block grants, with our 
discretionary portfolio.
    Wyoming also has an Access to Recovery initiative. We were 
just talking to Steve Gilmore earlier. That's a very positive 
initiative involving safe communities, community-based 
organizations to give people choice and to allow people to 
focus on making treatment decisions in their best interest, and 
we are getting a lot of support for our Access to Recovery 
initiative in jurisdictions. Wyoming is doing very well in that 
initiative.
    The key issue for us is to use our limited resources, to 
work with States and tribes, cities and counties so that we can 
make sure that information is available for treatment providers 
and that jurisdictions can choose to prioritize how they spend 
their money.
    Wyoming is also a recipient of our strategic prevention 
framework initiative which involves underage drinking, and the 
Governor's wife can speak to that, but that's also tied to 
methamphetamine use.
    Senator Enzi. Thank you very much.
    [The prepared statement of Dr. Clark follows:]

           Prepared Statement of H. Westley Clark, M.D., J.D.

    Mr. Chairman, good afternoon. I am Westley Clark, Director of the 
Center for Substance Abuse Treatment within the Substance Abuse and 
Mental Health Services Administration (SAMHSA), part of the U.S. 
Department of Health and Human Services (HHS). Our Administrator, 
Charles Curie, would have come to participate, but he was committed to 
go to Cairo, Egypt, for a meeting on providing mental health services 
to the people of Iraq.
    I greatly appreciate the opportunity to testify today in your home 
State on a disease that is not only affecting the people of Wyoming but 
millions of people across the United States. According to SAMHSA's 
National Survey on Drug Use and Health, in 2004, 19.1 million people, 
age 12 and older, had used an illicit drug in the past month. Whether 
they use heroin, marijuana, methamphetamine, cocaine, or abuse 
prescription drugs, the health, social, and economic costs are 
substantial, including continued substance addiction, lost 
productivity, premature death, unemployment, homelessness, diminished 
educational advancement, and possible criminal involvement.
    We have compelling data that show the Federal investments in 
prevention and treatment are a cost-effective and beneficial response 
to substance abuse. Prevention does reduce substance abuse. Treatment 
does help people triumph over addiction and lead to recovery. For 
example, SAMHSA's National Treatment Improvement Evaluation Study, a 
congressionally mandated, 5-year evaluation of substance abuse 
treatment programs, found a 50 percent reduction in drug use among 
clients 1 year after treatment. Clients included in this evaluation 
study were from underserved populations and included minorities, 
pregnant and at-risk women, youth, public housing residents, welfare 
recipients, and those in the criminal justice system. The study also 
reported a nearly 80 percent reduction in criminal activity, a 43 
percent decrease in homelessness, and a nearly 20 percent increase in 
employment.
    Our findings are corroborated by other studies, among them, the 
Drug Abuse Treatment Outcomes Study, a National Institute on Drug Abuse 
(NIDA) study of over 10,000 clients who received treatment in 96 
programs in 11 large U.S. cities.
    While substance abuse treatment is clearly effective, we must also 
work to prevent substance abuse in the first place. As you know, the 
President set aggressive goals to reduce drug use in America. Today, 
with effective prevention efforts, rates of substance use among the 
Nation's youth are dropping. This decline in substance use among our 
Nation's youth suggests that our work, joined with the work of our 
Federal partners, and the extensive community-based work of schools, 
parents, teachers, law enforcement, religious leaders, and local anti-
drug coalitions, is having an effect.

                             SAMHSA'S ROLE

    I was asked to testify this afternoon on SAMHSA's programs to 
address the prevention and treatment of substance abuse and about our 
efforts to hold our grantees and ourselves accountable.
    I would like to start by discussing how SAMHSA is weaving 
accountability into our substance abuse prevention and treatment 
efforts.
    To focus and guide our program development and resources, we have 
developed a Matrix of program priorities that pinpoint SAMHSA's 
leadership and management responsibilities. These responsibilities were 
developed as a result of discussions with members of Congress, SAMHSA's 
National Advisory Councils, constituency groups, people working in the 
field, and people working to obtain and sustain recovery. The Matrix 
priorities are also aligned with the priorities of the Administration 
and HHS Secretary Leavitt, whose support for our vision of a life in 
the community for everyone we appreciate. They guide us as we make 
policy and budget decisions.
    To accomplish our priorities SAMHSA is building our programs around 
three key principles: accountability, capacity, and effectiveness--ACE.
    To promote accountability, SAMHSA tracks national trends, 
establishes measurement and reporting systems, develops standards to 
monitor service systems, and works to achieve excellence in management 
practices in addiction treatment and substance abuse prevention. We are 
demanding greater accountability of our grantees in the choice of 
treatment and prevention interventions they set in place and in the 
ways in which program outcomes meet the identified needs for services.
    By assessing resources, supporting systems of community-based care, 
improving service financing and organization, and promoting a strong, 
well-educated workforce that is grounded in today's best practices and 
known-effective interventions, SAMHSA is enhancing the Nation's 
capacity to serve people with or at risk for substance use disorders.
    SAMHSA also helps assure service effectiveness by assessing 
delivery practices, identifying and promoting evidence-based approaches 
to care, implementing and evaluating innovative services, and providing 
workforce training.

                        NATIONAL OUTCOME DOMAINS

    Working in collaboration with States and other stakeholders, we 
have identified and received global agreement on 10 key national 
outcome domains that emphasize real results for people with or at risk 
for substance use disorders.
    The first and foremost domain is abstinence from drug use and 
alcohol abuse. Four domains focus on resilience and sustaining 
recovery. These include getting and keeping a job or enrolling and 
staying in school; decreased involvement with the criminal justice 
system; securing a safe, decent, and stable place to live; and social 
connectedness to and support from others in the community such as 
family, friends, co-workers, and classmates. Two domains look directly 
at the treatment process itself in terms of available services and 
services provided. One of these measures increased access to services 
for both mental health and substance abuse, and another looks into 
increased retention in services for substance abuse treatment. The 
final three domains examine the quality of services provided. These 
include client perception of care, cost-effectiveness, and use of 
evidenced-based practices in treatment.
    Each domain represents an outcome that you, SAMHSA, and the 
American people expect from successful substance abuse treatment 
systems. More important, these are the outcomes that help people obtain 
and sustain recovery.
    By using the same outcome domains and their measures over time to 
assess progress, States and SAMHSA can foster continuous program and 
policy improvement. By using the same national outcome domains across 
all of SAMHSA's State and community-based programs, we will be able to 
report nationally aggregated data in standard periodic and special 
reports. We will know with significant precision, as will you, the 
Administration, and the public, whether the service system is improving 
and whether we are meeting the President's goals to reduce substance 
abuse nationwide. Moreover, we will be able to identify--and you will 
be able to know about--gaps or issues that need to be rectified at the 
national level. Our grantees, and SAMHSA, in turn, will be accountable 
for positive results. Perhaps most critically, we will be able to see 
just how well we are promoting recovery and the vision of a life in the 
community for everyone.
    While grantees under our discretionary grant programs are providing 
this data now, it has been and continues to be more of a challenge with 
our block grant program, largely because we are talking about change to 
systems of care and not just to a specific grant. Despite this, States 
are committed to provide outcome data by the end of 2007.
    We are very pleased with the progress we have made with the States 
and look forward to not only gathering the data but using it to make 
decisions and to improve services.

                            SAMHSA PROGRAMS

    Now let me discuss some of the major programs that SAMHSA funds to 
assist States and communities in addressing substance abuse in their 
communities.
    For fiscal year 2007 the President has requested nearly $1.8 
billion for the Substance Abuse Prevention and Treatment Block Grant. 
These funds are distributed to States using a formula dictated in 
statute. While there are some requirements that States must meet as a 
condition of receiving the funds, States have great flexibility in 
their use of the funds. Across the United States, Block Grant funds 
account for just over 40 percent of all State funding on substance 
abuse prevention and treatment. One requirement of the program is that 
the State must spend at least 20 percent of its allotment on primary 
prevention. This amounts to $334 million across all States. Wyoming 
this year received $3.3 million under the Substance Abuse Prevention 
and Treatment Block Grant program.
    Besides the Block Grant, SAMHSA has funds for which public and 
nonprofit private entities are eligible to compete. SAMHSA publishes 
notices about the availability of program funds.
    Entities submit applications which are reviewed and scored by 
experts from outside Federal employment, and SAMHSA funds those with 
the best scores. This year we have $592 million in appropriated funds 
for discretionary grants and an additional $80 million for Drug Free 
Community Programs, which are discussed below. Most of these funds will 
be used to continue grants that were awarded in previous years. To 
learn what new funds are available, interested people can go to our Web 
site at www.samhsa.gov and click on ``Grants.'' For fiscal year 2005, 
Wyoming received $5.3 million in substance abuse prevention and 
treatment discretionary funding. For details on who is receiving those 
funds, one can go to our Web site and click on State Funding.
    I want to take a moment to highlight just a few of the programs 
that we have.
    Providing people with the opportunity to obtain and sustain 
recovery is at the heart of the President's Access to Recovery (ATR) 
Initiative. This program fosters consumer choice, introduces greater 
accountability and flexibility, and increases treatment capacity by 
providing individuals with vouchers to pay for the substance abuse 
clinical treatment and recovery support services they need. In 2004, 44 
States and 22 American Indian tribes submitted applications. Fourteen 
States and one American Indian Tribe received a 3-year grant under this 
program. As you know, Wyoming received an award of $2.9 million over 3 
years to address methamphetamine abuse in the State.
    Despite requesting additional funding for the program in both 
fiscal years 2005 and 2006, the program was level funded, and all those 
funds were used to continue the existing grants. For fiscal year 2007, 
the President has requested $98.2 million for the ATR program to 
continue to implement the President's commitment to expand consumer 
choice and access to effective substance abuse treatment and recovery 
support services by including Faith- and Community-based providers.
    Of the $98.2 million, $25 million will be targeted to help 
individuals recover from methamphetamine abuse. The $25 million will 
fund approximately 10 grants of almost $2.5 million a year for 3 years. 
The program will focus on applicants from those States whose 
epidemiological data and treatment data indicate high methamphetamine 
prevalence and treatment prevalence.
    ATR funding for fiscal year 2007 of $70 million is proposed for a 
Voucher Incentive Program, which will provide up to 25 grant awards of 
between $1 million and $5 million to applicant States and Tribal 
Organizations to expand consumer choice through the use of vouchers. 
Vouchers provide an unparalleled opportunity to create profound change 
in substance abuse treatment financing, service delivery, and 
accountability in America.
    The Strategic Prevention Framework (SPF) program helps move the 
President's vision of a healthier United States to State- and 
community-based action. The SPF State incentive grants provide funding 
to States to establish and implement a statewide comprehensive 
prevention strategy. At the end of this year, 40 States and American 
Indian Tribes will have received a SPF grant of $2.3 million a year for 
5 years. Wyoming has a SPF grant which will continue with SAMHSA 
support through fiscal year 2009.
    The success of the framework is and will be determined in large 
part on the tremendous work that comes from grass-roots community anti-
drug coalitions. SAMHSA will continue working with the Office of 
National Drug Control Policy throughout 2006 to support 720 grantees 
funded through the Drug Free Communities grant program. Under this 
program, local coalitions receive $100,000 a year for 5 years to 
continue community-based efforts to prevent drug abuse. Grants awarded 
in 2006 will have a particular emphasis on underage drinking. Wyoming 
currently has four such grants, including one here in Casper--Natrona 
County School District.
    SAMHSA's Targeted Capacity Expansion (TCE) grants, for which the 
Administration has requested $21 million for fiscal year 2007, are to 
expand and/or enhance the community's ability to provide a 
comprehensive, integrated, and community-based response to a targeted, 
well-documented substance abuse treatment capacity problem and/or 
improve the quality and intensity of services. For example, a community 
might seek a TCE grant to add state-of-the-art treatment approaches or 
new services to address emerging trends or unmet needs.
    As we financially support State and local providers in their 
efforts to prevent and treat substance abuse, we are working to ensure 
that consumers and providers of substance abuse services are aware of 
the latest interventions and treatments. One important tool being used 
to accelerate the ``Science to Service'' agenda is SAMHSA's National 
Registry of Evidenced-based Program and Practices. Last week we 
released a Federal Register Notice about the registry and how it has 
been and will continue to provide guidance to States and local 
community organizations in choosing prevention and treatment 
modalities.
    Education and dissemination of knowledge are key to combating 
substance abuse. SAMHSA's Addiction Technology Transfer Centers are 
providing training, workshops, and conferences to the field regarding 
drug use. It is an ATTC that developed the discs outlining cognitive 
behavioral approaches to the treatment of methamphetamine abuse and in 
particular the MATRIX model.
    SAMHSA develops Treatment Improvement Protocols (TIPs) on various 
subjects related to substance abuse. For example, in 1999, SAMHSA first 
published TIP No. 33, entitled ``Treatment for Stimulant Use 
Disorders,'' which has been reprinted twice. Every 2 years, we take 
another look at each TIP to update it as needed.
    I would be remiss if I did not mention that on April 5-7, SAMHSA is 
sponsoring a conference on methamphetamine in Los Angeles for all 
States west of the Mississippi River. We are paying for each State to 
bring up to 15 individuals, including State officials and providers. 
The States on the east side of the Mississippi will have their 
conference in Orlando the week of May 23rd.

                               CONCLUSION

    Again, Mr. Chairman, I thank you for the opportunity to discuss 
SAMHSA and its programs. We look forward to working with you on 
expanding the services we provide and in improving the accountability 
systems currently in place to ensure that Federal funds are being used 
effectively and efficiently.

    Senator Enzi. I'm sorry you didn't get to make the trip to 
Egypt, but I very much appreciate your being here to share with 
everybody some of the Federal initiatives that are being done 
that we want everybody in Wyoming to be aware of. And, of 
course, the mechanism by which we're going to use this 
information will be on the reauthorization of SAMHSA.
    What's said here today may well affect you. I'm glad you're 
here taking notes as well. Thank you.
    With that little bit of an introduction, again, to your 
first lady, I will go to First Lady Nancy Freudenthal.

           STATEMENT OF NANCY FREUDENTHAL, WYOMING'S 
                    FIRST LADY, CHEYENNE, WY

    Ms. Freudenthal. Thank you, Mr. Chairman.
    I would like to, I guess, move the discussion in a 
different direction, a direction that really focuses on 
prevention.
    I would take issue, I think, with some of Sergeant 
Hamilton's comments in terms of treatment being the No. 1 
priority.
    My testimony here today is emphasizing the importance of 
community-based environmental strategies that look at and 
reinforce various domains where you can make change in terms of 
affecting the norms on both alcohol use as well as illegal drug 
use.
    In following up on Dr. Clark's testimony on SAMHSA 
reauthorization, I would like to encourage the committee to 
really focus the emphasis of substance abuse prevention from 
mostly individual behaviorally based programs to a 
comprehensive communitywide strategy.
    For the Wyoming First Lady's Initiative, we have a large 
poster that talks about how blaming children for drinking is 
much like blaming fish for dying in a polluted stream.
    We're talking about an environment in which our children 
and our citizens live, and if we can look at prevention from a 
comprehensive communitywide strategy much like the model of the 
First Lady's Initiative, which is really a bottom up initiative 
as opposed to a top down initiative, an initiative that 
partners with a number of other entities and builds with--on 
the back of the passion of advocates in the community like Mr. 
Pagel and others who are part of the First Lady's Initiative.
    It's never enough to put the responsibility solely on the 
back of the individual, whether it's not to drink or to refrain 
from using drugs or to seek treatment. That's not enough.
    I think we do need to look at prevention from this 
communitywide strategy and from a multiple strategy where 
targeting parents, targeting use, targeting schools, targeting 
communities and having messages in those various domains 
reinforce each other. I think science tells us that the impact 
of having positive change with that approach is improved.
    I would like to--because I'm talking about underage 
drinking or the childhood drinking initiative--I would like to 
link a little bit more closely to meth use.
    The First Lady's Initiative was recognized in the 
Governor's 2006 State of the State address to the legislature. 
I was very honored and pleased with that. He recognized it not 
only as a model or a template for attacking problems such as 
meth use, but he also connected the dots between childhood 
drinking and illicit use of drugs.
    Now, we know that early onset of drinking by children is a 
real predictor of much of the serious problems to come. We know 
that the statistics about the children that drink are likely to 
perpetrate violence as well as become the victim of violence, 
become the victim of assaults, suicides, early and unplanned 
sexual activity and accidents.
    We have also heard the statistic that 40 percent of 
children who start drinking before the age of 15 will develop 
alcohol or drug abuse dependencies at some point in their life, 
40 percent. That's almost half of kids drinking under an age of 
14 are--have at some point in their time--looking at a drug or 
alcohol dependency.
    Wyoming ranked first for children drinking under the age of 
13. This particular statistic I think should be alarming for 
us.
    Now, as though that information were not bad enough, I 
recently received research linking early childhood drinking to 
later use of stimulant drugs. This research came through the 
director of the Division of Epidemiology and Prevention 
Research at NI triple A.
    The research came from a draft manuscript from Dr. John 
Herman sent to the Boston University Youth Alcohol Prevention 
Center. Dr. Herman sets research that shows the younger the age 
respondents first drank alcohol, the larger the percentage who 
then later illegally used stimulants. Specifically, literally 
one quarter of the respondents who drank under the age of 14 
reported illegally using stimulants, which would include meth.
    This percentage is even more dramatic when you compare it 
to the percentage of respondents who waited to drink until they 
were the legal drinking age, 21 or later. Only 2 percent, only 
2 percent of those respondents say that they later, then, 
participated in using illegal stimulants.
    What does that tell us? It tells us that these early-onset 
drinkers are 11 times more likely to then enter into these 
other activities of use of stimulant drugs.
    For me, the lesson is clear. We ignore childhood drinking 
at our peril. To quote the Governor in his message, ``we can 
more effectively address meth problems by redoubling our 
attention to teenage and preteen alcohol use.''
    I would just like to encourage you, Senator, and your 
committee when you're looking at the reauthorization of SAMHSA 
to put an emphasis on prevention and to consider including the 
provisions from the stop underage drinking act, the sober truth 
in preventing drinking act.
    There is no question that prevention has been underutilized 
both as to funding and emphasis relating to its importance and 
effectiveness in reducing drug and alcohol use and their 
related human and social impacts.
    Thank you.
    Senator Enzi. Thank you.
    You will be pleased to know that yesterday in the 
Governor's speech, he again mentioned the First Lady's 
Initiative and the difficulty with underage drinking and how 
that also relates, then, to experimenting with other drugs, and 
some of them are not experimentable, like methamphetamine.
    So, thank you.
    [The prepared statement of Ms. Freudenthal follows:]

           Prepared Statement of First Lady Nancy Freudenthal

    Good afternoon Senator Enzi and members of this roundtable 
discussion. My name is Nancy Freudenthal and I am here today as 
Wyoming's First Lady and also as a representative of the Wyoming First 
Lady's Initiative to reduce childhood drinking. I am pleased to 
participate and provide information for the Committee on Health, 
Education, Labor, and Pensions, as it looks at State and local 
initiatives to combat meth use and as it generally prepares for the 
reauthorization of the Substance Abuse and Mental Health Service 
Administration (SAMHSA).
    My comments will focus primarily on the First Lady's Initiative. I 
was pleased and honored to have the work of the Initiative recognized 
in the Governor's 2006 State of the State message to the legislature. I 
brought an excerpt of his message for the record. The Governor's 
message made some important points relevant to this roundtable 
discussion.
    The first point made in his message is that the Wyoming First 
Lady's Initiative can set a template for attacking the related and 
equally frightening problem of methamphetamine use.
    Under WFLI, we have brought together a statewide network of 
passionate advocates concerned with the public health problem of 
childhood drinking. These advocates are dealing with this issue from 
the community level--a ``bottoms-up'' approach, rather than using the 
traditional ``top-down'' model. The Initiative also emphasizes 
inclusion and partnership.
    Specifically, we have partnered with State agencies, law 
enforcement, liquor and beer distributors and retailers, the military, 
judges, business owners, the faith community, the nonprofit sector, 
teachers, school administrators, local government officials, parents 
and students--to change attitudes starting in each Wyoming community. 
Our team members have been incredible. With our team members, we have 
empowered local community efforts, provided resources and training, 
bought advertising, published statistics, collected news articles, 
distributed parent handbooks, posted ``best practice'' ordinances, 
advocated policy changes, held town hall meetings, mailed letters to 
nearly 16,000 Wyoming households, and engaged conversations all over 
our State--with one aim--trying to be a supportive voice for change 
within Wyoming.
    The experiences have been marvelous. FE Warren is leading the 
military with its 0-0-1-3 program, which started from WFLI training. 
People are engaged and talking about everything from the location of 
the beer tent at the county fair, to whether schools have good alcohol 
policies, to why parents, siblings and other adults supply alcohol to 
kids. We're trying to take prevention directly to all fronts: parents, 
schools and communities. Also, one of the most exciting developments is 
that our Wyoming students are taking a leadership role and showing real 
results in reducing risky behavior.
    In short, we are hoping that each targeted prevention domain 
(youth, parent, schools and community) is reinforced by the other in 
order to bring about the best impact.
    The lesson learned from WFLI is that this sort of community-based 
environmental strategy, which targets the most effective domains for 
change, can strengthen norms against childhood drinking.
    Along this same line, the SAMHSA reauthorization needs to help 
refocus the emphasis of substance abuse prevention from mostly 
individual, behaviorally based programs to similar comprehensive 
community-wide strategies. It will never be enough to put the 
responsibility solely on the back of the individual--whether it is to 
refrain from drinking until 21, or to not use drugs, or to seek 
treatment for alcohol or drug use and abuse. The SAMHSA reauthorization 
must emphasize multiple strategies that create a comprehensive blend of 
individually and environmentally-focused efforts.
    The second point made in the Governor's 2006 message to the 
Legislature is that early alcohol use by children is a predictor of 
more serious problems, including meth use. We know that children who 
drink put themselves at risk of perpetrating violence or becoming a 
victim of violence, suicide, unplanned and early sexual activity, and 
accidental injury and death. We've also heard the statistic that 40 
percent of children who start drinking before the age of 15 will 
develop alcohol or drug abuse or dependence at some point in their 
lives.
    As though this information is not worrisome enough, I recently 
received research linking early childhood drinking to later use of 
illicit stimulant drugs from the Director of the Division of 
Epidemiology and Prevention Research in the National Institute of 
Alcohol Abuse and Alcoholism. This research comes from a draft 
manuscript by Dr. John Hermos at the Boston University Youth Alcohol 
Prevention Center. Dr. Hermos' research clearly shows the younger kids 
first drink alcohol, the larger the percentage who then illegally used 
stimulants sometime in their lives.
    Specifically, nearly \1/4\ (23 percent) of all respondents who said 
they drank before the age of 14 also reported illegally using 
stimulants, which would include meth. This percentage is even more 
dramatic when compared to those who waited to drink until they were 21. 
Only 2 percent of those respondents went on to then illegally use 
stimulants. This research tells us that early users of alcohol are 11 
times more likely to later use stimulants compared to respondents who 
waited to drink until they reached the legal drinking age.
    The lesson here seems clear. We ignore childhood drinking at our 
serious peril. To quote the Governor, ``we can more effectively address 
meth problems by redoubling our attention to teenage and preteen 
alcohol use.''
    Thank you Senator Enzi for your commitment to this important issue. 
I encourage your committee to reauthorize SAMHSA with a strong emphasis 
on prevention and with provision that reflect the Sober Truth on 
Preventing (STOP) Underage Drinking Act. There is no question that 
prevention has been under utilized, both as to funding and emphasis 
relative to its importance and effectiveness in reducing drug and 
alcohol use and their related human and societal costs.
    The WFLI prevention work has been both rewarding and productive. I 
am convinced that its emphasis on partnership, cooperation and 
comprehensive, community-wide environmental strategies will change 
norms and save lives. I am also convinced that increased resources for 
community coalitions and States to enhance underage drinking prevention 
efforts will be a positive and important step forward in the fight 
against meth use, for all America--rural and urban.
    Thank you.

    Senator Enzi. Ms. Searcy.

STATEMENT OF MARGEAN SEARCY, SALT LAKE CITY POLICE DEPARTMENT, 
                       SALT LAKE CITY, UT

    Ms. Searcy. Thank you for convening this roundtable, 
Senator.
    Utah started to see its methamphetamine issue around the 
early 1990s. By 1998, we were at a peak as far as 
methamphetamine labs, clandestine labs, and we were doing our 
best to equip first responders and kind of gear up for that.
    We also did some pre-emptive stuff in the early 1990s where 
we put some legislation in place to strip precursor chemicals, 
because we saw this coming across the western United States and 
we knew that soon it would hit Utah.
    We also started working interdisciplinary teams. We started 
putting together a task force to work on meth issues, and by 
1998 the Salt Lake City Police Department had put together the 
Cops Meth Initiative with over 30 agencies to work on this 
issue.
    We started a public awareness campaign, started identifying 
victims. When we talk about victims, oftentimes nationally we 
talk about children, but I think it's very important that we 
don't miss the elderly people as well.
    With our response, we have witnessed a 67 percent decrease 
in the number of meth labs. However, arrests for 
methamphetamine distribution and use in just Salt Lake City 
alone has gone up over 208 percent from 1999 to the year 2005. 
That's a big increase for us.
    To put that into perspective, overall arrests for all drugs 
have stayed--you know, have not had an increase, because we're 
topping out at our ability for resources. We're using all the 
resources that we currently have for that.
    We know that there was a direct correlation between crime 
and social issues associated with substance abuse. Some of the 
things that we're seeing with methamphetamine are being 
reported nationally, those being identification thefts, 
financial crimes. We're seeing an increase in counter-
surveillance, which is a problem for law enforcement people 
first coming on scene. We're seeing high tech weapons.
    Environmental conditions really concern us, some of the 
studies that Denver has done with a smoke study as far as 
methamphetamine and some of their first responder studies. 
We're seeing highly sexualized environments and overall 
disregard for taking care of the home and cleanliness.
    In Utah, meth outplaced marijuana back in 2001 and has 
continued to be on the rise. Between 2003 to 2005, we have seen 
an upward spike with people entering treatment saying that 
methamphetamine is their primary problem. Then we look at our 
data more closely and we see that women are using at a much 
higher rate than men, and it's significant. Also, when you 
break this down further, we see that the women that are using 
are between the age 25 and 45, which we know that women during 
the age 25 to 45 are in their childbearing years.
    The estimated--or the average of people entering treatment 
with dependent children, the dependent children on average are 
two.
    One thing that Utah has really been focused on is 
increasing treatment programs that are family oriented. One 
barrier for parents with dependent children entering treatment 
is what to do with their dependent children. Focusing on that 
has been a thing that we've really looked at lately.
    Sixty-eight percent of the kids coming into Utah custody in 
2005 had a contributing factor of substance abuse. Back in 
1998, there was 31 percent. We have seen an extreme increase in 
that arena as well.
    Our capacity for treatment versus our need--60 percent of 
our referrals at this point in time coming into our treatment 
system in Utah are from our criminal justice system, and we 
have people waiting on lists to get into treatment for upwards 
of 3 months.
    That is a problem for us. One of the reasons we're here is 
for reauthorization of the Substance Abuse and Mental Health 
Services Administration.
    One of the things that I wanted to bring to you today that 
we think is important in Utah is increasing foundation funding 
for treatment services and mental health services. Meth--the 
average that I have heard thrown out is that meth takes about 
10 to 15 percent longer to treat.
    I know that this is a bad time to ask for more money, but 
we need more money for treatment. If we are putting together 
collaboration between agencies but we don't have a place to 
treat people once they get there--law enforcement does the 
work. Treatment services does the work, child protection. If we 
don't have places to treat people and treat families, then 
we're going to cause ourselves a lot more costs in the long-
term.
    Thank you.
    Senator Enzi. Thank you.
    Mr. Sniffin.

 STATEMENT OF BILL SNIFFIN, CEO, WYOMING INCORPORATED, LANDER, 
                               WY

    Mr. Sniffin. I'll scoot up over here.
    Thank you, Senator, for calling this hearing and thanks for 
the invite.
    I certainly have been enjoying and I am impressed by what I 
am hearing around the table. I think I can also say as an 
observer--I have been a journalist in Wyoming for 36 years, and 
that's one of the reasons I'm here--but I think I can honestly 
say that Wyoming is in pretty darned good hands right now with 
the first lady doing what she's doing and with Anna. We have 
been watching what she has been doing, obviously, and we have 
worked with her and Steve Gilmore and Rodger McDaniel, and the 
list goes on, Tom Pagel and the different community things.
    But my role in this is, we own an ad agency called Wyoming, 
Incorporated. We actually got into this business to help 
Wyoming with social marketing and to raise awareness. Awareness 
equals prevention or prevention equals awareness. They go hand 
in hand.
    Also a personal note, Senator. When you were first 
campaigning in Lander, you and I went down to my son's baseball 
team. Mike is a heck of a baseball coach. But anyway, one of 
the reasons I got into this is that my son ended up being quite 
a drug addict and was in and out of treatment for a long time.
    When I came to this job, it wasn't just for a job. It was 
personal. This was something that we--my wife is sitting out 
there.
    We have been through a lot, haven't we?
    But anyway, it didn't take long when we got into this to 
realize that there is a heck of a story to be told. I think the 
reason the Senator asked me to be on this panel is, because of 
my background in the media business, we were able to marshal 
free media forces in the State of Wyoming. I think it's between 
$230,000 to $300,000 in in-kind media we have been able to get. 
It's not just been our good work. Again, it's been Tom Pagel 
and Anna and Steve, and Rodger has done a tremendous amount 
over there.
    But what we did is we--I remember a meeting in 2003 of 
police chiefs in Wyoming, and a comment came out that I have 
never forgotten. It was: ``We cannot arrest our way out of this 
problem. We need the communities to deal with this.''
    We came up with a campaign called Wyoming Faces Meth. There 
is a play on words there, and it's ``Wyoming faces.'' We didn't 
hire actors to do the commercials. We went down to the 
treatment centers and actually interviewed real people in 
treatment for meth. Their stories were astonishing. One of the 
things that came out of it was these were not sort of the low-
income kids. These were kids that covered the whole spectrum of 
Wyoming society. The other thing that came out was just how 
difficult meth addiction was to deal with. It's a terrible 
issue.
    I do have other things I am going to say, but as part of 
it, we distributed 300,000 of these, and we decided that we 
needed to not just go directly to the addict, but we felt we 
needed to go to mom, dad, husband, wife, brother, employer and 
get everybody involved. Certainly to echo what the first lady 
is saying, that's how it works. You really have to get 
everybody involved, because a lot of times the addict is gone. 
He or she may want to get off it, but he or she doesn't.
    But then what we did with--got a timer over there telling 
me I'm talking too long.
    The other thing we did is TV commercials with these folks, 
and we were able to negotiate $100,000 worth of free cable 
advertising on MTV and all these channels through Bresnan 
Communications that were aired after midnight, because the same 
law enforcement people told us that whenever they had a raid, 
MTV was on and it was 2 a.m.
    We did direct a message to the addicts, too. I'll talk a 
little more about that later.
    Thank you, Senator.
    Senator Enzi. Thank you.
    [The prepared statement of Mr. Sniffin follows:]
    Prepared Statement of Bill Sniffin, CEO, Wyoming Inc, Lander, WY
    The curse of Methamphetamine addiction is something that I am very 
familiar with, from at least three different directions over the past 7 
years.

    <bullet>  Our son has been in and out of trouble during that time 
for a variety of substance abuse violations, including abuse of Meth.
    <bullet> As a journalist, I wrote about the problems of Meth and 
other substance abuse issues during a 36-year career in Wyoming.
    <bullet> As owner of a PR and Marketing firm called Wyoming, Inc, 
our company has had the Social Marketing contract with the Department 
of Health, Substance Abuse Division for the past 3 years.
    With the above introduction, I can say that programs that raise 
awareness of the problem are critical to the success of any effort.
    When we started with our first contract in 2003, the people of 
Wyoming were still pretty much in the dark about the perils of Meth, 
although a large population of State residents were already 
experimenting with the drug.
    Our first campaign involved real Wyoming people who were in 
treatment in Rock Springs.
    With the theme WYOMING FACES METH, our task was to tell every man, 
woman and child in the State about the perils of Meth. Our plan was 
that by informing parents, siblings, employers, policymakers and all 
citizens, we would create an environment where Meth use would be 
universally known as a bad thing and something to be avoided.
    Our main tool in this campaign was distribution of nearly 300,000 
newspaper inserts plus the airing of thousands of TV commercials on 
both broadcast TV and cable TV.
    We also launched a gigantic Public Relations and Earned Media 
campaign utilizing every media outlet in the State.
    As for the campaign directed to the addict on a personal level, we 
were able to work with Bresnan Cable as they donated more than $100,000 
in advertising space on their late night channels like MTV, which law 
enforcement people had told us were usually being watched by addicts.
    One of the most important aspects of our campaign was a branding. 
After working with focus groups and a great many Wyoming people already 
in treatment, we came up with the branding of ``I AM FREE OF METH, I AM 
TRUE TO MYSELF?''--or free and true. We created a nationally recognized 
web site called freeandtrue.com.
    In 2005, we launched a new statewide campaign that focused more on 
the message that treatment works. It utilized newspaper and radio and 
billboards.
    Meth affects everyone. Without a big-time awareness effort, it is 
impossible to deal with the problem. Our efforts worked very well and 
were rewarded with lots of national recognition including 14 Telly 
awards for our TV commercials and resulted in me giving a presentation 
at the 2004 CADCA conference in Washington, DC.
    Meth is too big a problem. As a County Sheriff told me back in 
2003, ``We cannot do it alone. We cannot arrest our way out of this 
Meth epidemic.'' By getting everyone involved through awareness, we 
have a much better chance to dealing with this serious problem.

    Senator Enzi. Dr. Fagnant.

    STATEMENT OF ROBERT J. FAGNANT, M.D., FACOG, FACS, ROCK 
                          SPRINGS, WY

    Dr. Fagnant. Thank you, Senator Enzi.
    As an initial aside or my aside first is, I had recently 
served on the American College of Obstetricians and 
Gynecologists Adolescent Health Committee and we consider 
SAMHSA a very good resource. So, appreciate the information 
they provide.
    In 2005, several methamphetamine addicts delivered at 
Memorial Hospital of Sweetwater County in Rock Springs. We 
delivered 565 babies last year. When we delivered those 
addicts, we attempted to get help, assistance for them and 
found it very, very difficult, and very little was able to be 
done despite reporting to law enforcement and DFS.
    Because of that difficulty and the frustration of those 
agencies as well, we were able to come together, and through a 
series of meetings a policy was able to be generated through 
Memorial Hospital of Sweetwater County.
    Since that time, in the year 2005, nine babies were 
identified, sent to DFS. Of that, all nine mothers remain in 
treatment and eight of those babies still remain in foster 
care.
    The sad thing about those numbers is those numbers are 
mostly from the very end of the year, because from the middle 
toward the end of the year is when we were trying to develop 
the policy to work.
    I would be willing to share that policy and how we came up 
with it and the frustrations we experienced as far as all the 
roadblocks seem to be in the way of trying to get health care 
to the meth addicted mothers. Part of that resulted in a bill 
that never made it through the legislature for methamphetamine 
to protect the unborn child.
    Thank you.
    Senator Enzi. Thank you.
    [The prepared statement of Dr. Fagnant follows:]

                 Robert J. Fagnant, MD, FACOG FACS,
                                          Rock Springs, WY,
                                                    March 21, 2006.
Hon. Michael B. Enzi,
Chairman,
U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
Washington, D.C. 20510.

    Dear Senator Enzi and Committee on Health, Education, Labor and 
Pensions: Thank you for inviting me to present my comments at the 
roundtable discussion on methamphetamine use in rural areas, which is 
taking place on March 23, 2006 in Casper, Wyoming.
    Having been born, raised, and educated through college in Wyoming, 
I had seen little abuse of drugs other than alcohol. During my medical 
training, I had exposure to many people with numerous addictions and 
dependencies to a multitude of drugs. Methamphetamine, or one of its 
close relatives, was around and was abused but was considered by both 
the medical community and the drug abusers we came in contact with as 
minimal if even a problem at all. In the 18 years of practicing 
obstetrics and gynecology in Rock Springs, Wyoming I have witnessed a 
growing problem among my patients and their families regarding 
methamphetamine. I have witnessed patients and even a hospital employee 
change their entire personalities as they became more dependent on 
methamphetamine.
    In Wyoming several attempts have been made over the last several 
years to protect the children of the women who abuse the drug, as well 
as to treat the women during and after pregnancy to get them off meth. 
Despite these attempts legally, legislatively, medically, and socially 
little has seemed to make an impact on the problem.
    In January 2005 several methamphetamine addicts delivered babies at 
Memorial Hospital of Sweetwater County. Several agencies decided to 
come together and try to deal with the problem. Groups of people have 
done similar things throughout the State of Wyoming. After multiple 
meetings a policy was developed to manage methamphetamine positive 
pregnant women. The statistics aren't formal but around 11 women tested 
positive for methamphetamine while in labor during 2005. Of the 11, 7 
babies tested positive. The women were referred to the Department of 
Social Services, which placed the babies in foster care. Most of those 
babies remain in foster care. The numbers are not complete as most of 
the women who tested positive were identified at the beginning of the 
year when an effort was made by the health care providers to identify 
the problem. The testing decreased for most of the rest of the first 
half of the year, as there was much controversy over who could be 
tested and what should be done if the testing was positive. Toward the 
end of the year the policy came in effect and more reporting resulted.
    The purpose of the policy is to offer mothers who abuse 
methamphetamine and other substances a drug treatment program, and to 
protect the newborn from a substance-abusing environment. Risk factors 
as published by prior studies were identified. In women who had any of 
the risk factors, urine for toxicology was obtained upon order of the 
physician. If the test was positive, a urine and stool test for 
toxicology was obtained from the newborn. A 48-hour legal hold would be 
anticipated while the hospital social worker or child protective 
services were consulted. The results are reported to the Rock Springs 
Police Department where a search warrant is obtained and a stool 
specimen from the newborn is taken for forensic testing.
    In my practice, I ask the high-risk women if we can do serial urine 
screens for drugs of abuse. None of my patients have refused. There 
does not seem to be avoidance of prenatal visits for these high-risk 
patients more than in similar women who are not asked. The women still 
deliver at the hospital.
    Many questions remain. A bill failed at the recent Wyoming 
legislative session that would have clarified the abuse of the unborn 
child. District Attorney's offices across the State take different 
stances on whom to prosecute. There is concern if there will be enough 
foster homes for the children. It is unknown how long a mother will 
need to be in treatment before the baby can be taken care of by the 
addict.
    Although many ``birth defects'' and pregnancy complications have 
been attributed to using methamphetamine there is very little good data 
that can directly link these abnormalities. Those who work with meth 
addicted mothers however can easily see the social and physical impact 
that occurs to the child even immediately after taken home by the 
mother. No matter how well meaning the mom is she is just unable to 
care for her newborn.
            Respectfully,
                                 Robert J. Fagnant, MD, FACOG FACS.
                                 ______
                                 

    Senator Enzi. Ms. Martin.

           STATEMENT OF SHERRY MARTIN, DIRECTOR-CEO, 
                  FAMILY WHOLENESS, CASPER, WY

    Ms. Martin. Senator, I am honored to be here, and I am 
really grateful to be able to be here on a different 
perspective of being able to speak from my heart.
    I appreciate, Michelle, the ability to do that in DC. when 
I was there a month ago to begin this process. I'm really 
grateful to hear on this panel--I'm very new to it--Mrs. 
Freudenthal's comments on the community, and Mr. Sniffin, just 
your ability to go specifically to the addicts themselves.
    I come from a very personal level in experiencing this all 
the way from my home, all the way on the streets, here in many 
different avenues. I believe what my role is today is to speak 
from the heart of those that we're working with, with 
testimonies all the way from DC., to the State level, to the 
local level.
    What I would have to say is that I feel very fortunate to 
be able to work with people hands on.
    Family Wholeness is an organization that has just recently 
developed out of Access to Recovery. Access to Recovery and 
what we provide is recovery support services. We realize from a 
personal level in our own homes to a community level. I think 
it's very interesting that I was on the first committee with 
the meth awareness committee here in Casper, and one of the 
first things that came out of that meeting was that it's a 
community problem, and so the awareness that it is community 
that needs to hold hands together and work with this, and yet 
there is an aspect of it that we understand on a personal 
level. Treatment is very important, and yet this other aspect 
of recovery support services--we're very thankful for SAMHSA, 
SAMHSA through the faith initiative to be able to provide 
recovery support services.
    I believe what we do at that level is at a root level, 
being able to go--and you're talking about some of the kids to 
the families. I get to go in homes on a day-to-day basis and 
work with families and to be able to listen to them and what is 
really going on.
    I believe that recovery support services locks hands with 
the treatment. Treatment is somewhat like a hospital setting. 
Yet recovery support services is almost like the emergency room 
before, during, and after, in that, when there is treatment 
provided for these people, that's for a certain length of time, 
and yet recovery support services comes before, comes in the 
middle and comes after to work with the kids, to work with the 
family.
    I feel extremely fortunate to be able to do that, because I 
get to hear at a root, root level what's going on in the home, 
what these kids, what these mothers, what these fathers are 
saying. I come from a perspective of being a mom, being a 
friend, being a neighbor, a very personal level.
    I want to share with you something that recently happened 
to me in DC. with an opportunity to walk back from visiting 
with Michelle very late in the evening, felt really led to walk 
up a street that didn't look too safe to me on my own as a 
woman.
    In walking up the street, I ran into a homeless man who was 
a serious meth user. I sat down and talked with him, took him 
into a McDonald's and just began to talk to him.
    I come from a faith-based perspective, felt like that's 
what the Lord was leading me to do.
    When I sat down with him and talked with him, what I first 
heard was develop a relationship with him. I will tell you this 
is the No. 1 thing I would stress in this, that from the kids 
to the parents, what they're saying is relationship, all the 
way to, what is the best form of detoxing; that I hear, yes, we 
all know that we have to abstain from it, yes, we know we need 
treatment, we need help, but the other aspect of detox is 
relationships. That's what I'm hearing across the board.
    As I sat with this homeless man in DC. who was a meth user, 
I watched as we developed a relationship, his willingness to 
share his troubles, his problems, all the way to visiting with 
a young girl the other day who said--and it was very difficult 
for me to sit with her and say, ``What's on your mind? What's 
going on? And what's helpful for you?''
    The No. 1 thing I'm hearing from kids that are dealing with 
this--and we know there are problems in their home--is, no one 
cares, no one cares. I said, ``How do we battle that? How do we 
combat that no one cares?''
    She pointed to me. She went like this, and she said, 
``This, relationship, relationship. Hear what I'm saying. It's 
relationship.''
    As I began to talk with her a little bit more, it's how can 
we help? It's this one on one, sitting down in a relationship. 
I believe that's what recovery support services provides; that 
it becomes that emergency room for those people. It's not so 
much focusing on the problem as it is sitting down with people 
and encouraging them in the things that they are gifted in.
    When I talked to the gentleman in DC., his response was--
and I got to tell you. He began to talk and make sense as we 
developed a relationship even though he, I believe at the 
current time, was using meth. He said to me, ``There is not any 
one of us homeless on the streets that are not hard workers, 
that realize what we have done is wrong, that realize we have 
to have consequences. We have lost our licenses. We can't do 
that.''
    I said, ``What are some of the things that we can do to 
help?'' because I'm experiencing this in Access to Recovery. We 
provide transportation for those people who have lost their 
licenses, who realize they need help.
    But here is a man saying, ``Let me tell you why we're not 
going into shelters. We know they provide food. We know they 
provide clothing. We know they provide even programs that will 
help us get past the issues that we're dealing with. But when 
we go in, then they say, `If you do this this way, you can have 
the food. If you do this this way, you can have the clothing. 
If you do this this way, you can have the shelter. Otherwise, 
you're out the door.' ''
    What they are seeking is relationships, is help along the 
way, understanding that they do need treatment. How I see 
recovery support services, and what I do is linking hands not 
only with treatment but with community service providers, and 
we're doing that with churches, with families, with businesses 
all the way across the board.
    Thank you.
    Senator Enzi. Thank you.
    Dr. Christensen.

           STATEMENT OF DR. GRANT CHRISTENSEN, DDS, 
                        ROCK SPRINGS, WY

    Dr. Christensen. By the way, besides being a practicing 
pediatric dentist in Rock Springs, I'm also the staff dentist 
for the Wyoming Department of Health. About 2 years ago, I got 
a call from Dr. Debra Fleming, who was then director of the 
health department, asking me to supply her with information 
about the effects of methamphetamine on teeth. I had had some 
experience with that as a pediatric dentist, not seeing a lot 
of methamphetamine dental abuse, but did some research at that 
point and became involved with trying to become very familiar 
with what's called meth mouth.
    When I got the invitation to participate in this 
roundtable, I looked at the two questions and didn't feel like 
I had a whole lot to contribute to either one of those subjects 
as a dentist who understands and treats meth mouth, but I 
thought I must have been asked here for some reason, so I am 
going to tell you about meth mouth.
    Senator Enzi. Good.
    Dr. Christensen. I'm also going to tell Dr. Rawson, don't 
worry too much about not being here in the summer. It looks 
about like this. I can't imagine why anybody would rather go to 
Cairo than Casper, but----
    I'm seeing, even in a pediatric practice, I'm seeing two to 
three cases of meth mouth a month, and I talked to some of my 
other colleagues and they are having about the same experience, 
which tells me that there are a lot of young people who have 
been doing meth long enough that it's caused damage to their 
teeth.
    I will tell you that meth mouth is the Nagasaki and 
Hiroshima of dental disease. It is disastrous, and it is 
complete when it's in full bloom and it is extremely expensive 
to rehabilitate.
    I had a 19-year-old in my office, almost 20-year-old, who 
was in treatment who--his teeth were just little black nubs. 
That's all that was left. The substance abuse center in Rock 
Springs, the Rose Recovery Center, had sent him down to have a 
tooth extracted because he was in so much pain, and at that 
time we had a discussion about what his future dental needs 
were going to be.
    He asked me, you know, ``I'm going to complete recovery and 
I am going to get my life all straightened out. What am I going 
to do about my teeth?''--a good-looking kid with little black 
stubs where teeth used to be.
    I said, ``Well, you know, we have limited options. If any 
of your teeth are restorable, they're going to have to have 
permanent crowns.''
    ``How much that cost?''
    ``Oh, $600, $700 a piece.''
    ``Well, what if I just have all my teeth extracted and have 
dentures?''--a 19-year-old.
    I said, ``Well, that's option No. 2, and it's certainly the 
least expensive, but it's going to cost you $4,000 to $5,000 to 
have all of your teeth extracted and have dentures, which 
you'll have the rest of your life.''
    Well, here is a young man, without a job, without 
insurance, soon to be off of Medicaid and looking at the cheap 
option of $5,000 for rehabilitation of his mouth to over 
$30,000 if he has caps and root canals and all the other 
things, if his teeth were restorable. In his case, they 
probably weren't.
    Well, what that means, then, is that when you're talking 
about recovery support services and workforce issues and that 
sort of thing, we may have a lot of young people who are 
recovered or recovering addicts without any teeth or with teeth 
that look like the picture that I included in the little 
handout that I gave you.
    That's a mild case right there. I didn't want to make 
everybody sick so soon after dinner, because I have got some 
that look a lot worse than that. This is a problem that, you 
know, when you talk about all of the things that other people 
around the table have talked about, may pale in comparison, but 
when it comes down to your life and your future and you're a 
young person who is trying to get his life back together, this 
can be a staggering hurdle to overcome.
    I thank you for inviting a dentist here today. I feel a 
little overwhelmed by the expertise that's sitting around the 
table, but hope that maybe as we look at treatment modalities 
and treatment problems and outcomes, that you don't forget some 
of the devastation that's done by this to mouths.
    Dental researchers call this the perfect storm of dental 
pathophysiology. All of the worst elements of dental disease 
come together in methamphetamine use.
    Xerostomia of the dry mouth is the perfect environment for 
the development of dental caries, dental decay. Add that to a 
craving for sugar.
    Mountain Dew I'm told is the drink of choice, and Mountain 
Dew has 19 teaspoons of sugar in a 16-ounce bottle, and these 
people bathe their mouths continually with that stuff because 
their mouth is dry and they have a craving for sugar.
    Add to that the direct effect of one of the most insidious 
and acidic chemicals that a person could bathe their teeth 
with. Folks who smoke or snort methamphetamines coat their 
teeth with this acid that contributes to those other things, 
and then these people never go to the dentist because they 
don't have any money. They are spending it on the drugs. 
They're afraid that their dentist is going to turn them in. 
They wait until they're in dire consequence--dire need before 
they show up at a dentist's office.
    Thank you so much for letting me come and make that 
contribution. I wish I had the answer. I'd like to take a 
poster of some of those mouths and hang them up in every junior 
high school in the State so the kids can see them. That might 
make it a little bit more personal for them.
    Senator Enzi. I think that Bill Sniffin would probably be 
the one to help you do that, too. We'll want to hear some more 
about that a little bit later.
    When you say 18 teaspoons of sugar in there, I prefer that 
you say 18 teaspoons of corn syrup. It helps out our sugar 
producers. No. I appreciate that.
    Majority Leader Frist has spoken on the Senate floor about 
the meth mouth problem and helped to make an emphasis on that. 
That's why we definitely wanted to have you as part of the 
panel to share some of those pictures with us.
    Dr. Christensen. Thank you.
    Senator Enzi. I think that is one of the good deterrents 
out there.
    I know some of you may want to comment on some of the 
things that other people have said, but in order to move on 
with the hearing, if you'd put any additional comments that you 
might have in writing on that, we'll move on to the second 
question.
    That one would be, how have you coordinated your efforts to 
address meth use and abuse with other public, private entities 
to improve the outcome? I want to know a little bit more about 
the coordination that's being done.
    Who would like to start on that?
    Mr. Pagel.
    Mr. Pagel. Senator, thank you.
    I think one of the successes that we have seen in Casper is 
exactly that. It's a community effort and a collaboration. We 
have not only municipal and county government with assistance 
from the State, but our business community, our chamber of 
commerce, our schools, our hospitals have all joined into this 
effort, and that's what it's going to take.
    I can tell you that you cannot develop at the Federal level 
a cookie cutter program that you can put out across the country 
that's going to solve everybody's problems. It is not going to 
work. But one of the things that you can do is communities can 
be required to come up with this collaboration, to have these 
community groups, to come up with a list of their resources and 
their specific problems so that when they are asking for grant 
money, they can ask for a specific problem and a specific 
solution that they are after.
    That is important, that it is not a shotgun approach but it 
is an assessment, evaluation of each individual community, each 
individual State and what they need to be successful, and that 
specific request, then, is what is going to allow them to be 
important.
    Everybody's resources are different. Worland is going to 
approach this differently than Casper does or Cheyenne or Big 
Horn or whomever you talk to.
    That is important, that each community do an assessment and 
evaluation and have specific requests.
    Another point that I would like to make is, we have heard 
several people around the table tell how long they have been 
dealing with methamphetamine. Our response is too slow.
    I'm not a researcher. Dr. Rawson, I'm sure, does an 
excellent job on that, and there is a place for that to be 
done, but we are in a situation that demands action with 
methamphetamine. Every day that we wait and every day that we 
discuss, there is more of it coming into the country, and it's 
coming in primarily from Mexico.
    We can worry about meth labs, and they're a terrible 
problem, but we're absolutely being hammered by Mexican meth. 
That's where the vast majority of it is, 70 to 95 percent, 
depending on who you talk to. I tend to lean toward the highest 
figure. The majority of our meth is coming in from Mexico, and 
that has to be addressed at a Federal level.
    A final point that I would like to make is, one effort that 
communities can make is in drug testing. You can stand up as a 
community and you can say, if you want to work in Casper, 
Wyoming, you are going to be drug free.
    We have over 160 businesses that have stepped up to the 
plate and have begun drug testing in Casper, and we are sending 
that message. We have accounting offices. We have professional 
offices. The energy industry has taken a lead on this, has done 
it for years, is doing an excellent job.
    We have individuals that run Burger King franchises here in 
Casper. You're talking basically minimum wage employees. They 
can show you that it is cost effective and saving them money to 
drug test at an entry level worker.
    That is something that each community has to stand up and 
have the courage to say, if you are going to live here, if 
you're going to work here, you will be drug free.
    The ironic point of that is, we have interpretations of law 
at the Federal level that protects governmental employees from 
drug testing. This is absolutely ludicrous. We are saying that 
they are a protected class of individuals and that this is a 
warrantless search.
    I don't know who came up with that interpretation, but 
somebody ought to slap him. As governmental employees, we 
should be taking the lead in drug testing and we should be the 
example. To hide behind a law or an interpretation of the law 
is absolutely a crime.
    Thank you.
    Senator Enzi. Dr. Clark.
    Dr. Clark. Senator, I think it is important for 
collaboration to occur, and at Substance Abuse and Mental 
Health Services Administration we are collaborating with, as I 
mentioned before, the Department of Justice, the Drug 
Enforcement Administration, National Institutes of Health, the 
National Association of States on Alcohol and Drugs directors. 
We're collaborating with State conferences. I would be remiss 
if I didn't mention that on April 6th and 7th, SAMHSA is 
sponsoring a conference on methamphetamine in Los Angeles for 
all States west of the Mississippi River. We're paying for each 
State to bring up to 15 individuals including State officials 
and providers. The States on the east side of the Mississippi 
will have their conference in Orlando the week of May 23rd.
    We are working with the National Institutes of Health to 
get information out as that information matures for 
dissemination to community providers for facilitating that.
    With our Access to Recovery program, we are making sure 
that we involve community organizations, nontraditional 
providers, and, as Ms. Martin stressed, focusing on recovery of 
support services so that the recovery support services strategy 
involves nontraditional providers in the community so you get 
employment services, transportation, literacy, spiritual 
health, housing, coaching, etc. It's been a very successful 
program with very little fraud and abuse and active involvement 
of the community. It is a revolutionary program in the sense 
that we're using vouchers and empowering individuals to make 
choices, and that was another point that was being made, 
because if we don't involve the individual who is using in the 
process, then we don't stop the process, and where prevention 
is very, very important, when prevention fails, we have to 
empower individuals to get treated.
    Workplace drug testing is another effort that we support at 
SAMHSA. If we can create this full continuum from public safety 
to public health involving communities, whether they're tribal 
communities, urban communities, rural communities, involving 
communities, then we can reduce the demand for the drug, at 
which point we achieve success.
    Thank you.
    Senator Enzi. Thank you.
    Dr. Rawson.
    Mr. Rawson. Senator, in some of the communities we visited, 
the idea of getting community partnerships together have 
clearly been the example of the communities that have started 
to make progress.
    In California, San Diego is one of the--because they have 
had a problem for 25 years, they've really done some very 
remarkable things, and we have seen some very specifically good 
outcomes there.
    Particularly linking treatment and prevention with some of 
the activities where they have been able to take people who 
have had problems and use them in some of the messaging for 
prevention has been particularly helpful. But I want to talk 
about one specific partnership that we have seen that we think 
is extremely important, and that has to do with the issue of 
drug courts.
    In our large SAMHSA study that we did, we had one site that 
was a drug--where all the patients were in drug court. That 
site had the best, by far, treatment outcome of all the other 
sites.
    Part of that is because meth users need to be continued in 
treatment for a substantial period of time. This is not a 30-
day fix. They need to be treated over a long period of time, 
and drug courts and the consequences of drug courts are exactly 
designed the way you would want treatment to be designed for 
meth users.
    I think drug courts are an extremely important innovation, 
and I think that for meth users, drug courts really bring 
together the best partnership between the criminal justice 
system and the treatment system in an optimal way.
    Thank you.
    Senator Enzi. Thank you.
    Ms. Searcy.
    Ms. Searcy. One of the things that was brought up is having 
a comprehensive community strategy developed, and I can't 
reiterate the importance of that. This also needs to be done on 
a national level as well.
    Some of the guidelines that local and State groups need to 
know about what actually works could really benefit communities 
as they develop these strategies, and some of those issues fall 
in with protection of unborn children, treatment services, drug 
courts.
    One of the things that is part of these successful 
strategies is the multiagency efforts together, so combining 
medical and law enforcement, child protection services. 
Oftentimes what we see when that doesn't happen is law 
enforcement will be going for a Federal jail term or prison 
term for someone while child protection services with the child 
is trying to preserve the family and reunify them and 
treatment's off the hook. What happens is we waste our money 
there, where if we all come together, we know what's happening 
and what our goal is for this family or for this individual, 
that we can have money savings and kind of streamline that 
process for people to get them rehabilitated.
    Community mobilization, I'm talking about with not only 
clergy, which is very, very important, private businesses, the 
dental community, insurances--I already stated that--and other 
people that we wouldn't normally think. We need to bring them 
on board to help with their solutions, to come to the solution. 
Schools is another area. Another area would be some of your 
drug companies. They need to be part of the solution as well as 
they're being a part of the precursor issue.
    Public awareness and prevention has already come up, but 
what we need to do is not just take something and slap it on 
our community but really do a needs analysis and find out 
really where that need is and be really strategic in how we 
spend our money on this.
    Treatment.--Not only do we need to increase the foundation 
funding that I talked about, but we really need to think about 
family treatment programs. Salt Lake City just started their 
first father-and-child treatment program. That kicked off this 
month.
    Drug court.--Dr. Rawson talked about that. Our drug court 
that we find is very successful actually runs 18 months and the 
judge sees those individuals. Every 2 weeks, very powerful. 
Very good outcomes coming out of that. It brings judicial and 
treatment together. Again, you know, look back at the 
interagency collaborations with that.
    Law enforcement resources.--They continue to need 
equipment, training for this issue, and investigations is 
really important. Senator Hatch has done a lot of work off of 
your committee to that end.
    Precursor controls, we love the Meth Combat Act in Utah. 
All the States around us have precursor controls and we didn't. 
We knew what was going to happen this year. International 
controls, not only interdiction but also controls of 
precursors. We need to think about that.
    I'm out of time, so one other thing that Utah has done, is 
doing right now, is we had local initiatives started. Rural 
communities are really able to get moving in the right 
direction quicker than urban areas. We witnessed that in Utah. 
Governor Huntsman just kicked off in 2006 his meth task force. 
We're really going to look at drug offenders reformat in Utah 
and try to get some treatment initiatives going, increase our 
public awareness and prevention strategies.
    Senator Enzi. Thank you.
    Sergeant Hamilton.
    Mr. Hamilton. All the Campbell County sheriff 's officers 
used our methamphetamine awareness programs and the department 
itself has coordinated a step. In the areas of prevention, we 
have three full-time officers working DARE and a school 
resource. Also our methamphetamine awareness lectures 
coordinate with the tobacco use coalition and the underage 
drinking coalitions in Campbell County.
    My wife, Diane, and I are a member of the coalition 
promoting a drug-free community. For a short period of time, 
there were conversations that we had maybe too many coalitions 
in Campbell County, but I disagree. Those coalitions are like 
individual voices, and people that have specific interests will 
have a coalition that they will get behind that might avoid it 
if there were fewer or more combined coalitions.
    Sharing the meth problem with as many people as we possibly 
can is our greatest effort of coordination. We have--Corporal 
Reynolds and I have talked to more than 2,000 people and given 
more than 50 of these lectures to schoolteachers, dental 
offices, hospitals, individual groups such as churches, family 
groups and shared throughout the five-county area, though in 
sharing we are actually learning more than I think we share. We 
learn more about each individual group's concerns and how they 
can best help and some of their limitations.
    I want to say that Chief Pagel hit two things directly on 
the head that I wanted to speak to, and that was, I believe, 
the Federal Government, in issuing any grant moneys, they 
should be based on a community-based plan to deal with this, 
some community center to collect this information from these 
coalitions, collect the information that deals with prevention 
or treatment or enforcement and provide a plan before receiving 
grant money.
    The other thing that Chief Pagel said that I fully agree 
with is, if he wants to slap the person, I'll be glad to kick 
the person who has protected Government employees from having 
to face drug testing. I think drug testing is important, though 
I know it's, to some degree, easy to circumvent, and last week, 
not for the first time, we served a methamphetamine-related 
search warrant, this time on a drug-endangered child case, and 
removed urine from the refrigerator where it had been collected 
by this particular defendant from her children so that she 
could pass these drug tests.
    In Wyoming, drug endangered child law is a felony. I find, 
as I said before, whether it's a felony or misdemeanor is moot. 
The way our philosophy from the Campbell County Sheriff 's 
Office is these parents need to face treatment, they need to 
face control by the Department of Family Services. We need to 
get the families back together, but the family has to be a safe 
unit and not one that places the children in an environment 
that they are not just endangered from the drug but endangered 
from the entire philosophy of the adults that use that drug.
    I see this as an incredibly dangerous problem. As I said 
before, I think it's a problem that enforcement is not just law 
enforcement. I understand the statement that we cannot enforce 
our way out of this, though I believe maybe that statement 
would be more accurate if it was stated we cannot incarcerate 
our way out of this.
    Placing people in incarceration provides nothing, but a 
broad enforcement, not just law enforcement, enforcement by 
individuals, whether you're a parent or a teacher or in any 
form, can help enforce and get people into treatment is 
eventually the answer, if the treatment is available.
    Thank you.
    Senator Enzi. Thank you.
    Mr. DeLozier.
    Mr. DeLozier. Thank you, Senator.
    Most of the things that's been discussed an awful lot, 
obviously, today is the treatment aspect, and from the 
standpoint of collaboration with our community, the community 
that works together on this problem, like this every agency you 
can think of is involved in this methamphetamine problem.
    I think Chief Pagel would agree, there is a couple we would 
like to get involved in and are working hard to do so.
    We have got to have adequate treatment on the back end of 
this when we get kids into custody. In Natrona County, we took 
in almost 90 kids in 2005 into protect--excuse me--into custody 
because of methamphetamine, and that was probably 70 percent of 
our entire placement case load. If meth never existed, 90 
children would never be in a system of foster care. I think we 
have to recognize, then, and we're starting to realize that 
adequate treatment for moms especially is one of those elements 
that's going to get kids home sooner, and proposals that are 
being discussed now within our agency and within the community, 
meth initiative includes things like treatment facilities where 
moms can take their kids with them. Those kids can be placed as 
long as it takes to be in there with them in a monitored and 
supervised environment so those attachments are not lost, and, 
in fact, in many of these cases, those attachments don't exist, 
especially with very young children or infants.
    The goal of building those attachments, keeping those kids 
from having to enter the foster care system, all of those 
things involved in that process are very necessary when it 
comes to the treatment aspect, and we have seen in much of our 
case work with these meth cases that the more contact the 
mother has with the child, the more treatment she receives and 
the greater her ability to focus on things over--that child 
goes home sooner, or children, depending on the numbers, and 
that's a real significant issue, I think.
    I think we have got a lot of programs within Casper that 
work really good on the front end and toward the middle, and I 
think one of our focuses need to be on the back end of that 
treatment aspect. One of the programs that I'm particularly 
pleased with is the Natrona County Child Advocacy Project, and 
we're a member of that, and it's an organization that focuses 
on interviews of--forensic interviewing of children who have 
been alleged to have had sexual abuse, major physical injuries, 
those kinds of things. We have recently started a meth protocol 
there whereby every child who comes into DFS custody because of 
meth will receive a forensic interview, a medical assessment, 
whether that be specific to the meth issue or well child check, 
and a developmental assessment or mental health assessment, 
whichever is determined appropriate based on the age of the 
child. I think it's programs like that that are going to 
provide us the direction we need to move these treatment issues 
forward with moms especially. Some dads, obviously, that we get 
involved with, are looking toward treatment. The collaboration, 
I can't say enough about community collaboration.
    If all of the key groups in your community are not willing 
to come together to even discuss it, you might as well forget 
about dealing with the problem, and that's absolutely critical. 
Everybody has got to put their turf outside the door and make 
it happen. That's a very inexpensive thing to do in terms of 
focused efforts and moving things forward.
    Thank you.
    Senator Enzi. Thank you.
    Ms. Martin.
    Ms. Martin. I want to come from the perspective of our 
Access Recovery support service end of it more specifically 
into ATR, more specifically into the community, more 
specifically into being a faith-based organization.
    There is something that we say in faith, and it really 
comes out of scripture, it is that you're the arm, I'm the 
hand, you're the head, you're the toe. That's community coming 
together.
    When we were at the last Access Recovery meeting in 
Washington, DC., another thing that we spoke about on a faith 
perspective was this is something the church has been doing for 
a really long time. We feel like the community--to utilize 
those aspects of the faith community, faith--or social services 
actually sprung up out of the faith community.
    Then it becomes that aspect of, can we use those resources, 
when Mr. Pagel discusses, you know, we can't wait for this, we 
can't wait for that, to use those recovery support services at 
the emergency level.
    One of the things Dr. Rawson discussed was drug courts. 
Again, understanding what a drug court is, it's a team effort 
where you have the judges, where you have POs and you have 
therapists and so on.
    In recovery support services, the referrals that we get--it 
is definitely a prevention aspect--in that referrals that come 
to recovery support services is not just through the courts. 
It's through parents; it's through school administrations; it's 
through other providers. It's actually through pastors now, 
because some of these kids, some of these mothers and fathers 
were going to the pastors. They become a referral point into 
this, so that until they get treatment, we can be working with 
them until they can get into treatment. When they get into 
treatment, we can be working with them afterwards to 
reintegrate them back into the home.
    One of the visions that we have and I believe that what I 
am going to read you is our mission statement for Family 
Wholeness. I believe this is something that we are establishing 
here on a local level, an organization that--and I believe that 
I speak for the different organizations in Access to Recovery.
    We are currently establishing a faith coalition here. You 
were talking about the different coalitions in your community. 
We also believe that this is one voice in our community 
collaborating with many other voices in that while we're here, 
we're establishing a State coalition. While I was in DC. about 
a month ago, there was a national alliance established. What I 
thought was really--I mean, it was just incredible to see this 
national faith-based alliance for recovery support services 
come together with CADCA who is a treatment coalition across 
our Nation. What came out of this meeting was just--I think it 
was history making in that you had treatment and recovery 
support services saying we're going to come together and 
develop a coalition.
    One of the things CADCA said, is there--we're hoping that 
there is a national faith-based organization for recovery 
support services. It was established the night before.
    These two are coming together, and that's huge that you 
have treatment and recovery support services coming together, 
because we believe we do represent the community.
    I read our Family Wholeness--and, like I said, I believe I 
represent something in many of the RSS services. Our mission 
statement is committed to come alongside one individual at a 
time to facilitate healing, restoration and wholeness within 
the family. Family Wholeness represents that aspect of it. 
Division is to have families recovered and healed in order to 
repair, rebuild and restore healthy communities, cities and 
nations. The values that we focus on are faith, love, 
acceptance, relationship and honesty.
    I believe those are foundational issues within the family 
that develop out of the community and the community coming in 
with the judicial system, with the police department, with 
treatments, but that we all come together.
    Senator Enzi. Thank you.
    Mr. Robinson, then the first lady, then Ms. Maki.
    Mr. Robinson.
    Mr. Robinson. Thank you, Senator.
    This has been really quite enlightening and powerful for me 
as you listen to all the details of what we're not up against, 
but what we're in the process of, and just the last testimony 
in terms of this, this is really a much larger picture of 
healing than most of us are aware, because oftentimes we get 
lost in the detail of what's right in front of us. I couldn't 
agree more strongly the need for comprehensive planning at the 
Federal level, at the State level, because there is--when I'm 
talking about comprehensive planning, it's not just the 
agencies as much as providing access, real, true access, and I 
believe Access to Recovery is the basic premise of premises of 
that is doing exactly that.
    It offers and opens up the arena, if you will. It opens up 
the continuum to the communities where 80 to 85 percent of 
recovery really has to happen, whether we're arresting them, 
charging them, treating them. We're only able to do a portion 
of what needs to be done, and the reality is these same folks, 
humans that are suffering through addiction have to step back 
into everyday life, and if we don't have those kinds of 
support, whether it's a full service continuum, holding hands 
with a recovering community, building a recovering environment, 
then we fall short.
    As I had indicated earlier, you know, we have been 
frustrated over and over and over again when we look at the 
research to show what segmented or truncated services are 
attempting.
    I think we're entering into an era where we're finally 
forgetting the turf, as was mentioned earlier, and we're 
starting to look at what is best for the individual. As soon as 
we do that, we start to look at the fact that everything is 
prevention. From the womb to the grave is a human condition 
that we have to pay attention to.
    When it comes to substances, even though I have been doing, 
``intervention and treatment'' for the last 26 years and most 
recently just getting a very voracious appetite for research in 
terms of what is working and what is not working, I couldn't 
agree more with the first lady that we have to expand our 
thinking to see it all as a part of prevention, intervention 
and long-term overall recovery for human beings.
    I had the opportunity to work with the State here back in 
2001--the courageous legislators--legislators that we have and 
Governors that we have to really stand right in the face of 
changing the norm with a lot of what's been going on in past 
years in terms of our approach to prevention, intervention and 
treatment.
    We were developing standards of care or revising these 
standards of care, and so they gathered a room like this of 
very well meaning, very bright, accomplished individuals to set 
out, what do we need to look at for a new set of standards of 
care, if you will, for prevention, intervention and treatment. 
Within the hour, you could just feel the frustration and the 
tension in the room, because what we were very methodically 
doing is building the same tire that we had built years before 
and before that and before that. It was basically a male 
institutional, fairly aggressive approach to treating addiction 
and trying to achieve recovery and, you know, that just being 
three or four elements of it.
    There was a lot of good going on, but there was that 
frustration in the room. Finally, Diane Galloway at the time 
who was the division administrator, said she looked across and 
there was one of our sisters, colleagues from Wind River 
country, Kelly. I'll say her first name. She was sitting there, 
and she works right in the trenches. And she said, ``Kelly, 
what's written on your face? It's frustration, obviously.''
    But she said, ``You know, I'm just tired of sitting here 
and listening to all of this.'' She said, ``If we really want 
to start thinking outside the box, maybe we need to consider 
throwing the box out completely and looking at the fact that if 
we were to develop a service system that treated women and 
children instead of the male institutional--nothing against 
medical, but primarily medical model--we would be so much 
better served, because not only would the children--the women 
and children finally get an emphasis on what their needs are, 
the men would be treated just fine as a result of that.''
    You could have had heard a pin drop in the room. After what 
I imagine was just a few seconds, the discussion started back 
to develop, an institutional male--dominant male punitive 
approach to this.
    I think with the testimony that we're getting around the 
table, we have got a phenomenal opportunity to really, I think, 
start not thinking outside the box but throwing the box out, 
because we have got models that are absolutely working in 
Wyoming, and it would be wonderful if we had the opportunity to 
share some of those models.
    Thank you.
    Senator Enzi. Thank you.
    First Lady Nancy Freudenthal.
    Ms. Freudenthal. Thank you.
    I was pleased to hear Mr. Robinson say he thought we were 
more successful putting turf outside the door.
    That's a huge challenge. One of the things that the First 
Lady's Initiative inadvertently really has been successful 
with, whether you're talking about State agencies or Federal 
agencies, they each have their bureaucratic turf and they also 
perhaps even more challenging have their natural partners. When 
you're dealing within that framework, I think it's important to 
look at these plans and challenge agencies on how they are 
going to share the responsibility for this issue and bring in 
not only their natural partners but partners that they're not 
so accustomed to working with.
    Through the First Lady's Initiative, and I say 
inadvertently, because I'm a volunteer and I suspect perhaps 
the one with the least amount of turf, because, other than the 
Governor's residence small budget, I don't have any money, I 
don't--I just know people with authority. But perhaps because 
of that, we were able to appeal to partners that, I think, if 
the initiative had been just under the Department of Health or 
just under the Department of DFS or just under the Department 
of Education, now, some of those partners would not be part of 
our success. I just think that that's part of the challenge 
with government--that they have built up these silos and up 
into the silo come their natural partners, and you have a whole 
framework of really good allies that end up either feeling 
excluded or just not comfortable working in that model.
    I mean, we have managed to partner with--our law 
enforcement partners have been the strongest and most 
consistent partnership. We have State agencies, including the 
Department of Transportation as partners. We have got liquor 
and beer distributors and retailers as our partner. I partnered 
with Anheuser-Busch and mailed out 16,000 letters to families 
just recently on talking to their kids about the challenge of 
drinking.
    I couldn't have done that by myself with no funding. We 
have partnered with military, judges, and business owners. The 
faith community has been a tremendous partner of Wyoming faith 
initiatives. The nonprofit sector, teachers and school 
administrators, local governmental officials, parents and 
students, again, to really try to change norms around the issue 
of childhood drinking, to change the thinking that it's just 
alcohol, it's not drugs, when we know that that's where too 
many of our children are heading.
    As you know, I'm still practicing law, and I was taking a 
deposition a while back. And this young lady, who, by the time 
of trial, was pregnant, she pretty much said, well, she started 
drinking very early, and on that particular night, they would 
have bought some meth but they just didn't have enough money.
    We know that that's the course or the ramp that our 
children are on if we're not paying attention to it and we just 
shrug off the issue of childhood drinking. But with the team 
members, we have managed to really empower local communities. 
We have had great discussions from where the beer tent is at 
the local fair, to why parents are hosting kids' drinking 
parties, to what the school policies are in our schools. We 
have published a lot of best practices. We have put ordinances 
out there for communities to consider.
    Because I'm not a State employee, I lobbied the legislature 
on changes and have worked with many others to have Wyoming 
pass the social hosting statute and keg registration statute, 
and I think the Governor just today signed the ignition 
interlock law.
    We're excited with SAMHSA's support to put on televised 
town hall meetings through Wyoming Public Television with--and 
we're going to be doing kind of a simulcast program all around 
the State on April 6th on the--and bringing in panels and 
encouraging community discussions about how they see their 
community, do they see a problem there and where do they see 
the direction that their children are going.
    I echo everybody's comments that partnership and inclusion 
is so very important, and I wish that I had the answer at every 
level of government to a model that brings in the broadest 
range of partners. But I do think, you know, as you look at 
these individual agencies, that it's not easy for them to 
collaborate, and I think that that's the key to this and 
collaborating clear down into our small rural communities. 
Using technology and being more creative is a huge challenge, 
but it's worth all of the effort and thought.
    Thank you.
    Senator Enzi. Thank you.
    Ms. Maki and then Mr. Sniffin.
    Ms. Maki. Senator, thank you.
    If I can maybe just encompass what we have been hearing and 
again and again, we all have come to this table with very much 
a similar message. One of these messages--I think this is a 
full court press type operation.
    Every one of us is extremely important to solving and 
coming against methamphetamine. One of those ways, one of these 
full court press measures is certainly prevention, and if I can 
back up with what the first lady mentioned about prevention and 
how it relates to methamphetamine.
    When we're talking about prevention of nicotine and 
alcohol, kids that reported that they had been habitual smokers 
also reported they were eight times more likely to also use 
methamphetamine, when we're talking about alcohol and nicotine, 
eight times, six times more likely to use methamphetamine. It 
plays right into this struggle that we're seeing.
    As far as treatment, at the substance abuse division, House 
bill 91 is part of our appropriations. What did we see come out 
of the legislature this year? One thing is they were going to 
continue funding the original number of beds that were set out 
last year as far as residential treatments. They were going to 
increase the reimbursable rates by 15 percent for treatment 
providers. They are going to increase social detox beds, 12 
beds across the State.
    I think many of us that are sitting in this room are 
thinking we're going to need more. One of my jobs as well as 
others around this table is to help get that message out to 
legislators. We need to continue to be able to do that.
    Backing up to prevention, when we--let me mention, too, 
that the prevention framework, those grants, those prevention 
grants, those are really important that these moneys continue 
to come into our State.
    Also, there currently, as far as I'm aware, are no 
research-based prevention modules specific to methamphetamine. 
But let me just put it on the table. Does it mean that we can't 
talk about that in our schools, meth-based prevention in our 
schools?
    And then communities, that's another thing that we have 
been hearing again and again today. Full court press means all 
the way from the Federal level through the State down into the 
communities, and one way that at least at the Federal level 
that I see could help out in your communities is, if I can say 
to a community initiative or whatnot that often contacts me or 
others here, can you apply for this grant? We have got drug-
free community type grants. There is at least one that I know 
of. If we can get more money to those communities, that also is 
through a process, a strategic process that these communities 
are building that we can then help fund them to help them get 
this off the ground.
    Thank you.
    Senator Enzi. Thank you.
    Mr. Sniffin and then Mr. Noseep.
    Mr. Sniffin. Thank you again, Senator. I won't talk quite 
so long this time.
    I guess if I were to say one thing, I don't think the 
public is passive on this issue, and I think there is a lot of 
work to do, but I think especially in rural America there is a 
willing public and a willing media. We have huge scrapbooks of 
the media that, in this State, that step forward and really 
has, so you just always include the media, because they want to 
write about this and they want to help in every way. That's a 
great way to get the message out. Again, it's not just 
advertising and it's not even PR. There is a thing called 
earned media and it's a whole concept that I think really works 
very well in covering a story of this magnitude.
    Thank you.
    Senator Enzi. Thank you.
    Mr. Noseep.
    Mr. Noseep. Thank you, Senator.
    I realize sometimes that the Wind River Reservation to 
outsiders is a mystery, and it's not. There are 13,000 
residents that reside within the boundaries of the reservation, 
and of those 13,000, there are a lot, a lot of good people, and 
we do the same things that everybody else does, and we have the 
same problems that everybody else does.
    Those people have realized that this poison has the 
potential or did have the--still does, the potential to wipe 
out two nations, two Shoshone and Arapaho Tribes. It has that 
potential to take them out, and they have realized it.
    In 2004, we had our first annual methamphetamine awareness 
conference. Not too many people showed up that first year. In 
May 2005, we had our drug bust, if you want to say. The next 
month, we had our second annual methamphetamine awareness 
conference, and then the people came out.
    I think it took some action to make people realize on the 
reservation that if they report people or if they want to help 
out law enforcement, that something is going to be done. It 
took that, I think, to get the ball rolling. Now we're having 
our third annual methamphetamine conference coming up in June, 
and also out of that is the Partners Against Methamphetamine. 
It's grass roots. Community people have gotten together, and 
I'm thankful for that being as, you know, law enforcement can't 
do it by ourselves. The people are starting to come out and 
pitch in their ideas of how to combat.
    For us, prevention, enforcement was kind of the first phase 
for us and prevention will be the second phase. We do gang 
resistance in the schools. We're kicking our gang resistance 
along with our methamphetamine awareness stuff even down to our 
2nd and 3rd graders. And so we're going to start 2nd and 3rd 
graders.
    As sad as that is, we have got to take it down young. We 
were in the 6th grade building, but the 6th and 7th graders we 
felt were well aware of what was going on.
    You get down to the 2nd and 3rd graders and they can retain 
this information and they know what's going on out there 
already.
    We want to get to those guys and also tribal elders. 
Elderly were mentioned before. For us, the Shoshone and Arapaho 
Tribes, the tribal elders are held in high regard. There is a 
high amount of tribal elders that have custody of their kids' 
kids, grandkids, nieces, nephews. They have a whole houseful, 
and to get the prevention out to the tribal elder society so 
both sides is going to be one of our priorities.
    We have had a lot of them. Last year's sun dance, I 
remember a couple of them coming up to me, just wanting to know 
what the basic paraphernalia looked like, what it was, what it 
looked like, and then them telling us, ``Oh, I had it in the 
house,'' or, ``I seen it last week.''
    To get to the tribal elders, I think, that was actually one 
of our priorities. At the conference you attended yesterday, I 
was talking to a father about his son who was on meth. It was 
funny saying that--I said, ``Man, your son was in jail for 30 
days.'' He was in on meth. He came in high on meth, and we were 
talking about it. After talking to him, I said, ``Man, your son 
looked good.'' I said, ``He was gaining weight. He got his 
color back, no black rings around his eyes.'' After I got to 
thinking about it, we do that all the time now. Now all of a 
sudden, gaining weight is actually a good form for us.
    I said, man, in this day and age of dieting and staying in 
good health, now a sign of weight gain is a good sign for law 
enforcement. We got to looking around. That's exactly what has 
happened to a couple of our guys. For us, sometimes jail on the 
reservation is the safest place for some of these guys. His son 
had actually thanked us for picking him up, and he dried out in 
30 days, but unfortunately had to go to Idaho to take care of a 
warrant. He's still up there.
    But all is not lost. We're in it for the long fight and so 
are the people of the Wind River Reservation.
    Thank you.
    Senator Enzi. Thank you.
    Doctor Christensen. Did you have----
    Dr. Christensen. Just an observation as a doctor citizen 
and not doctor dentist.
    There was a meth treatment center ballot initiative down in 
Sweetwater County last year. The voters down there had the 
wherewithal to build a meth treatment center, had they wanted 
to, but the initiative was defeated rather soundly. The word on 
the street, if you talk to people about why they did or didn't 
vote for the meth treatment center was that: It doesn't work 
anyway. They put these people in meth treatment. They get out 
and they start all over again. Why should we waste our money on 
that?
    I think that people who are involved with collaboratives 
and coalitions and all of the right things need to do better 
education about the success of meth treatment if they're going 
to convince folks to build meth treatment centers, support meth 
rehabilitation.
    Senator Enzi. Thank you very much. I want to thank all of 
the panelists for the time and the preparation and the travel 
and everything that had to go into this.
    It's been a tremendous education for me today. There are a 
lot of useable things. I've got pages of notes.
    Now, the down side: I have also got some additional 
questions. I'll be sending some of you additional questions, 
some things that I may not have understood or that I want more 
detail on so that we can make more extensive use of it.
    There may be other members of the committee that will want 
to ask questions, and I would ask that you respond on that as 
quickly as possible so that we can make it a part of the 
record.
    I do want to thank several people for helping to organize 
this. One of them is Denis O'Donovan. He works for both parties 
in organizing and setting up and making sure that equipment is 
in place, and if we vote, he calls the roll as well. He's been 
doing this for a number of years and is very expert. We're very 
fortunate to have him.
    From my staff, Michelle Dirst helped put this together.
    Want to raise your hand?
    The head of all of my health issues is Steven Northrup. 
Other people that I have with me here are Cherie Hilderbrand, 
who works in the office here in Casper. She is sitting in the 
back.
    If any of you in the audience have something that you want 
to contribute to this testimony, we would be happy to have it. 
You might drop it off at the office there or you can put it on 
the committee Web site.
    Robin Bailey I think is here. I know she was--yes. She is 
my State director. I have five offices across the State. She 
makes sure that all five are coordinated and she goes to 
Federal meetings in Wyoming when I can't be in Wyoming to go to 
them.
    DeAnna Bruski is here. She's from the Gillette office. I 
didn't mention Elly Pickett, too. Elly is my deputy press 
secretary.
    Mr. Sniffin mentioned the importance of media involvement. 
We want the word to get out to more people than are just in 
this room, and we do appreciate the media's help in doing that. 
It makes a real difference.
    I also want to thank Rodger McDaniel for being here today 
and sitting through the entire testimony. He's a tremendous 
resource for us, and his expertise is very much appreciated, 
and now he's got the background of the hearing as well.
    We'll look forward to some more information from you.
    I would mention when I was in Casper 2 weekends ago, when I 
got snowed in in Casper, I met a chef here in town who was a 
recovering meth addict, and he's been clean for 3 years and was 
pleased with that, and so was I. He's a part of this community 
effort of going around and talking to kids about what can 
happen to you. I really appreciate that.
    I also had some people come to my office. They had a little 
drug testing kit. We talked about drug testing a little bit, 
and I'm a huge advocate of drug testing. It was in a fancy 
little box, and it's called ``Not My Kid.'' This group meets 
with parents whose kids are in--I believe it's in 4th grade. 
They give the parents the drug testing kit and also little 
talking points that they can talk to their kids about drugs, 
but they don't test the kid. The purpose of that little test 
kit is to go on top of the refrigerator where the kid can see 
it all the time and when he's out with his peers and they're 
putting pressure on him to use some kind of drugs, they say, 
``Whoa. No. My folks have a drug testing kit. I could be 
subjected to that. I can't do this.'' And evidently it's 
working.
    We like all of those ideas. I appreciate Senator Hatch and 
his work in Utah and also on the committee. He's a former 
chairman of this committee. But we have a lot of great people 
on the committee, both sides of the aisle, who are definitely 
interested in this and getting the SAMHSA reauthorization done 
and a number of other bills.
    Thank you all for your participation today. This has been 
tremendous. Thank you very much.
    This hearing is closed, but the record will stay open for 
10 days.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

         Response to Question of Senator Enzi by James Delozier

    Question. It is clear that children are the true victims of this 
drug. Therefore, how do we create resilience in children affected by 
this drug, and a stable environment that will allow them to live up to 
their full potential?
    Answer. From the Department of Family Services standpoint, we 
create resilience in these meth children by ensuring they are safe from 
harm, that they receive appropriate care through relative or non-
relative foster care, that their parents are given an appropriate 
opportunity to rehabilitate (in cases where it is appropriate) in order 
that the children may go back with them and be safe. When kids can't go 
back to their own homes, expedited permanancy through adoption is the 
best option to give them a sense of connection to family, even if it is 
a new family.
    Kids can't be allowed to grow up in those kind of homes without 
intervention because they will repeat the cycle of abuse in one form or 
another, or many, when they become adults.
    There are a few very specific reasons in the Federal Adoption and 
Safe Families Act which allow DFS to move to terminate parental rights 
without making reasonable efforts to rehabilitate the parents. Examples 
would be parent having murdered another child, parental rights were 
terminated on a previous child, etc.
    I would recommend that law be revisited to add to that list 
children moved from homes because of use of methamphetamine, 
manufacture of methamphetamine, sale of methamphetamine or both. Use 
itself is a complicated issue because it involves addiction and 
treatment issues.
    Use by a parent puts children at risk no doubt and is associated 
with selling and producing the drug a lot of times.
    Kids coming from homes where labs are found and selling is 
happening are exposed to deadly chemicals and all kinds of health 
hazards in a very severe sense. Also, children in these homes are 
frequently at risk of other major abuses such as sexual abuse, physical 
abuse, severe neglect, malnutrition, medical neglect; the list is 
endless.
    I think it would be appropriate to have meth be one of the 
variables upon which the agency could seek termination of parental 
rights immediately without making reasonable efforts to reunify. 
Jurisdictions would then have the ability to exercise these options if 
the case elements were determined appropriate and evidence present.
    I know the Constitution gives parents the right to associate with 
their children. However, this is a severe health crisis and many 
children are paying the price for their parent or caretakers 
involvement with methamphetamine. I think at some point society needs 
to draw a line in the sand and say ``if you do this, you lose the right 
to associate with your children.'' This may seem a harsh viewpoint 
coming from a social services professional but having seen so much of 
the meth issue now, some individuals need to be dealt with harshly when 
it comes to this treatment of their children, and the children need to 
be able to move forward from the issue as quickly as possible.

         Response to Questions of Senator Enzi by Rod Robinson

    Question 1. You mentioned the importance of using a full continuum 
of care model when treating meth. Can you describe more in depth how 
such a model works and how you work with other entities?
    Answer 1. There are two main components to WYSTAR's continuum of 
care:
    First, WYSTAR focuses on a ``recovery model'' rather than on a 
sickness or disease model. Under the recovery model, WYSTAR helps 
clients assess and plan for using their strengths and what is right 
with their lives. By contrast, a sickness model tends to point out the 
problems with clients and highlight what is wrong with them. The 
sickness model is further predicated on the assumption that the 
``professionals'' have all of the answers needed for the client to get 
well.
    What clients tell us and what our experience is showing us is that 
it is easier for clients to respond to a recovery model instead of a 
sickness or disease model. When treated through a sickness or disease 
model, clients tend to resist treatment both at the onset of treatment 
and throughout the course of the services.
    Under a recovery model, our clients are much less likely to resist 
change. By combining this recovery model with trauma-based therapy, we 
help our clients discover the underlying cause of their illness and, 
thus help them find their individualized path to sustainable recovery.
    Further, our clients tell us that the full continuum service matrix 
model that we use allows them to not only see their strengths, but to 
also see very clearly how they are making progress and where they need 
to focus more attention (a more detailed description of this matrix 
model was distributed at the HELP Committee roundtable in Casper).
    Second, WYSTAR couples this recovery model of treatment with a full 
continuum of care. This means that we strive to work with our clients 
in a stepped-down fashion from immediate intervention to primary 
treatment to recovery home living combined with outpatient services. 
This stepped-down treatment allows us to work with our clients over a 
longer period of time at a lower cost than primary treatment over 
similar durations.
    Throughout this continuum of care, we aim to identify critical 
craving thresholds and seek to address identified relapse stressors. In 
lay terms, this means that during our full continuum of treatment, we 
seek to identify those points in time during which our clients are most 
likely to have cravings for the substance to which they are addicted. 
By identifying these craving thresholds, we can better tailor our 
treatment to respond to such craving episodes and can also create space 
within our treatment continuum for life-skills training, job training, 
and other skill enhancements that help our clients respond to relapse 
stressors once they have left primary treatment and begun re-engaging 
in society.
    As our clients stabilize in each of the stepped-down levels of 
care, they receive tangible evidence that they are moving forward in 
building their long-term recovery momentum. Our clients also tell us 
that it is a relief for them to know that if they start running into 
difficulty or if relapse stressors start to present, they know that our 
continuum approach allows for them to step back up to more intensive 
services until they have re-stabilized and then they can step back down 
in service. The continuum acts as a safety net as well as a stabilizer. 
Our clients tell us that being able to practice recovery within this 
framework gives them the confidence that they can and will succeed in 
long-term recovery.
    Throughout this continuum of care, WYSTAR has sought to create 
community partnerships at every turn. All too often, the societal 
stigma associated with addiction contributes to relapses following 
treatment. By working cooperatively with a broad cross-section of the 
community, WYSTAR seeks to create nothing short of a recovery 
environment--a community that embraces people in recovery, helping them 
to obtain the skills they need to reenter society and helping them to 
remain gainfully employed following treatment.
    In particular, WYSTAR is currently working with drug courts, local 
employers, Sheridan College, the city of Sheridan, Sheridan County, 
Sheridan County Memorial Hospital, and many others to establish and 
enhance our continuum of care and to create a recovery environment in 
Sheridan, Wyoming.

    Question 2. You mentioned that NIDA-funded addiction-based research 
projects are not being funded in Wyoming and surrounded States. Can you 
describe the research currently underway by WYSTAR and more 
specifically how it is being funded and how you plan to disseminate the 
information?
    Answer 2. WYSTAR is currently conducting three research projects 
relating to the effectiveness of our treatment protocols.
    First, we are 18 months into the Women's Trauma and Addiction 
project that has been following 30 women to determine what elements of 
care were most important and effective for them in their treatment at 
our agency. We recognize that ptsd/trauma is one of the primary 
contributing factors to their onset of substance use and is one of the 
most significant barriers to long-term recovery. Until our female 
clients are able to grieve their losses, they are more than likely 
going to repeat the same behaviors that keep them stuck in traumatic 
relationships. We can share more of the formal study protocols and 
findings if you wish. The study was paid for by the Wyoming Department 
of Health, Substance Abuse Division.
    Second, we are pursuing a study funded via an earmarked grant that 
Senator Thomas helped to secure through SAMHSA. The grant is being used 
to assign four treatment beds at WYSTAR's women's facility to follow 
clients through a full continuum of care from primary residential to 
transitions to outpatient recovery support. In this study, we are 
attempting to determine the appropriate length of stay that is needed 
for women in rural America and the types of services that they are most 
in need of to ensure sustained recovery over time. Again we have formal 
study protocols that we would be happy to share.
    The third study that WYSTAR is currently pursuing is funded by the 
Wyoming Department of Health, Substance Abuse Division. We are 
following five primary methamphetamine men's beds through the full 
continuum of care to determine what is the most appropriate length of 
stay for methamphetamine treatment in rural America and to identify the 
services that are most in need for our clients to attain sustained 
abstinence and long-term recovery. This study is highlighted in 
handouts that I distributed at the roundtable that show the clients in 
this study achieving a 90.1 percent rate of abstinence and recovery at 
6 months. While these preliminary results are exciting, we recognize 
that the sample size is small and the project is only funded for 9 
months, which is far too short to fully assess the success rates for 
this treatment protocol. In subsequent studies, we would like to tract 
a larger sample of clients over a longer timeframe--18 months or 
longer--so that we can begin to definitively identify treatment options 
that are most successful for addressing the rural methampethamine 
crisis.
    WYSTAR is conducting all three of these studies on a shoe-string 
budget, which does not allow for the rigor of publishing and 
dissemination. Nonetheless, WYSTAR has initiated these studies based on 
the recognition that too little is currently known about the 
effectiveness of treatment in rural America. Rather than continuing to 
administer ``blind treatment'' we took it upon ourselves to set the 
stage for formal research simply because nobody else seemed to be 
interested in doing so. WYSTAR is very interested to deepening our 
research efforts and intends to work toward establishing a rural 
research institute on addictions. We would welcome the opportunity to 
talk in greater detail about this concept with members of the HELP 
Committee.

    Question 3. You also mentioned that you are using the UCLA model 
for tracking clients and have adapted it for rural Wyoming. Can you 
describe this model more in-depth and explain how you adapted it for 
rural areas and the resources you use to implement it in your programs?
    Answer 3. Unfortunately, our staff that administers the UCLA-
modified tracking system is currently unavailable to provide additional 
detail on this topic at this time. With the committee's permission, 
WYSTAR will provide an answer to this question next week.

    Question 4. What has been the best deterrent for recovering meth 
addicts to avoid relapsing?
    Answer 4. It is our assessment that our wellness and strength-based 
approach has helped empower our clients, as we teach what is right with 
them, what strengths they possess and how to operationalize these 
strengths. The launching platforms for this approach came from the 
Project Match study completed by NIAAA that looked at the strengths of 
cognitive, motivational and 12-Step facilitated therapies and also from 
the Heart and Soul of Change study by Miller, Duncan and Hubell 
published in 2000.
    Further, we believe that our full continuum approach has been 
highly effective in securing client buy-in to recovery and, by 
extension, has served as a highly effective deterrent preventing 
relapse. As mentioned above, we use several different tools such as the 
Recovery Schedule that helps client structure their time and track 
their craving thresholds, which in turn helps us help them to plan for 
the inevitable stressors that they will encounter on their road to 
recovery. The ASAM criteria has been a tremendous tool to use to help 
clinicians and clients understand the predisposing factors of 
addiction, relapse and what areas of a person's life need to be paid 
attention to.
    The simple answer is, that as providers we need to steer clients 
toward proven methods that they can use to avoid physical, 
psychological, environmental and societal relapse ``traps.''
    I hope this lends some clarity to why WYSTAR uses the approaches 
that we do and why we feel it is so important to find ways of sharing 
our success with others.
           Response to Questions of Senator Enzi by Anna Maki
    Question 1. What approaches or programs have been effective in 
reducing meth use amongst adolescents?
    Answer 1. The most recent Youth Risk Behavior Survey (YRBS) 
reported a significant decrease in the use of methamphetamine by 
Wyoming high school youth. In 2003, 11.6 percent of high school 
students surveyed reported that they had used methamphetamine at least 
once in their lifetime. In 2005, this figure had decreased to 8.5 
percent. While this decline is worth celebrating, it is important to 
realize that these figures only represent a moment in the data. Wyoming 
plans to continue their efforts and propose future objectives in order 
to maintain the decreasing trends in methamphetamine use by youth.
    Wyoming cannot attribute this decrease to one specific approach or 
program; there are numerous strategies that may have contributed to the 
decrease. A number of ``full-court press'' measures have been in 
operation in Wyoming that may contribute to the decrease.

                          PREVENTION MEASURES

    Prevention measures for alcohol and nicotine continue to be 
operating in Wyoming. Wyoming has observed a steady 10-year decline in 
both alcohol and nicotine use by teenagers. This decline has been 
accompanied by a decrease in methamphetamine use reported by high 
school students within the last 2 years. Data from upcoming years will 
be important in determining the continuation of these decreasing 
trends. The Division will continue its focus on tobacco and alcohol 
prevention efforts, which we anticipate will contribute to the 
reduction of methamphetamine and other illicit drug use. Meanwhile, the 
Division realizes that methamphetamine also deserves its own public 
health focus.

                        SOCIAL MARKETING & MEDIA

    In the late 90's methamphetamine began to receive attention from 
Wyoming media. Continual media coverage of the topics related to 
methamphetamine has been key to keeping the issue on the fore-front. 
Additionally, the Wyoming Department of Health, Substance Abuse 
Division began a social marketing campaign targeting methamphetamine 
awareness. The first stage of the campaign focused on overall awareness 
of the dangers associated with methamphetamine. Billboards, TV ads, 
radio and print features had one common theme ``Wyoming Faces Meth.'' 
The billboards, displaying individuals before and after their meth 
addiction were especially effective, as reported in a recent survey 
(500 respondents, conducted by Lindsey and Associates, 2005). Many of 
the creative concepts featured young, Wyoming-faces talking candidly 
about their experiences with methamphetamine. The second phase of the 
campaign, which the Division is currently directing, focuses on the 
theme ``Treatment Works.'' This phase of our campaign educates 
Wyomingites on the benefits of treatment for addiction, urging them to 
seek help for themselves or friends and family members.
    Currently the Division is in the contractual process with 
Partnership for Drug Free America. As an affiliate member of the 
Partnership, Wyoming will receive social marketing materials (radio 
ads, tv ads) that have been developed by top marketing firms across the 
Nation. A number of these ads are directed to the teenage population. 
These Partnership materials will be accompanied with additional 
marketing materials targeted to the school-age population.

                          JUVENILE DRUG COURTS

    There are 6 drug court programs specific to juveniles within 
Wyoming. Forty percent of juvenile drug court participants report use 
of methamphetamine. Based upon a comprehensive drug court survey 
conducted by Wyoming Survey and Analysis Center (WYSAC), most adult 
clients, juvenile clients, and parents believed that their 
participation in the Drug Court Program would help them abstain from 
both substance abuse and criminal activity. Additionally, most drug 
court clients felt that participation in the Drug Court Program had 
improved their life circumstances. The majority of adult, juvenile and 
parent respondents said that family relations, self-esteem, employment/
school, drug/alcohol abuse and their overall quality of life had 
improved since beginning the Drug Court Program.

             HOUSE BILL 308--$1 MILLION FOR METH PREVENTION

    The Wyoming Legislature, in 2005, allocated $2 million (one-time 
funds) to increase the residential treatment capacity in Wyoming. 
Additionally, the legislature slated $1 milllion (one-time funds) for 
prevention measures related to methamphetamine. These monies were 
allocated to programs throughout the State via a Request for Proposal 
(RFP) process. The intent of the funds was to provide prevention 
strategies for the families and children of those individuals in 
treatment for methamphetamine. The specific strategies vary amongst 
programs based upon their initial proposal. A number of the programs 
include parent education to help families develop skills to improve 
family relations, increase family cohesion, develop better 
communication skills and decrease problem behaviors and conflict.

             COMMUNITY INITIATIVES AGAINST METHAMPHETAMINE

    We know from tobacco and alcohol prevention and other prevention 
efforts that several elements are key in the prevention of drug use:

    1. A community coordinated effort is essential.
    2. The community must look at its own landscape and assess its own 
needs (with technical assistance and guidance from the State).
    3. It takes the whole community--multiple efforts--it cannot be 
left to law enforcement or schools or health departments or parents. 
Rather, efforts from all parties are essential.

    Community initiatives against methamphetamine are rising up all 
around Wyoming. These initiatives have developed in conjunction with 
the rising awareness of the issue. Community members from all sectors 
are making efforts to coordinate responses to methamphetamine. These 
include the development of regionalized policy surrounding drug 
endangered children, environmental issues related to meth, drug testing 
policies, and increasing overall awareness about methamphetamine in 
their communities.
    These approaches have begun to create an environment in Wyoming 
that is certainly aware of the devastation methamphetamine causes. 
Communities are talking about the issues, schools are hosting health 
fairs that include information on substance abuse including meth, high 
school students with experience using methamphetamine are speaking 
about their experiences to peer-audiences in formal conference, seminar 
and focus group settings.

                           FUTURE OBJECTIVES

    Current research does not offer any best-practice approaches to 
prevention for methamphetamine. However, the State of Wyoming is 
currently in the planning stages of adding a prevention component 
specific to methamphetamine. This meth prevention component will be 
planned around the Strategic Planning Framework promoted by the Center 
for Substance Abuse Prevention (CSAP). Planning for the meth prevention 
strategy is currently in an infant stage. However, we realize several 
elements are essential as we move through the planning process. First, 
it is unwise to implement or suggest prevention strategies until the 
need and the intended outcome are identified. Prevention strategies can 
then be rolled out to specifically address the need while also directly 
affecting the intended outcome. To initiate a successful meth 
prevention campaign, new strategies to collect meth-specific data and 
the information on surrounding issues, must be developed.

    Question 2. Understanding that meth has spread to every part of the 
State, how have you worked to ensure that areas, especially rural areas 
have access to the most up-to-date information and resources to treat 
and prevent meth use?
    Answer 2. Social Marketing/Media--Radio and newsprint are the 
primary means that Wyomingites receive their information, especially in 
the most rural regions of the State. Local media has been instrumental 
in keeping methamphetamine issues on the forefront. The Division and 
their media contractor have developed radio spots, and newsprint 
related to methamphetamine. Additionally, the Division has developed an 
extensive user-friendly Web site which includes a directory of all the 
certified treatment providers, levels of treatment provided, and 
contact information. The site also provides a number of resources via 
links. This enables citizens to access resources quickly and 
efficiently. Most recently, the Division purchased half page and 
quarter page newspaper ads in papers all across the State. A number of 
these papers service the most rural regions. These print ads carried 
the message that treatment works and advised readers of the treatment 
facilities located in their specific areas. These ads also complemented 
the billboard messages that were posted throughout the State.
    Community Trainings.--In 2004-2005, Wyoming Department of Health 
Substance Abuse Division personnel (and grant awardees) were invited by 
communities to provide over 100 public presentations reaching well over 
10,000 people. A number of these presentations were given in small 
communities as the Division realizes the importance of educating rural 
communities regarding methamphetamine issues.
    Treatment Facilities and Certification.--The Division provides on-
going training to treatment professionals through several means. The 
external certification entity, Center for the Application of Substance 
Abuse Technologies (CASAT) travels throughout the State providing day-
long education on a monthly basis. CASAT is involved in providing one-
on-one support to the treatment community for questions and 
clarification on various treatment related issues, as well as 
performing the certification evaluations and site reviews.

    Question 3. Can you describe continuum of care models in Wyoming 
that have been effective?
    Answer 3. Several substance abuse programs in Wyoming do provide a 
complete continuum of care either within the agency, or by utilizing 
other community agencies for ``wrap around'' services. The continuum of 
care begins with intervention and, if needed detoxification, followed 
by treatment (either outpatient, intensive outpatient, and 
residential). The most successful models include a post-treatment 
services component and transitional housing and support. Currently the 
latter is not widely available in all Wyoming communities.
    In Casper, Wyoming, Wyoming Access To Recovery (WATR) has 
contracted with existing service providers certified to provide 
addictions care using the American Society of Addictions Medicine 
(ASAM) Level 0.5 to ASAM Level 3.5. WATR established a Centralized 
Intake Unit and an independent Clinical Assessment Unit to establish 
independence from those contracted to provide services. Faith Based 
Organizations (FBO) have united to provide recovery support services. 
These non-traditional services re-socialize the clients by engaging 
them in social activities, developing relationships with other 
attendees, and establishing mentoring relationships with program 
facilitators. Recovery support service reimbursement assists both 
secular and faith-based Recovery Support Providers to develop the 
capacity to fill in any existing gaps in the prevention, intervention, 
treatment and aftercare continuum of care.
    At the current time, the Substance Abuse Division is unable to 
gather program specific data to enable a measure of effectiveness of 
continuum of care programs.

          Response to Questions of Senator Enzi by Mr. Rawson

    Question 1. It is clear from the testimonies we are hearing today 
that meth is fiercely addictive, and that individuals can be hooked 
from using just once. This makes it more difficult to target one 
specific population at risk for meth use. Therefore, how does an 
individual have access to treatment that fits that individual's need?
    Answer 1. First, meth is a powerfully addicting drug. So are 
cocaine, heroin and nicotine among others. The ``one time and you're 
addicted'' idea is a myth.
    Based on what we've seen to date, we can identify groups at risk. 
Meth users are 50 percent male and 50 percent female. This is a much 
higher percent of women than we have seen with other drugs . . . women 
are at high risk. Gay men are at risk; increasingly young people are at 
risk; workers in high fatigue jobs, Native Americans and increasingly 
Hispanics.
    ``Treatment to fit an individual's needs'' is an ideal, almost a 
platitude. Of course it is good to make treatment to fit needs, but the 
truth is, if we could get people to use good solid treatments for meth 
and be properly trained and actually use this material (rather than 
just do what they have done for the past 30 years), we could make 
immense progress in treating meth users. In some cases, this mantra of 
``treatment that fits needs'' is an excuse for doing what you want to 
do and are comfortable doing rather than learning anything new.
    If the areas treating meth users actually could get their treatment 
professionals to use strategies that have been proven effective with 
stimulant users by NIDA and SAMHSA, they could make major progress.

    Question 2. What has been the best deterrent for recovering meth 
addicts to avoid relapsing?
    Answer 2. Drug courts are very useful. With voluntary patients, a 
technique called contingency management is very useful.
    I can give you more information if you want. I've attached a brief 
treatment article for a semi-lay article.

    [Whereupon, at 3:37 p.m., the committee was adjourned.]


</pre></body></html>
